<html>
<title> - H.R. 2027, H.R. 2154, H.R. 2236, H.R. 2714, H.R. 2719, H.R. 3009, AND H.R. 3117</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
H.R. 2027, H.R. 2154, H.R. 2236, H.R. 2714, H.R. 2719, H.R. 3009, AND 

                               H.R. 3117

=======================================================================



                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,

                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 25, 2011

                               __________

                           Serial No. 112-74

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
70-952                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 25, 2011........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     8
        Prepared statement of....................................    10
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     3
        Prepared statement of....................................     7
    Wittman, Hon. Robert J., a Representative in Congress from 
      the State of Virginia, Prepared statement of...............    12
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................    34

Statement of Witnesses:
    Adrian, Carl F., President and CEO, Tri-City Development 
      Council....................................................    44
        Prepared statement on H.R. 2719..........................    45
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan..........................................    12
        Prepared statement on H.R. 2236 and H.R. 3009............    14
    Kurth, James W., Assistant Director, National Wildlife Refuge 
      System, U.S. Fish and Wildlife Service, U.S. Department of 
      the Interior...............................................    16
        Prepared statement on H.R. 2027, H.R. 2154, H.R. 2236, 
          H.R. 2714, H.R. 2719, H.R. 3009, and H.R. 3117.........    17
    Miller, Michael, Chair, Indigenous People's Council for 
      Marine Mammals.............................................    49
        Prepared statement on H.R. 2714..........................    51
    Nicholson, Jacqueline, South Bay Homeowners Association......    53
        Prepared statement on H.R. 2154..........................    54
    Ragen, Timothy J., Ph.D., Executive Director, Marine Mammal 
      Commission.................................................    28
        Prepared statement on H.R. 2714..........................    29
    Smith, Ann Bloxom, Friends of Black Bayou Lake National 
      Wildlife Refuge............................................    56
        Prepared statement on H.R. 3009..........................    58
    Sutherland, Scott, Director of Government Affairs, Ducks 
      Unlimited..................................................    62
        Prepared statement on H.R. 3117..........................    63

Additional materials supplied:
    Cicilline, Hon. David N., a Representative in Congress from 
      the State of Rhode Island, Statement submitted for the 
      record.....................................................     4
    Hartwig, William F., Chief of the National Wildlife Refuge 
      System (Retired), Letter submitted for the record..........     6
    Jack, Lianna, Executive Director of Alaska Sea Otter and 
      Steller Sea Lion Commission, Comments submitted for the 
      record.....................................................    36
    National Wildlife Federation, Florida Wildlife Federation, 
      and Natural Resources Defense Council, Letter submitted for 
      the record.................................................    71
    Robertson, Preston T., Vice President/General Counsel, 
      Florida Wildlife Federation, Letter submitted for the 
      record.....................................................     5
                                     

LLEGISLATIVE HEARING ON H.R. 2027, TO REVISE THE BOUNDARIES OF 
JOHN H. CHAFEE COASTAL BARRIER RESOURCES SYSTEM SACHUEST POINT 
UNIT RI-04P, EASTON BEACH UNIT RI-05P, ALMY POND UNIT RI-06, 
AND HAZARDS BEACH UNIT RI-07 IN RHODE ISLAND; H.R. 2154, TO 
CORRECT THE BOUNDARIES OF THE JOHN H. CHAFEE COASTAL BARRIER 
RESOURCES SYSTEM GASPARILLA ISLAND UNIT FL-70P; H.R. 2236, 
DIRECTS THE UNITED STATES POSTAL SERVICE (USPS) TO ISSUE AND 
SELL, AT A PREMIUM, A WILDLIFE REFUGE SYSTEM CONSERVATION 
SEMIPOSTAL STAMP. REQUIRES THE USE OF SUCH STAMP TO BE 
VOLUNTARY ON THE PART OF POSTAL PATRONS. ``WILDLIFE REFUGE 
SYSTEM CONSERVATION SEMIPOSTAL STAMP ACT OF 2011''; H.R. 2714, 
TO AMEND THE MARINE MAMMAL PROTECTION ACT OF 1972 TO ALLOW THE 
TRANSPORT, PURCHASE, AND SALE OF PELTS OF, AND HANDICRAFTS, 
GARMENTS, AND ART PRODUCED FROM, SOUTHCENTRAL AND SOUTHEAST 
ALASKA NORTHERN SEA OTTERS THAT ARE TAKEN FOR SUBSISTENCE 
PURPOSES; H.R. 2719, DIRECTS THE SECRETARY OF THE INTERIOR TO 
PROVIDE ACCESS TO THE SUMMIT OF RATTLESNAKE MOUNTAIN IN THE 
HANFORD REACH NATIONAL MONUMENT IN THE STATE OF WASHINGTON FOR 
EDUCATIONAL, RECREATIONAL, HISTORICAL, SCIENTIFIC, CULTURAL, 
AND OTHER PURPOSES. ``RATTLESNAKE MOUNTAIN PUBLIC ACCESS ACT OF 
2011''; H.R. 3009, TO AMEND THE NATIONAL WILDLIFE REFUGE SYSTEM 
ADMINISTRATION ACT OF 1966 TO REQUIRE THAT ANY NEW NATIONAL 
WILDLIFE REFUGE MAY NOT BE ESTABLISHED EXCEPT AS EXPRESSLY 
AUTHORIZED BY STATUTE. ``NATIONAL WILDLIFE REFUGE REVIEW ACT OF 
2011''; AND H.R. 3117, TO GRANT THE SECRETARY OF THE INTERIOR 
PERMANENT AUTHORITY TO AUTHORIZE STATES TO ISSUE ELECTRONIC 
DUCK STAMPS, AND FOR OTHER PURPOSES. ``PERMANENT ELECTRONIC 
DUCK STAMP ACT OF 2011''.
                              ----------                              


                       Tuesday, October 25, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Sablan, Young, Wittman, 
Duncan, Southerland, and Harris.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Good afternoon.
    Today, the Subcommittee will hold a legislative hearing on 
seven bills that affect the Fish and Wildlife Service. And a 
few of these bills have the potential to save taxpayers' money. 
At the appropriate time, I will recognize members of the 
Committee who have sponsored several of these measures.
    The first two bills, H.R. 2027 and H.R. 2154, make 
modifications to the John H. Chafee Coastal Barrier Resources 
System. Since this system was established in 1984, it has saved 
billions of taxpayer dollars. Historically, the maps were hand 
drawn, and on occasion the Congress has been asked to correct 
honest mapping mistakes that are adversely affecting homeowners 
who should never have been incorporated within the system. 
These two bills appear to meet that criterion.
    The third bill, H.R. 2236, was introduced by our Ranking 
Member, Congressman Gregorio Sablan. It has been cosponsored by 
46 Members of the House, including myself. And it would create 
an innovative way to raise funds for the ever-increasing 
operations and maintenance backlog within the National Wildlife 
Refuge System.
    The fourth bill, H.R. 2714, would amend the Marine Mammal 
Protection Act to allow Alaska Natives to more broadly utilize 
Northern sea otters' pelts legally taken in subsistence hunts 
from the nonlisted populations in Alaska.
    The next bill, H.R. 2719, was introduced by our Full 
Committee Chairman, and it would allow public access to the 
summit of Rattlesnake Mountain, which is located within the 
Hanford Reach National Monument in the State of Washington.
    The sixth bill, H.R. 3117, would make permanent the ability 
of a migratory waterfowl hunter to electronically purchase 
their annual Federal duck stamp. This is an important 
technological advancement.
    Finally, we will hear testimony on H.R. 3009, a bill I 
introduced, to require that any new National Wildlife Refuge 
must be authorized by the Congress. In my own State of 
Louisiana, seven of the 23 refuges were legislatively created, 
including the Red River National Wildlife Refuge in my own 
Congressional District.
    In fact, this refuge is the model that I envision in the 
future. From the day my distinguished predecessor, Congressman 
Jim McCreary, introduced his bill to establish the Red River 
unit, through congressional hearings, markups, floor debate, 
and Presidential bill signing, exactly 6 months passed for the 
whole shebang. There is no one who can objectively argue that 
this was an arduous process or that somehow the establishment 
of this refuge was delayed. Quite the contrary, this process 
ensured that this proposed refuge was carefully reviewed and 
that Congress and the public supported its creation.
    The requirement contained within H.R. 3009 is neither new 
nor radical.
    As my colleagues well know, it requires an Act of Congress 
to add or delete even one acre of property from a national 
park, wilderness area, wild and scenic river or unit of the 
Coastal Barrier Resources System. There is nothing inherently 
unique about the establishment of a national wildlife refuge 
unit that should prevent the Congress from approving a refuge 
which will end up costing millions of dollars. While I suspect 
the Fish and Wildlife Service will be unwilling to give up this 
unilateral authority, I would remind my colleagues that the 
Service intends to establish two refuges in Florida and Kansas 
that will cost more than a billion dollars. If we are going to 
put our taxpayers on the hook for this kind of massive 
expenditure, at a minimum we should be willing to authorize 
those land acquisitions. This is the fundamental purpose of the 
National Wildlife Refuge Review Act.
    I am now pleased to recognize our distinguished Ranking 
Member from the Commonwealth of the Northern Mariana Islands 
for any statement he would like to make.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good afternoon, today, the Subcommittee will hold a legislative 
hearing on seven bills that affect the Fish and Wildlife Service and a 
few of these bills have the potential to save taxpayers money. At the 
appropriate time, I will recognize members of the Committee who have 
sponsored several of these measures.
    The first two bills, H.R. 2027 and H.R. 2154, make modifications to 
the John H. Chafee Coastal Barrier Resources System. Since this system 
was established in 1984, it has saved billions of taxpayer dollars. 
Historically the maps were hand drawn, and on occasion the Congress has 
been asked to correct honest mapping mistakes that are adversely 
affecting homeowners who should never have been incorporated within the 
System. These two bills appear to meet that criterion.
    The third bill, H.R. 2236, was introduced by our Ranking Member, 
Congressman Gregorio Sablan. It has been cosponsored by 46 Members of 
the House, including myself, and it would create an innovative way to 
raise funds for the ever increasing operations and maintenance backlog 
within the National Wildlife Refuge System.
    The fourth bill, H.R. 2714, would amend the Marine Mammal 
Protection Act to allow Alaskan natives to more broadly utilize 
Northern sea otters pelts legally taken in subsistence hunts from the 
non-listed populations in Alaska.
    The next bill, H.R. 2719, was introduced by our Full Committee 
Chairman and it would allow public access to the summit of Rattlesnake 
Mountain which is located within the Hanford Reach National Monument in 
the State of Washington.
    The sixth bill, H.R. 3117, would make permanent the ability of a 
migratory waterfowl hunter to electronically purchase their annual 
federal duck stamp. This is an important technological advancement.
    Finally, we will hear testimony on H.R. 3009, a bill I introduced 
to require that any new National Wildlife Refuge must be authorized by 
the Congress. In my own State of Louisiana, seven of the twenty-three 
refuges were legislatively created including the Red River National 
Wildlife Refuge in my Congressional District. In fact, this refuge is 
the model that I envision in the future.
    From the day, my distinguished predecessor, Congressman Jim 
McCreary introduced his bill to establish the Red River unit, through 
Congressional hearings, markups, floor debate and Presidential bill 
signing, exactly six months passed. There is no one who can objectively 
argue that this was an arduous process or that somehow the 
establishment of this refuge was delayed. Quite the contrary, this 
process ensured that this proposed refuge was carefully reviewed and 
that Congress and the public supported its creation.
    The requirement contained within H.R. 3009 is neither new nor 
radical. As my colleagues well know, it requires an Act of Congress to 
add or delete even one acre of property from a national park, 
wilderness area, wild and scenic river or unit of the Coastal Barrier 
Resources System. There is nothing inherently unique about the 
establishment of a national wildlife refuge unit that should prevent 
the Congress from approving a refuge which will end up costing millions 
of dollars. While I suspect the Fish and Wildlife Service will be 
unwilling to give up this unilateral authority, I would remind my 
colleagues that the Service intends to establish two refuges in Florida 
and Kansas that will cost more than a billion dollars. If we are going 
to put our taxpayers on the hook for this kind of massive expenditure, 
at a minimum, we should be willing to authorize those land 
acquisitions. This is the fundamental purpose of the National Wildlife 
Refuge Review Act.
    I am now pleased to recognize our distinguished Ranking Member from 
the Commonwealth of the Northern Mariana Islands for any statement he 
would like to make.
                                 ______
                                 

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
     DELEGATE IN CONGRESS FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Chairman Fleming, and 
thank you for holding today's hearing. I especially look 
forward to the testimony of our colleague, Mr. John Dingell, 
who is a long-standing champion of the National Wildlife Refuge 
System, and from our other witnesses concerned about protecting 
America's natural heritage.
    Two of today's bills concern the Coastal Barrier Resources 
System. This program has saved taxpayers billions of dollars by 
prohibiting the use of Federal funds to develop coastal areas 
that protect us from storm surges and are hazardous to build 
on. I commend Congressman Cicilline for introducing H.R. 2027, 
and I ask that his testimony be submitted for the record.
    Dr. Fleming. Without objection, so ordered.
    [The prepared statement of Mr. Cicilline follows:]

     Statement of The Honorable David N. Cicilline, U.S. House of 
    Representatives, The 1st District of Rhode Island, on H.R. 2027

    Chairman Fleming, Ranking Member Sablan, and members of the 
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs--thank 
you for this opportunity to present testimony in support of H.R. 2027, 
a bill that revises the boundaries of four units of the John H. Chafee 
Coastal Barrier Resources System (CBRS) in Newport County, Rhode 
Island. The revised map, which reflects a comprehensive review process 
conducted by the U.S. Fish and Wildlife Service (USFWS), removes lands 
that were erroneously included within the CBRS in 1990 and adds lands 
that are appropriate for CBRS inclusion.
    As this subcommittee is aware, the Coastal Barrier Resources Act 
(CBRA) of 1982 created the CBRS. The CBRS is comprised of approximately 
3.1 million acres of land and aquatic habitat along the Atlantic, Gulf, 
and Great Lake coasts. The CBRA encourages conservation of these lands 
by restricting federal expenditures that encourage development, such as 
federal flood insurance. The USFWS maintains the maps that define the 
CBRS boundaries, which are then approved and enacted into law by the 
United States Congress.
    Shortly upon taking office in January of this year, I was contacted 
by a constituent regarding a long-standing technical mapping error 
pertaining to the CBRS. My constituent's property was inappropriately 
included within the CBRS when Easton Beach Unit RI-05P was originally 
designated by the Coastal Barrier Improvement Act of 1990. This 
constituent had previously worked with my predecessor, Representative 
Patrick Kennedy, to resolve this matter. In the 111th Congress, 
Representative Kennedy, working with the USFWS, introduced H.R. 5331. 
This legislation was based upon a comprehensive review conducted by the 
USFWS and would have corrected the technical mapping error rendered in 
1990 and also enacted new boundaries to include additional parcels of 
undeveloped land appropriate for inclusion within the CBRS. A 
Subcommittee hearing was held on H.R. 5331, but this non-controversial 
piece of legislation did not advance to the House floor prior to the 
conclusion of the 111th Congress.
    This technical mapping error has triggered onerous and unwarranted 
restrictions on the use of the property. The constituent landowner has 
patiently waited several years for this matter to be rectified, and 
following the comprehensive review, recommendations, and revisions 
proposed by the USFWS, the only remaining step to conclude this process 
is Congressional approval of the CBRS map boundaries contained in H.R. 
2027.
    At a hearing before the House Natural Resources Subcommittee on 
Insular Affairs, Oceans and Wildlife on July 27, 2010, the USFWS 
testified in support of H.R. 5331, and confirmed that the boundaries of 
Unit RI-05P that captured private land owned by my constituent were 
drawn in error on the existing map that was created in 1990. My office 
has received notice that the USFWS will again testify in support of the 
identical bill, H.R. 2027, here in the 112th Congress. In addition, in 
August of 2010, the USFWS sent notice to several entities in Newport 
County, Rhode Island apprising them of the proposal to revise four 
units of the CBRS. My office has subsequently corresponded with these 
same entities, including the Audubon Society of Rhode Island, Norman 
Bird Sanctuary, Sachuest Point National Wildlife Refuge, Town of 
Middletown, City of Newport, Rhode Island Coastal Resources Management 
Council, and Rhode Island Emergency Management Agency. To date we have 
received no objection to the proposal, and in most instances the 
parties were of the belief that the matter had been addressed in the 
prior Congress.
    As the USFWS has previously testified, the 1990 CBRS map 
inappropriately captured private land adjacent to Unit RI-05P that was 
not held for conservation or recreation purposes, was not an inholding, 
and was not intended for inclusion as an Otherwise Protected Area 
(OPA). As was attempted previously through H.R. 5331 in the 111th 
Congress, the legislation before you today, H.R. 2027, removes the 
property in question as well as other private lands that were added to 
CBRS in error in 1990, and adds lands suitable for inclusion within the 
CBRS.
    Once again, I thank Chairman Fleming, Ranking Member Sablan, and 
the members of the Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs for their time and consideration of this non-
controversial legislation, which will rectify this long-standing 
technical mapping error and make additional, appropriate map revisions 
in Newport County, Rhode Island.
                                 ______
                                 
    Mr. Sablan. I am also interested to hear more about 
Congressman Mack's bill, H.R. 2154, and would like to submit a 
letter from the Florida Wildlife Federation, which has some 
concerns.
    Dr. Fleming. Without objection, so ordered.
    [The letter from the Florida Wildlife Federation submitted 
for the record follows:]

                      Florida Wildlife Federation

                       2545 Blairstone Pines Dr.

                         Tallahassee, FL 32301

VIA FACSIMILE TRANSFER AND U.S. MAIL

October 24, 2011

The Hon. John Fleming, Chairman
The Hon. Gregorio Sablan, Ranking Member
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
Committee on Natural Resources
1324 Longworth HOB
Washington, DC 20515

RE: Support for H.R. 2027 and Opposition to H.R. 2154

Dear Chairman Fleming and Representative Sablan:

    On behalf of the approximately 60,000 members and supporters of the 
Florida Wildlife Federation, comprised of outdoor recreationalists such 
as hunters, anglers and campers, please note our support for H.R. 2027 
and our strong opposition to H.R. 2154. Both of these bills deal with 
the Coastal Barrier Resources Act (CBRA), which has not only protected 
many acres of coastal habitat which benefits Florida's tourism 
industry, but also saved billions in tax dollars by not allowing 
federal insurance to underwrite poorly planned coastal development.
    H.R. 2027 will provide the basis for legitimate boundary 
adjustments to CBRA and add areas that truly warrant designation. This 
is a common sense bill.
    Unfortunately, H.R. 2154 undercuts the intent of CBRA by taking 
Florida Unit 70P (near Gasparilla Island State Park) out of the system 
and thereby forcing all taxpayers, who have no interest in these ill-
sited properties, to shoulder the economic burden of increased risk.
    Thank you very much for your consideration.

Cordially,

/s/ Preston T. Robertson

Preston T. Robertson
Vice-President/General Counsel
                                 ______
                                 
    Mr. Sablan. Thank you, Mr. Chairman.
    I am looking forward to our witnesses on Congressman 
Young's bill, H.R. 2714, which relaxes rules on the sale and 
export of sea otter pelts. I know there are concerns this could 
have the unintended effect of encouraging the illegal trade in 
sea otter parts, and create overseas competition for Alaska 
Native artisans who create authentic, high-value sea otter 
handicrafts.
    I would like to submit for the record two studies and 
several letters expressing these concerns about the impact of 
the bill on the management of sea otters.
    Dr. Fleming. Without objection, so ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Sablan. Thank you very much. I am interested to hear 
more about Chairman Hastings' bill, H.R. 2719. The Chairman's 
bill requires motor vehicle access to Rattlesnake Mountain in 
the Hanford Reach National Monument.
    I would like to commend Congressmen Wittman and Kind for 
introducing H.R. 3117. Their bill would allow online sale of 
duck stamps, which should make more money available to purchase 
and protect wetland habitat for migratory waterfowl.
    Also on our agenda is H.R. 3009. I have been asked to 
submit for the record a letter in opposition to the bill from 
William Hartwig, former Chief of the National Wildlife Refuge 
System.
    Dr. Fleming. Without objection, so ordered.
    [The letter from Mr. Hartwig submitted for the record 
follows:]

                           William F. Hartwig

                         28735 Jacks Field Road

                       Wye Mills, Maryland 21679

                            October 21, 2011

House of Representatives
Natural Resource Committee
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
Longworth House Office Building
Washington, DC

Dear Chairman Fleming and Ranking Member Christensen:

    I wish to state my opposition to H.R. 3009, a bill amending the 
National Wildlife Refuge Act of 1966 to require that any new National 
Wildlife Refuge may not be established except as expressly authorized 
by statute. During my 33 years of government service including 
positions of Chief of the National Wildlife Refuge System, Regional 
Director of the Great Lakes-Big Rivers Region, Chief of Realty, and 
Secretary of the Migratory Bird Conservation Commission I had personal 
involvement in the establishment of numerous National Wildlife Refuges.
    The National Wildlife Refuge System has been served well by the Act 
of 1966 and I see no reason to modify its legislative direction. 
Congress intended to make the National Wildlife Refuge System quickly 
responsive to changing wildlife needs. Enacting specific legislation 
usually takes several years. During this time of legislative 
development significant natural resources can be lost forever. I do not 
see an active period of expansion for the National Wildlife Refuge 
System. Today the vast majority of lands needed to protect our wildlife 
for current and future generations are contained within the currently 
authorized 550+ National Wildlife Refuges. New additions to the refuge 
system are expected to be minimal. Most new refuges over the past 20 
years have been approved by the Migratory Bird Conservation Commission 
with Congressional involvement or by direct Congressional action. By 
agreement with the Appropriations Committees new Refuges are not 
contained within Appropriations requests without prior Congressional 
consent.
    Recent additions to the National Wildlife Refuge System have been 
based upon landowner agreement and often contain a majority of lands 
protected via other than fee title. Communities have demanded quick 
action of a cooperative nature to protect lands within their 
neighborhoods. These communities feel that their refuge does needs 
local acceptance rather than national approval beyond that provided by 
the Act of 1966. Examples of such locally driven refuges include the 
Flint Hills Legacy Conservation Area in Kansas, Dakota Grassland 
Conservation Area in the Dakotas, Cherry Valley National Wildlife 
Refuge in Pennsylvania, and Tulare Basin Wildlife Management area in 
California. All are largely easement and landowner agreements managed 
by the Fish and Wildlife Service.
    In conclusion, I do not see an abuse of the authority granted by 
Congress via the National Wildlife Refuge Act of 1966. I do not see a 
demand for significant increases in units of the National Wildlife 
Refuge System. I do see that the change proposed by H.R. 3009 will 
hinder rather than assist in quickly protecting those very few 
additional units that may be necessary to protect valuable wildlife 
habitat for the benefit of current and future generations of Americans.
    Thank you for the opportunity to comment.

Sincerely

William F. Hartwig
Chief of the National Wildlife Refuge System (Retired)
                                 ______
                                 
    Mr. Sablan. Finally, my own bill, H.R. 2236, the Wildlife 
Refuge System Conservation Semipostal Stamp Act is on our 
agenda. I want to thank again Chairman Fleming for including 
H.R. 2236 in today's hearing and for being a cosponsor.
    The Wildlife Refuge System Conservation Semipostal Stamp 
uses a proven system of raising private funding for worthy 
public purposes. The Breast Cancer Research semipostal stamp, 
for instance, has raised about $75 million since 1998. And a 
new Save Vanishing Species semipostal stamp just went on sale 
September 20. The public bought 1.6 million in September alone, 
raising $176,000 for international wildlife conservation.
    My bill would do the same for America's National Wildlife 
Refuge System, which has an operations and maintenance backlog 
of $3.4 billion after decades of underfunding. In my own 
district, proceeds from the sale of the Wildlife Refuge stamp 
could pay some of the $380,000 needed for the staff, visitor 
services, education, and volunteer programs in the Mariana 
Trench National Wildlife Refuge and the Mariana Arc of Fire 
National Wildlife Refuge. Both are part of the Mariana Trench 
Marine National Monument that President Bush created by 
Executive Order in 2009.
    I believe that America's Wildlife Refuge System has proven 
to be a great investment for our country. Refuges generate $1.7 
billion in sales for local communities annually, and create 
nearly 27,000 jobs. My bill would allow Americans to continue 
investing in the refuges to ensure our fish, wildlife, and 
natural habitats are protected for the enjoyment and benefit of 
today and for future generations.
    I want to thank the 48 Republican and Democrat cosponsors 
of my bill, including our first witness today, Congressman 
Dingell, whose expertise in the Refuge System is second to 
none.
    With that, I look forward to hearing from our witnesses and 
learning more about these issues. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Fleming, for holding today's hearing.
    I especially look forward to the testimony of our colleague, Mr. 
John Dingell, who is a long-standing champion of the National Wildlife 
Refuge System--and from our other witnesses concerned about protecting 
our America's natural heritage.
    Two of today's bills concern the Coastal Barrier Resources System. 
This program has saved taxpayers billions of dollars by prohibiting the 
use of federal funds to develop coastal areas that protect us from 
storm surges and are hazardous to build on. I commend Congressman 
Cicilline [SIS-AH-LEE-KNEE] for introducing H.R. 2027 and I ask that 
his testimony be submitted for the record. I am also interested to hear 
more about Congressman Mack's bill, H.R. 2154, and would like to submit 
letters which have some concerns.
    I am looking forward to our witnesses on Congressman Young's bill, 
H.R. 2714, which relaxes rules on the sale and export of sea otters 
pelts. I know there are concerns this could have the unintended effect 
of encouraging the illegal trade in sea otter parts, and create 
overseas competition for Alaska Native artisans who create authentic, 
high-value sea otter handicrafts. I would like to submit for the record 
two studies and several letters expressing these concerns about the 
impact of the bill on the management of sea otters.
    I am interested to hear more about Representative Hastings' bill, 
H.R. 2719. The Chairman's bill requires motor vehicle access to 
Rattlesnake Mountain in the Hanford Reach National Monument.
    I would like to commend Congressmen Wittman and Kind for 
introducing H.R. 3117. Their bill would allow on-line sale of Duck 
Stamps, which should make more money available to purchase and protect 
wetland habitat for migratory waterfowl.
    Also on our agenda is H.R. 3009. I have been asked to submit for 
the record a letter in opposition to the bill from William Hartwig, 
former Chief of the National Wildlife Refuge System.
    Finally, my own bill, H.R. 2236, the Wildlife Refuge System 
Conservation Semipostal Stamp Act, is on our agenda. I want to thank 
you, Chairman Fleming, for including H.R. 2236 in today's hearing and 
for being a cosponsor.
    The Wildlife Refuge System Conservation Semipostal Stamp Act uses a 
proven system of raising private funding for worthy public causes. The 
Breast Cancer Research semipostal stamp, for instance, has raised about 
$75 million since 1998. And a new Save Vanishing Species semipostal 
just went on sale on September 20th. The public bought 1.6 million in 
September alone, raising $176,000 for international wildlife 
conservation.
    My bill will do the same for America's National Wildlife Refuge 
System, which has an operations and maintenance backlog of $3.4 billion 
after decades of underfunding.
    In my own district, proceeds from the sale of the Wildlife Refuge 
stamp could pay some of the $380,000 needed for the staff, visitor 
services, education, and volunteer programs in the Mariana Trench 
National Wildlife Refuge and the Mariana Arc of Fire National Wildlife 
Refuge. Both are part of the Mariana Trench Marine National Monument 
that President Bush created by Executive Order in 2009.
    I believe that America's Wildlife Refuge System has proven to be a 
great investment for our country. Refuges generate $1.7 billion in 
sales for local communities annually and create nearly 27,000 jobs.
    My bill will allow Americans to continue investing in their refuges 
to ensure our fish, wildlife, and natural habitats are protected for 
the enjoyment and benefit of today and for future generations.
    I want to thank the 48 Republican and Democrat cosponsors of my 
bill, including our first witness today, Congressman Dingell, whose 
expertise in the Refuge System is second to none.
    With that, I look forward to hearing from our witnesses and 
learning more about these issues.
                                 ______
                                 
    Dr. Fleming. The gentleman yields his time. I thank the 
Ranking Member. Based on the traditions of this Subcommittee, I 
would like to recognize the Chairman of the Natural Resources 
Committee, the distinguished gentleman from Washington, 
Congressman Doc Hastings, for any opening statement he would 
like to make on his bill, H.R. 2719.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Chairman Fleming, for your 
courtesy, and thank you for having a hearing on these bills, 
including H.R. 2719, the bill I authored regarding Rattlesnake 
Mountain.
    Let me be very clear about the goal of this bill. It is to 
ensure that public access is allowed to the summit of 
Rattlesnake Mountain, including motorized access. The text of 
the bill simply ensures that the public has access to the 
public's lands. A law is necessary because, quite frankly, the 
Fish and Wildlife can't be trusted to ensure such access.
    Let's go to the other slide. That is a very good slide, but 
go to the other one. There should be one more slide up there, a 
picture--there it is right there. OK. Although I must say I 
like that first one very much, too. Let me go back in history.
    Eleven years ago, without local input or Congressional 
approval, President Clinton issued Proclamation 7319 that 
established a 195,000-acre Hanford Reach National Monument 
around the Department of Energy's Hanford site, right across 
the river from my hometown. And let's remind ourselves the 
lands of the monument were primarily private ownership prior to 
World War II, when the Federal Government literally swooped in 
and told landowners that they had 30 days to move their 
families, their farms, and their entire communities so this 
could be part of the secret Manhattan Project. And I might add 
all of Rattlesnake Mountain was under private ownership prior 
to the Second World War. The monument, the only one in the 
continental United States managed by the U.S. Fish and Wildlife 
Service, includes Rattlesnake Mountain. It is 3,600 feet, and 
it is the highest point, and it provides unparalleled views for 
miles around the monument, including the whole Hanford site, 
the Columbia River, the Snake River, and the Yakima River.
    The public should expect that if they can visit the summit 
of Mount Rainier, which is 14,000 feet high, that they ought to 
have an opportunity to go up a 3,600-foot mountain and look 
from the top. Yet it took the Service 8 years to write a 
management plan that closed Rattlesnake Mountain to public 
access. They have not allowed public tours since that time. 
After I introduced this bill in the last Congress, the Service 
offered two tours for selected individuals, and then suddenly 
reneged on the offer just days before the tours were to occur, 
without any explanation.
    The Interior Department submitted testimony infers that the 
Service supports tours of Rattlesnake, but very carefully it 
does not say that they will ever allow access to the summit. 
Furthermore, the testimony goes on to say why the Service can't 
possibly allow public access until after 2012 because of 
consultation with the three Indian tribes that are known to 
oppose visitation to the top of Rattlesnake Mountain.
    Well, in all due respect, what has the Service been doing 
for the past 10 years? The position of the tribes is well 
known, and I fully respect their rights and their views. But 
this doesn't explain what the Service has been doing since 
2000, when consultation should have begun. To be frank, the 
Service has had more than 10 years, and they say it will take 
several more, before they can determine if they will allow 
American people to have access to Rattlesnake Mountain.
    So this bill is necessary because the only way to guarantee 
public access is to require it by law. The lands of the 
monument and entire Hanford site belong to all of the American 
people. The views of the Indian tribes are very legitimate, and 
they have every right to be heard and consulted. But the views 
of the local communities and all citizens also deserve to be 
heard and listened to. And there is overwhelming public support 
for access to the summit of Rattlesnake Mountain.
    I want to welcome Carl Adrian, who is the President of the 
Tri-City Development Council, who will be testifying in support 
of this bill. And Mr. Chairman, I also ask unanimous consent to 
include in the record statements and letters from the board of 
the Benton County Commissioners, of which Rattlesnake Mountain 
is totally located, the Tri-City Regional Chamber of Commerce, 
the Tri-Cities Visitors and Convention Bureau, and the Back 
Country Horsemen of Washington, who all favor this legislation. 
I ask unanimous consent they be included in the record.
    Dr. Fleming. Without objection, so ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Hastings. With that, I yield back my time, and again 
thank you for your consideration.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Thank you, Chairman Fleming for holding this hearing on H.R. 2719, 
the Rattlesnake Mountain Public Access Act.
    Let me be very clear about the goal of this bill: to ensure that 
public access is allowed to the summit of Rattlesnake Mountain, 
including motorized access. The text of the bill is not overly 
prescriptive, it simply ensures that the public has access to the 
public's lands. A law is necessary because, quite frankly, the Fish and 
Wildlife Service can't be trusted to ensure such access.
    To provide some background: Eleven years ago, without local input 
or Congressional approval, President Clinton issued Proclamation 7319, 
establishing a monument on 300 square miles around the Department of 
Energy's Hanford Site in my home town in south central Washington. As 
many of you know, for many decades, the Hanford Site served as one of 
the most important national defense nuclear facilities for our nation 
during World War II and during some of the tensest times of the Cold 
War.
    The Hanford Reach National Monument is unique in that it is 
currently the only one managed by the U.S. Fish and Wildlife Service in 
the continental United States. It encompasses 195,000 acres, which is 
slightly smaller than the area set aside for Mount Rainier National 
Park. The Proclamation establishing the monument notes that it includes 
many important geologic, biological and historical resources from 
10,000 years ago to more recent homesteads from small towns abandoned 
for the Manhattan Project during World War II.
    Let's not forget, the lands of the monument were all in private 
ownership prior to World War II when the federal government literally 
swooped in and told landowners that they had 30 days to move their 
families, their farms, and entire communities so that the secret 
Manhattan Project could proceed. In the past decades, there was an Army 
site located on the mountain. There is a road to the top. There is a 
communications tower on the summit. There is no reason the public can't 
visit the summit,
    Rattlesnake Mountain is on the southeast portion of the monument. 
For those not familiar, the summit--at 3,600 feet--is the highest point 
in the area and provides unparalleled views for miles around the 
monument, the Hanford Site, and the Columbia River.
    The majority of public comments received during the development of 
a federal management plan expressed a need to ensure public access to 
the lands encompassed in the monument. Prior the release of the final 
management plan, I urged the Secretary of Interior to make public 
access to Rattlesnake Mountain a top priority. Unfortunately, the Fish 
and Wildlife Service ultimately approved a management plan that closed 
all public access to Rattlesnake Mountain.
    It took the Service eight years to write a management plan that 
closed Rattlesnake Mountain to public access. They've not allowed 
public tours since that time. After I introduced this bill last 
Congress, the Service offered two tours for selected individuals, and 
then suddenly reneged on the offer just days before the tours were to 
occur, without explanation.
    The submitted testimony from the Interior Department infers that 
the Service supports tours of Rattlesnake but very carefully does not 
say they will ever allow access to the summit. The summit is the 
vantage point that allows one to view the entire Hanford Site and 
monument. If the public can visit the summit of Mt. Rainier, then they 
certainly should be allowed to the summit of Rattlesnake Mountain. And 
let me point out there is already a paved road to that leads to the 
summit of Rattlesnake Mountain.
    Furthermore, the written testimony goes on at length on why the 
Fish & Wildlife Service can't possibly allow public access until after 
2012 because of consultation with three Indian Tribes that are known to 
oppose visitation to Rattlesnake Mountain. With all due respect, what 
has the Service been doing for the past decade? The position of the 
Tribes is well known and I fully respect their right to their views, 
but this doesn't explain what the Service has been doing since the year 
2000 when consultation should have begun.
    To be frank, the Service has had more than ten years, and they say 
it will take several more, before whether they can determine if they 
will allow the American people to have access to the public's lands. 
This bill is necessary because the only way to guarantee public access 
is to require it by law.
    The lands of the monument and the entire Hanford Site belong to all 
of the American people. The views of Indian Tribes are legitimate, and 
they have a right to be heard and consulted, but the views of local 
communities and all citizens also deserve to be heard and listened to--
and there is overwhelming local public support for access to the summit 
of Rattlesnake Mountain.
    Those with the most at stake--the local citizens of the Tri-
Cities--strongly favor access to Rattlesnake Mountain, and they are 
represented today by Carl Adrian, President of the Tri-Cities 
Development Council. I welcome him and look forward to his testimony. I 
also would ask unanimous consent to include in the record, a statement 
from the Tri-City Regional Chamber of Commerce and recent letters from 
the Board of Benton County Commissioners, the Tri-Cities Visitors and 
Convention Bureau and the Back Country Horsemen of Washington in favor 
of this legislation.
    Quite simply, H.R. 2719 is needed to ensure that the American 
people finally are allowed access to the summit of Rattlesnake 
Mountain, over a decade after this monument was named. It directs the 
U.S. Fish and Wildlife Service to provide that access and also 
authorizes cooperative agreements to ensure that the access is safe, 
reasonable, and that it respects other important uses of the monument.
    Our federal parks and monuments should be available for all 
Americans to enjoy--not something to be admired from afar and from 
behind a chain link fence. H.R. 2719 recognizes that people who are 
allowed to go to the top of Mount Rainier and around the park should be 
granted similar access to the summit of Rattlesnake Mountain.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman, the Chairman of the 
whole Committee. I would now like to recognize former Chairman 
of this Committee, and current Chairman of the Indian and 
Alaska Native Affairs Subcommittee, the distinguished gentleman 
from Alaska, Congressman Don Young, for any opening statement 
he would like to make on his bill H.R. 2714.
    Mr. Young. Mr. Chairman, if I could, I would like to make 
that the time we take that bill up. In deference to my good 
friend Mr. Dingell, let's go ahead and have him testify to get 
him going on his way.
    Dr. Fleming. Without objection, so ordered. I would now 
like to recognize the distinguished gentleman from Virginia, 
who serves on the Migratory Bird Conservation Commission, 
Congressman Rob Wittman, for any opening statement he would 
like to make on his bill, H.R. 3117. And you may have noticed 
that he appeared just moments before we got to him. So it was a 
beautiful entrance there, Mr. Wittman.
    Mr. Wittman. Mr. Chairman, as they say, timing is 
everything. But I am going to yield to our witness, the 
distinguished gentleman from Michigan, and I will enter my 
remarks for the record.
    [The prepared statement of Mr. Wittman follows:]

   Statement of The Honorable Robert J. Wittman, a Representative in 
        Congress from the Commonwealth of Virginia, on H.R. 3117

    Mr. Chairman,
    In 1934, the Congress enacted the Migratory Bird Hunting Stamp Act. 
This law required hunters to purchase a federal duck stamp in order to 
hunt migratory waterfowl. Proceeds from the sale of these stamps have 
been used to preserve vital wetlands and waterfowl habit across the 
country. Every year, hunters, bird watches and stamp collectors visit 
their local post office, National Wildlife Refuge or sporting goods 
store to purchase their stamp.
    For the past four years, eight states have participated in an 
electronic duck stamp pilot program. Instead of having to visit a brick 
and mortar store, hunters and collectors could purchase the duck stamp 
online. By all accounts the program has been a success. Many Americans 
have enjoyed the convenience of buying a federal duck stamp over the 
internet.
    I am the author of this legislation that would continue to allow 
hunters to electronically purchase the annual federal duck stamp 
required to hunt migratory waterfowl. It is time to make this a 
permanent feature of federal law for a more efficient and faster 
process. Similar technology is already embraced by states that allow 
sportsmen to obtain their hunting and fishing licenses online.
    As a member of the Migratory Bird Conservation Commission and avid 
waterfowl hunter I am proud to sponsor this legislation to modernize 
the distribution of the federal duck stamp program without burdening 
the taxpayer.
    I want to compliment the lead cosponsor of the bill, Congressman 
Ron Kind (Wisconsin), for his leadership, commitment and passion for 
sportsman's issues and waterfowl conservation.
    H.R. 3117 is supported by the Congressional Sportsman's Foundation 
and Ducks Unlimited.
    I urge my colleagues to support the bill.
                                 ______
                                 
    Dr. Fleming. OK. The gentleman yields. Thank you. We will 
now hear from our witness. I would now like to welcome and 
recognize the Dean of the House of Representatives, the 
gentleman from Michigan, Congressman John Dingell, for any 
statement he would like to make. Thank you, sir.

  STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. 
It is a privilege to be here. And I would like to thank my 
colleagues here. I note Mr. Wittman serves with me on the 
Migratory Bird Commission. And Mr. Don Young used to serve with 
me when I was Chairman of a little Subcommittee called 
Fisheries and Wildlife on the Merchant Marine and Fisheries 
Committee, and which used to meet in this room as a matter of 
fact, and which had jurisdiction at that time, before its 
abolition, over the entire Refuge System. And we did, I think, 
some remarkably good work with that.
    Mr. Chairman, first thank you for your courtesy. I appear 
here on two bills, H.R. 3009, of which you are sponsor, and 
H.R. 2236, of which Mr. Sablan is the principal sponsor, and of 
which I am a cosponsor. I appear, Mr. Chairman, in favor of and 
in support of H.R. 2236, which will provide necessary and 
important funding for the maintenance of the Refuge System. I 
commend my colleague for his leadership in this matter.
    Regretfully, Mr. Chairman, I appear in opposition to your 
bill. I do so respectfully, but I would simply point out that 
the Refuge System is one of our great national treasures. It is 
an odd mixture of lands that have been acquired by the Federal 
Government or have been included in the Refuge System in a lot 
of different ways, some of it by donations from citizens, some 
of it by legislative creation by the Congress. And when I was 
Chairman of the Subcommittee having jurisdiction over those 
matters, we created many National Wildlife Refuges by 
Congressional order. And many of them are still refuges today, 
and are providing very important services to the public in the 
area of conservation that only the Refuge System can provide.
    The Refuge System is one of the most citizen and people-
friendly institutions in the U.S. Government. And as Mr. 
Wittman can tell you, we are very careful in the way we acquire 
these lands.
    I would point out that the Refuge System has oftentimes 
been created by Executive Order. Indeed, the first refuge which 
was included in the system was Pelican Island National Wildlife 
Refuge, which is outside of Sebastian, Florida. That was a very 
important tract of land. Teddy Roosevelt, not a Democrat, but a 
good Republican, created it by Executive Order. Since that 
time, almost every President, including Mr. Nixon and Mr. 
George W. Bush, have been actively involved in creation of 
refuges or in additions to those refuges. And they have 
preserved important habitat for fish and wildlife, which by the 
way, is shared with the people, who have wonderful access to 
these particular pieces of public land and public domain.
    And I have been responsible, as I have mentioned, for a 
number of them, including two--one which I created in my own 
district, which is now up to about 6,000 acres, and which is 
providing valuable service and is enthusiastically supported by 
the people. It provides habitat for some 7 million migratory 
birds who fly north and south every year over this refuge.
    I would hope that this Committee would recognize, and you, 
Mr. Chairman, would recognize that you have much control over 
the Refuge System, and an enormous ability to have your wills 
and concerns met. I would point out that if land is not owned 
by the United States, it has to be acquired through the 
Migratory Bird Commission. As Mr. Wittman can tell you, never 
in our service on that Committee--or on that commission have we 
had a word of complaint from anybody about the lands being 
acquired. So if lands are acquired to be set aside by purchase 
or something of that kind, you will have full say on this 
through the regular appropriations process and through the 
process that we engage in on the Migratory Bird Commission. I 
would point out never have we acquired land in that commission 
process without the full approval of both the Senators, the 
Governor, the Legislature, the State game and fish, and the 
Members of the Congressional delegation.
    In any event, I hope that we will not jeopardize the well-
being of the Refuge System by starting out to diminish the 
ability of the President to do this. I would point out that 
many refuges of great value, including the Alaskan Game Range, 
now the Arctic Refuge, was created by the government at the 
time that Mr. Young and I were sitting on the Committee which 
had jurisdiction over it, and had our full support and 
assistance.
    So thank you for your courtesy to me. I am 32 seconds over 
time. And I wanted to show my gratitude by staying in the time 
limits, but I was not successful. Thank you.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
    Congress from the State of Michigan, on H.R. 3009, the National 
 Wildlife Refuge Review Act, and H.R. 2236, the Wildlife Refuge System 
                   Conservation Semipostal Stamp Act

    The first refuge was established by President Theodore Roosevelt on 
March 14, 1903--the Pelican Island National Wildlife Refuge outside of 
Sebastian, Florida. H.R. 3009 would take away the ability to do what 
President Roosevelt had the foresight to do. Over the last 100 years, 
presidents, both Republicans and Democrats, have created refuges to 
preserve wildlife habitats.
    I remember hunting in Humbug Marsh with my dear old dad when I was 
a kid and promised it would be my life's mission to make sure these 
types of opportunities exist for the generations to come. These refuges 
are treasures, to be enjoyed by millions of people every year who want 
to hunt, fish, or just enjoy the outdoors.
    The refuge system includes 150 million acres and 555 refuges and 
includes over 700 species of birds, 200 species of fish, and hundreds 
of species of mammals, reptiles, and amphibians. The Southeast Region, 
which includes Louisiana, had the most visitors in FY 2006 and 
supported the highest number of jobs at 7,381.
    According to a study by the U.S. Fish and Wildlife service, use of 
national wildlife refuges created $1.7 billion in economic activity and 
supported 27,000 private sector jobs. The economic benefits identified 
in this study were almost four times the amount appropriated by 
congress to the refuge system in FY 2006. In the Detroit River 
International Wildlife Refuge in southeast Michigan, walleye fishing 
alone brings in over $1 million each spring.
    A Detroit Heritage River Water Trail has been developed for 
kayaking and canoeing in the region. This unique trail was established 
to both promote close-to-home paddle-based recreational opportunities 
and ecotourism. For example, in a national survey performed by the 
Outdoor Industry Foundation reported that paddle-based recreation 
contributes $36.1 billion annually to the U.S. economy. A kayak landing 
was constructed at the Detroit River Refuge gateway earlier this year 
and will contribute significantly in local economic benefits at a time 
when many in southeast Michigan are unemployed.
    Establishment of a refuge does not instantly make the Federal 
government a steward of an area of land. It simply allows for the Fish 
and Wildlife Service to enter into a partnership with state and local 
governments. Funds are needed to acquire lands and congress controls 
those purse strings. If acquisition of a tract of land is 
controversial, it simply will not be acquired. The Federal government 
simply does not take land from businesses or homeowners.
    This subcommittee will also hear testimony on H.R. 2236 by Mr. 
Sablan. As a co-sponsor of this bipartisan legislation, I believe it is 
an excellent step in the right direction to help maintain the refuge 
system.
    Ducks Unlimited is already encouraging their members to buy extra 
Duck Stamps through their ``Double up for Ducks'' campaign because 
their members know the importance of maintaining the refuge system.
    This new wildlife refuge system conservation stamp would give 
hunters, anglers, and conservationists the ability to directly support 
operation and maintenance costs for refuges and keep these wonderful 
treasures alive and open to everyone who enjoys the outdoors.
                                 ______
                                 
    Dr. Fleming. Well, I thank the gentleman. And I want to 
note that Congressman Dingell has a very long and distinguished 
service here in the House. And thank you for many things. You 
made reference, sir, to one in your district. Is that the 
Detroit River International Wildlife Refuge?
    Mr. Dingell. Yes, sir. It was authorized by this Committee. 
And it has been a great success. And it is widely supported by 
the citizens. We have a citizens group that raises about a 
quarter of a million dollars a year to support the activities 
of that refuge.
    Dr. Fleming. So, you know, it would appear that certainly 
this Committee does have a function in authorizing that refuge, 
although we may differ on whether or not the Fish and Wildlife 
Service should be able to do so unilaterally. In any case, the 
Fish and Wildlife Service will continue to subject our 
taxpayers to millions of additional land acquisition costs at a 
time when they can't maintain what they already own.
    I also find it interesting that based on our analysis, 
legislation has not been introduced to allow the U.S. Park 
Service, the U.S. Forest Service, the U.S. Army Corps of 
Engineers, and other Federal agencies to unilaterally establish 
a new national park, wilderness area, national forest, or flood 
control project. This bill would actually bring refuge areas 
into alignment with all the other like or similar issues that 
we have before us in Congress, where it would be under better 
oversight and better control. And again, in the case of Mr. 
McCreary, my predecessor, we can go from soup to nuts, A to Z, 
in 6 months. Certainly there are not many things up here that 
we can do as quickly as we can with establishing refuge areas.
    With that, if there is no further testimony or discussion, 
I would be happy to----
    Mr. Dingell. With all respect, Mr. Chairman.
    Mr. Fleming. Yes, sir.
    Mr. Dingell. I would just like to respond a little bit. The 
Refuge System is a tremendous value. Your State of Louisiana 
gets about 7,381 jobs out of the system. It brings in $4 for 
every dollar we appropriate for it. And it provides an enormous 
amount of recreation opportunities and access to citizens for 
hunting and fishing who enjoy the out of doors. And it achieves 
enormous support from the people in the area in almost every 
one of these instances. Again, I hope you will view this 
kindly, Mr. Chairman. It is a very important service, and it is 
a very important treasure that the Refuge System guards.
    Again, I appreciate your great courtesy to me. Thank you.
    Dr. Fleming. Yes, sir. And I think we all acknowledge the 
great value the Refuge System has for our wonderful country. 
And we thank you for your contribution. Thank you, sir.
    Mr. Dingell. Thank you, Mr. Chairman.
    Dr. Fleming. OK. I would now like to welcome our second 
panel of Mr. James W. Kurth, the Assistant Director for the 
National Wildlife Refuge System. He will be representing the 
U.S. Fish and Wildlife Service. And Mr. Tim Ragen, Executive 
Director of the U.S. Marine Mammal Commission, who will testify 
on H.R. 2714.
    Like all witnesses, your written testimony will appear in 
full in the hearing record. So I ask that you keep your oral 
statements to 5 minutes, as outlined in our invitation letter 
to you and under Committee Rule IV(a). Our microphones are not 
automatic, so please press the button when you are ready to 
begin. I also want to explain how our timing lights work. It is 
very simple. The first 4 minutes you are under a green light. 
Then the last minute under yellow, which is a signal to kind of 
wrap up. When you get to red, we want you to close as quickly 
as possible, as we have a lot of witnesses today. And thank you 
for your presence here.
    Mr. Kurth, you are now recognized for your 5 minutes of 
testimony, sir.

   STATEMENT OF JAMES W. KURTH, ASSISTANT DIRECTOR, NATIONAL 
     WILDLIFE REFUGE SYSTEM, U.S. FISH AND WILDLIFE SERVICE

    Mr. Kurth. Good afternoon, Chairman Fleming, and members of 
the Subcommittee. I am Jim Kurth. I am the Chief of the 
National Wildlife Refuge System with the Fish and Wildlife 
Service. And I appreciate the opportunity to testify today on 
seven bills that affect the Service. I am going to very briefly 
summarize the Administration's views on those bills.
    The Administration supports the passage of H.R. 2027, which 
will adopt a modernized map for four units of the Coastal 
Barrier Resource System in Rhode Island. This map is the result 
of a comprehensive review by the Service of these units, done 
in consultation with the Subcommittee. The Service has not done 
a similar review for the Gasparilla unit in Florida, and 
therefore we are not able to take a position on H.R. 2154 at 
this time.
    In regards to H.R. 3117, the Electronic Duck Stamp Program 
provides an effective, popular method of selling Federal duck 
stamps. More than 600,000 electronic duck stamps have been 
sold. They now account for 27 percent of the total stamps sold, 
which is a 420 percent increase since just 2007. We will 
continue to administer this successful program, and we support 
the intent of H.R. 3117 to make it permanent. The 
Administration also supports an increase in the price of a 
Federal Duck Stamp from $15 to $25.
    The Duck Stamp is a conservation success story. Since 1934, 
it has helped acquire over 5 million acres of habitat for the 
Refuge System. These lands benefit waterfowl and countless 
other species, and provide great opportunities for waterfowl 
hunting and other outdoor recreation. The stamp's price has not 
increased since 1991, the longest period without an increase in 
the program's history.
    The Administration supports H.R. 2236, the Wildlife Refuge 
System Conservation Semipostal Stamp Act. And we thank 
Congressman Sablan, Chairman Fleming, and other members of the 
Subcommittee for considering this innovative way to address the 
needs of the Refuge System. The legislation will raise 
awareness and provide a direct and voluntary opportunity for 
the public to contribute.
    In regard to H.R. 2719, we thank Chairman Hastings for his 
interests in the Hanford Monument, and we acknowledge that the 
process for providing access to Rattlesnake Mountain is taking 
a long time. The Service has determined that limited public 
access is appropriate and compatible. We are involved in 
consultations with affected tribes who consider Rattlesnake 
Mountain a sacred site and have opposed access. We appreciate 
the support and the intent of this legislation, and we would 
like to work with Chairman Hastings to find ways to expedite 
this process and ensure due consideration of all stakeholders 
and the conservation purposes of the monument.
    The Administration respectfully opposes H.R. 2714 for the 
reasons described in my written testimony. The Service 
appreciates the underlying reasons for the bill, and we are 
working with the University of Alaska and others to better 
understand the effects of sea otter populations on commercially 
harvested shellfish. We also greatly value the role of 
subsistence harvests to the culture and livelihoods of Alaska 
Natives, and are seeking ways to engage them in cooperative 
management of sea otters.
    Mr. Chairman, the Administration appreciates your interest 
in the Refuge System and the process to establish new refuges 
contained in H.R. 3009; however, the Administration opposes the 
bill. It would impede the Service's ability to be agile and 
best opportunities to strategically grow the Refuge System. In 
the administrative process, the Service conducts studies to 
determine whether an area should be conserved as a unit of the 
Refuge System. The planning process does not happen overnight. 
It is an open process, involving local communities. It is 
grounded in science, and seeks to conserve habitats that are 
critical to maintaining America's wildlife heritage for current 
and future generations. There are often threats to these areas 
that they will be converted to other uses that would degrade or 
destroy wildlife habitat. The process also depends on the 
presence of willing sellers and public support. Congress 
exercises significant oversight in establishing refuges. A new 
refuge is not established until the first land is acquired. 
This requires either appropriations of funds by the Congress or 
the approval by the Migratory Bird Commission.
    And therefore, we believe H.R. 3009 is unnecessary to 
assure Congressional oversight. Through this process, the 
Service has been able to act efficiently, frequently in 
partnership with others, to protect nationally significant 
areas as wildlife refuges. National Wildlife Refuges conserve 
some of the most outstanding wildlife habitat in the world, and 
a stunning array of fish and wildlife. Conserving high quality 
habitat is what we do. Refuges provide critical economic 
benefits to local communities and unique outdoor recreational 
experiences to the public. Maintaining the ability to act to 
conserve wildlife, a tradition that began with President 
Theodore Roosevelt in 1903, puts the Nation in the best 
position to conserve these last best places forever.
    Mr. Chairman, that concludes my testimony. I would be happy 
to answer any questions. I apologize for moving so quickly 
through these important bills.
    [The prepared statement of Mr. Kurth follows:]

 Statement of Jim Kurth, Assistant Director, National Wildlife Refuge 
    System, U.S. Fish and Wildlife Service, U.S. Department of the 
  Interior, on H.R. 2027, H.R. 2154, H.R. 2236, H.R. 2714, H.R. 2719, 
                        H.R. 3009, and H.R. 3117

    Good morning Chairman Fleming and members of the Subcommittee. I am 
Jim Kurth, Assistant Director of the National Wildlife Refuge System 
within the U.S. Fish and Wildlife Service (Service). I appreciate the 
opportunity to testify today on seven bills that affect the Service. My 
testimony below highlights each relevant Service program and provides 
the Administration's views on each of the bills.
National Wildlife Refuge System
    The mission of the National Wildlife Refuge System (Refuge System) 
is to administer a national network of lands and waters for the 
conservation, management and, where appropriate, restoration of the 
fish, wildlife and plant resources and their habitats within the United 
States for the benefit of present and future generations of Americans. 
Encompassing more than 150 million acres of land and water, the Refuge 
System is the world's premier network of public lands devoted to the 
conservation of wildlife and habitat. The Refuge System preserves a 
diverse array of land, wetland, and ocean ecosystems spanning more than 
half the planet--from Guam, American Samoa, and other remote Pacific 
islands, north to the high arctic of northern Alaska, east to the 
rugged coastline of Maine and south to the tropical U.S. Virgin 
Islands. National wildlife refuges are found in every U.S. state. In 
total, the Refuge System now contains 555 refuges and 38 wetland 
management districts.
    The management of each refuge gives priority consideration to 
appropriate recreational uses of the refuge that are deemed compatible 
with the primary conservation purposes of the refuge, and the overall 
purpose of the Refuge System. The 593 units of the Refuge System offer 
about 44 million visitors the opportunity to fish, hunt, observe and 
photograph wildlife, as well as learn about nature through 
environmental education and interpretation. Currently, approximately 
375 units of the Refuge System have hunting programs and approximately 
355 have fishing programs. With its widespread presence and history of 
working with partners, the Refuge System also plays a key role in 
supporting innovative, community-level efforts to conserve outdoor 
spaces and reconnecting people with nature through the Administration's 
America's Great Outdoors initiative.
    In addition to conserving America's great wildlife heritage, the 
Refuge System is an important part of local economies. The presence of 
a national wildlife refuge in a community often offers significant 
economic benefits in the form of jobs and visitor spending in local 
stores, hotels, and service stations. As noted in a resolution 
supporting National Wildlife Refuge Week passed by the Senate earlier 
this month, for each dollar appropriated to the Refuge System, national 
wildlife refuges generate about $4 in economic activity, totaling 
nearly $1.7 billion and helping sustain 27,000 jobs in local 
communities.
H.R. 3009, the National Wildlife Refuge Review Act
    The Administration appreciates the subcommittee's interest in the 
Refuge System, the process to establish new refuges, and Congressional 
review and approval of new refuges. We also appreciate the importance 
of prudent decision-making regarding new refuges, especially in light 
of the challenging economic times we face, when it is more important 
than ever that we ensure the wise expenditure of taxpayer dollars.
    The Service recognizes the importance and value of legislatively 
creating refuges. Many refuges, such as Red River National Wildlife 
Refuge in Louisiana, were established by acts of Congress and fulfill a 
valuable conservation purpose, support local economies, and are enjoyed 
and supported by local communities. Establishment of refuges by statute 
is a very important method of conserving wildlife and habitat in the 
Refuge System.
    However, the Administration strongly opposes H.R. 3009. The bill 
would impede the Service's ability to be strategic, flexible, nimble 
and responsive in capitalizing on situations that present the best 
opportunities to strategically grow the Refuge System, as we have been 
directed by Congress. When priority conservation needs and values, 
public support, and the presence of willing sellers align to allow for 
the establishment of a new refuge, the Service must maintain the 
ability to act quickly and efficiently in taking advantage of such 
opportune situations. The Service's administrative decision to 
authorize the creation of a new refuge is then subject to Congressional 
oversight in that a refuge is not established until the Congress 
appropriates funds to purchase land or easements, or the Migratory Bird 
Commission, which includes Members of the House and Senate, approves 
land acquisition using funds from the Federal Duck Stamp. H.R. 3009 is 
unnecessary to assure Congressional oversight and it injects greater 
uncertainty into the process of establishing a new refuge, which could 
dissuade willing sellers and land donors.
    Under the current administrative process, the Secretary of the 
Interior, acting through the Service, is directed by the National 
Wildlife Refuge System Administration Act of 1966 (Sect 4 (4)(C)) to 
``plan and direct the continued growth of the System in a manner that 
is best designed to accomplish the mission of the System, to contribute 
to the conservation of the ecosystem of the United States, to 
complement efforts of States and other Federal agencies to conserve 
fish and wildlife and their habitats, and to increase support for the 
System and participation from conservation partners and the public.''
    Conserving wildlife through land protection is an adaptive and 
public process, founded on scientific data, driven by our mission to 
conserve habitat and ecosystems. We use the best scientific processes 
and data to identify gaps in the conservation estate--which we define 
as lands that are protected at local or landscape scales by private, 
state, or federal partners. We are also asked to look at specific areas 
as potential new wildlife refuges by organizations, local communities, 
Members of Congress, and states. Once a conservation need is 
identified, a preliminary proposal is submitted to the Service's 
Director for approval to develop a detailed Land Protection Plan. 
Development of a Land Protection Plan is a public planning process, 
during which we reach out to state agencies, local communities, 
Congressional offices, conservation and sports groups to inform and 
help shape the plan. The Service uses the best available scientific 
information to analyze the effects of the Land Protection Plan and 
alternatives on the physical, biological, social and economic 
environment. Congressional delegations and committees are informed at 
key points in the process. The completed Land Protection Plan is 
submitted to the Director for review and approval as a new refuge. Not 
all preliminary proposals and Land Protection Plans are approved.
    The process for studying and approving new refuges is an extensive 
and transparent effort founded on science, public input, and 
partnerships. It requires flexibility to respond to new information and 
input from the public and partners, and once the final plans are 
completed, it requires decisive action for approval or denial. Often, 
there is a limited window of time to protect key wildlife habitat and 
ecosystems. Without a level of relative certainty in the process, and 
the ability for the Service to act relatively quickly, potential land 
sellers and donors may choose options that lead to the development of 
their land and a lost conservation opportunity. Conversely, there are 
other times where there is more flexibility to complete the process 
over longer timeframes.
    Congress plays a key role at several junctures of the process to 
establish new refuges. During the transparent planning process, 
Congressional members and committees are kept informed, and have the 
opportunity to review plans and provide input through the public 
comment period. Congressional members provide a strong voice in 
support, adjustment, or opposition of planning efforts, and are given 
thorough consideration by the Service. Congress has also designated 
numerous refuges through legislation. The appropriations process 
provides Congress with options to guide refuge establishment. Congress 
appropriates funds for the purchase of lands and waters, and for 
operational support. Congressional members from both the House and the 
Senate also sit on the Migratory Bird Commission, which makes the final 
decisions on protection of migratory bird habitat from receipts on the 
sale of the Federal Duck Stamp.
    Establishing refuges through administrative authority and support 
from Congress has been highly successful and critical to establishing a 
network of lands and waters that conserve America's natural heritage. 
Below are examples of how this process has been successful, and why it 
is essential.
    The broad suite of refuges established across the waterfowl flyways 
to provide stopover and wintering habitat for ducks, geese, swans and 
many other migrating birds reflect the value of the administrative 
process of creating refuges. The vast numbers of waterfowl and wetland 
birds enjoyed by the hunters and bird watchers of the American public 
today would not have been possible without having a flexible process to 
identify and protect key habitat. One of these refuges is the Edwin B. 
Forsythe National Wildlife Refuge in New Jersey. It is comprised of 
about 46,000 acres of coast estuaries, beaches, sand dunes, and pine-
oak woodlands. The refuge was first established by administrative 
action in 1939 as Brigantine Refuge with a second refuge, Barnegat, in 
1967 to provide stopover habitat for migrating waterfowl, and 
especially as critical wintering habitat for about 75 percent of the 
black duck and Atlantic brant in the United States. These two refuges 
were combined and renamed by Congress in 1984 in memory of the late 
conservationist Congressman from New Jersey, Edwin B. Forsythe. The 
refuge also provides key nursery habitat for many sport fish, such as 
striped bass, nesting habitat for the threatened piping plover, and 
migration habitat for thousands of migrating songbirds. Within sight of 
the Atlantic City skyline, the refuge receives a quarter of a million 
visits a year including 2,500 hunting and 27,000 fishing visits. 
Visitation to E.B. Forsythe Refuge contributes an estimated $2.8 
million a year to the local economy with total direct and indirect 
contribution at $4.4 million. This translates to a $5.05 economic 
benefit for every $1 appropriated.
    Opportunities for conservation through the establishment of 
national wildlife refuges serve the public in unexpected ways. Big 
Muddy National Wildlife Refuge in Missouri was established soon after 
catastrophic flooding in 1993 on the Missouri River. Congress supported 
the effort with emergency supplemental funding (P.L. 103-75, P.L. 103-
211). The Service completed the land protection studies that resulted 
in the administrative establishment of Big Muddy Refuge, and allowed 
use of the funds to buy land from willing sellers. In addition to 
conserving important wildlife habitat, it allowed the people whose 
lives were crushed by the regular flooding to sell the land at fair 
market value and start over elsewhere. Shifting land use from 
residential and agricultural uses in flood prone areas reduces the 
economic impact of flooding while supporting conservation and 
recreational goals. The refuge consists of nearly 17,000 acres and the 
Service is re-establishing river and floodplain habitat. The endangered 
pallid sturgeon, an ancient species of fish, is benefiting from these 
conservation efforts. The refuge also receives an average of 25,000 
visits a year.
    Refuges are also established to protect and restore marquee 
ecosystem types, which results in numerous benefits to the American 
public. Big Branch Marsh National Wildlife Refuge, on the shores of 
Lake Pontchartrain in Louisiana, was administratively created in 1994. 
The refuge resulted from a grass roots effort by the local community 
leaders and a variety of landowners wishing to preserve open space in 
New Orleans. The Conservation Fund purchased and donated 3,660 acres of 
wetland to the Service as the first acquisition for this refuge. The 
17,000 acre refuge protects and restores the largest undeveloped 
natural area of the lake's north shore. The complex of marshes, 
hardwood hammocks and pine flatwoods provide important habitat for a 
number of species listed under the Endangered Species Act, such as red-
cockaded woodpecker, brown pelican, bald eagle, and American alligator. 
The brown pelican and bald eagle were delisted because of successful 
efforts to protect habitat and recover the species--refuges were a key 
part of the success. Protecting endangered species habitat in refuges 
can also help to take pressure off of private landowners and public 
works projects--abundant species habitat that is permanently protected 
creates greater opportunities for sustained species recovery. The 
abundant fish and wildlife at Big Branch Refuge draw more than 300,000 
visits a year, with 129,000 enjoying hunting and fishing. It is also 
recognized as a hub for environmental education and wildlife-related 
recreation, which fosters and creates a strong conservation ethic 
within the community and contributes to the local economy.
    H.R. 3009 would create an additional, uncertain hurdle to the 
successful and transparent process described above; a process that has 
resulted in the creation of so many popular refuges that are key to 
wildlife conservation, valued and supported by local communities, and 
contribute to numerous sectors of the economy. The bill requires action 
by Congress to establish new national wildlife refuges, even after an 
extensive public planning process based on sound scientific information 
and partnerships, where there is a demonstrated need to conserve 
wildlife habitat and ecosystems.
    When the Service plans and establishes new refuges, we strive to 
ensure a balance between the need to act quickly and the need to gather 
substantial scientific information, solicit input from partners and the 
public, and be responsive to local needs. Requiring Congressional 
action on top of this will lengthen the amount of time required for 
approval of a new refuge and inject uncertainty in the process, 
delaying and perhaps losing opportunities for funding, land purchase, 
and ultimately, conservation of wildlife habitat.
H.R. 2236, the Wildlife Refuge System Conservation Semipostal Stamp Act 
        of 2011
    The Administration supports H.R. 2236, the Wildlife Refuge System 
Conservation Semipostal Stamp Act of 2011. The purpose of the 
legislation is to provide a direct opportunity for the public to 
contribute to funding for the maintenance backlog and operational needs 
of the Refuge System. We believe the legislation would accomplish this 
goal and would also raise awareness and appreciation of the Refuge 
System and its mission.
    In May of this year, the Service testified at a hearing before this 
subcommittee on the issue of the operational needs and maintenance 
backlog of the Refuge System. At that hearing we described the nature 
of the needs and how we prioritize Refuge System project spending in 
the context of overall Service strategic goals. The Refuge System 
conserves an extraordinary number of species and ecosystems, and 
currently, the Service is tracking about $3.1 billion in operational 
needs and deferred maintenance projects, including about $650 million 
in operations and $2.5 billion in deferred maintenance in the Refuge 
System's $26.5 billion portfolio of constructed assets. We would like 
to point out that in May of this year the Service provided testimony 
that the Refuge System's deferred maintenance backlog as of the 
beginning of FY 11 was $2.7 billion. We are pleased to report that this 
amount has declined somewhat in the past fiscal year and now sits at 
$2.5 billion as of the beginning of FY 12. We point this out as an 
indication that we are managing our available resources in a way that 
is allowing us to make progress on our backlog while still allowing us 
to move forward on other key projects.
    Managing the Refuge System is not unlike running a large company 
with hundreds of branch offices. It requires simultaneous attention to 
both national and local issues, and a diverse and highly trained 
workforce that must work together for the entire operation to run 
smoothly. Our workforce contains mostly biologists and professional 
wildlife managers, but also contains professional educators, law 
enforcement officers, heavy equipment operators, fire fighters, real 
estate appraisers, maintenance workers, IT and cartography 
professionals, budget specialists, pilots and boat captains. With fewer 
than 4,000 employees working at more than 380 locations spanning all 
U.S. states and territories, and with only $3.35 in appropriations for 
every acre we manage, the Refuge System must, and does, ensure its 
operations are efficient.
    The semipostal stamp authorized by H.R. 2236 will provide another 
funding source to help support refuges. The Refuge System semi-postal 
stamp would operate very similarly to the Save Vanishing Species semi-
postal stamp, which was issued on September 20, 2011. The U.S. Postal 
Service printed 100 million stamps, which will be on sale for two years 
at a price of 55-cents each. If USPS sells out of the vanishing species 
stamp, the Service will receive $11 million minus reasonable USPS 
production, distribution, and sales costs, most likely netting 
approximately $10 million for international wildlife conservation.
    Under this model, a Refuge System semi-postal stamp could generate 
up to $10 million over the two year sales period if all stamps are 
sold. These funds would be available to fund priority operations and 
deferred maintenance projects. The Service would use these funds in a 
strategic way to provide the biggest benefit by addressing the highest 
priority projects as documented in our databases. Examples of needs 
that could be addressed include repairing visitor facilities, funding 
environmental education and interpretation, implementing habitat 
management projects, reintroducing imperiled species to previously 
habited areas, and conducting scientific evaluations needed to improve 
wildlife management.
    While the semi-postal stamp would not, by itself, fully address the 
operational needs and maintenance backlog, it would address many key 
projects and would be helpful in raising awareness of the Refuge System 
and its mission.
H.R. 2719, Rattlesnake Mountain Public Access Act of 2011
    Rattlesnake Mountain is an icon of the Hanford Site, located in 
central Washington. It is a sacred place for Native Americans, a 
science laboratory, and offers a treasure trove of natural and cultural 
resources. H.R. 2719 would require the Secretary of the Interior to 
provide public access to Rattlesnake Mountain, which is within the Arid 
Lands Ecology Reserve (ALE) on the Hanford Reach National Monument.
    Significant natural and cultural resources were recognized when the 
Monument was established on June 9, 2000, ``for the purpose of 
protecting the following objects: riparian, aquatic, and upland shrub-
steppe habitats; native plant and animal species; free-flowing, non-
tidal stretch of the Columbia River; shrub-steppe ecosystems; breeding 
populations of birds; habitat for migratory birds; mammals; insect 
populations; geological and paleontological objects; and archaeological 
and historic information.'' The Monument is administered as a unit of 
the National Wildlife Refuge System ``. . .for the development, 
advancement, management, conservation, and protection of fish and 
wildlife resources. . .'' and ``. . .for the benefit of the United 
States Fish and Wildlife Service, in performing its activities and 
services. Such acceptance may be subject to the terms of any 
restrictive or affirmative covenant, or condition of servitude. . .''
    The Service completed a 15-year management plan for the monument in 
2008 and determined through that CCP/EIS process that some public 
access, including Service sponsored or led tours and a hiking trail, 
are appropriate and compatible when administered in a manner consistent 
with protecting the resources of the area.
    Rattlesnake Mountain (a.k.a. Laliik) is of spiritual importance to 
American Indian groups of the Mid-Columbia Plateau region. It is also 
associated with Smohalla, an important 19th century American Indian 
prophet. In 2007, DOE determined that Rattlesnake Mountain is eligible 
to the National Register of Historic Places as the ``Laliik Traditional 
Cultural Property.'' In consultation with the Confederated Tribes and 
Bands of the Yakama Nation, the Confederated Tribes of Umatilla Indian 
Reservation and Nez Perce Tribe, the Service has been informed that all 
three Tribes oppose public visitation at Rattlesnake Mountain.
    Allowing public access and use at Rattlesnake Mountain constitutes 
an undertaking under Section 106 of the National Historic Preservation 
Act (NHPA) and the Service must consider potential effects of any 
permitted activities on the Laliik Traditional Cultural Property. In 
June 2011 the Service began drafting, in consultation with area Indian 
Tribes, a cultural resource management plan to identify cultural 
resource management needs and priorities for the Monument. Among the 
cultural resource priorities of the Monument is to identify the 
potential effects of public use on the Laliik Traditional Cultural 
Property and to identify ways to mitigate adverse effects. The Service 
must exercise section 106 of the NHPA before conducting Service-led 
tours allowing public access. It is anticipated this cultural resource 
plan and Section 106 compliance will be finished by the fall of 2012.
    It is the intent of the Service to find the right balance between 
protecting the natural resources and respecting the cultural history on 
Rattlesnake Mountain, while making the site available to the public in 
a way that will increase their awareness and appreciation for this 
special and unique place. The Department appreciates and support the 
intent of the legislation, and we would like to work with Chairman 
Hastings to expedite the process to provide appropriate public access 
on Rattlesnake Mountain that gives due consideration to all 
stakeholders.
Coastal Barrier Resources System
    The Coastal Barrier Resources Act (CBRA) of 1982, P.L. 97-348, 
established the John H. Chafee Coastal Barrier Resources System (CBRS), 
a defined set of geographic units along the Atlantic, Gulf of Mexico, 
Great Lakes, Puerto Rico, and U.S. Virgin Islands coasts. The 857 units 
of the CBRS are comprised of 3.1 million acres of coastal barrier 
habitat, including beaches, uplands, maritime forests, lagoons, 
mudflats, and coastal wetlands.
    Coastal barriers provide invaluable services that are the 
foundations of a strong economy and healthy environment. They provide 
habitats that support a wide variety of fish and wildlife, protect 
mainland communities from severe weather events, function as popular 
recreation destinations, and support local economies. These habitats 
are valuable to a host of wildlife but are also prime locations for 
vacation homes. CBRA restricts new federal expenditures and financial 
assistance, including federal flood insurance, within the CBRS. CBRA 
does not prevent development and imposes no restrictions on development 
conducted with non-federal funds. Congress enacted CBRA to minimize the 
loss of human life, reduce wasteful federal expenditures, and minimize 
the damage to natural resources associated with coastal barriers.
    The driving purpose of CBRA is to take the Federal Government out 
of the business of encouraging people to build infrastructure and homes 
on relatively undeveloped and biologically rich coastal barriers, which 
are subject to chronic erosion and the devastating impacts of natural 
disasters. CBRA advanced the common sense approach that risky private 
development on relatively undeveloped coastal barriers should not 
receive financial support from Federal taxpayers. As President Ronald 
Reagan said upon signing CBRA into law, ``it simply adopts the sensible 
approach that risk associated with new private development in these 
sensitive areas should be borne by the private sector, not underwritten 
by the American taxpayer.'' Like every administration since the Reagan 
Administration, the Obama Administration supports CBRA and its unique 
free-market approach to conservation. A 2002 Service economic report 
stated that CBRA would save approximately $1.3 billion in Federal 
dollars between 1983 and 2010. This is likely an underestimate because 
the study did not include any potential savings resulting from not 
issuing flood insurance policies in CBRA.
    In 1990, Congress enacted the Coastal Barrier Improvement Act 
(CBIA), P.L. 101-591, which expanded the CBRS by adding new units, 
enlarging some previously designated units, and adding ``otherwise 
protected areas'' (OPAs) as a new category of CBRS lands. An OPA is 
defined as an undeveloped coastal barrier within the boundaries of an 
area established under federal, state, or local law, or held by a 
qualified organization, primarily for wildlife refuge, sanctuary, 
recreational, or natural resource conservation purposes. However, OPAs 
can contain private land that is held for conservation purposes as well 
as private properties that are inholdings. The only federal spending 
prohibition within OPAs is federal flood insurance.
    The Department of the Interior (Department), through the Service, 
is responsible for administering CBRA, which includes: maintaining the 
official maps of the CBRS; consulting with federal agencies that 
propose spending funds within the CBRS; and making recommendations to 
Congress regarding whether certain areas were appropriately included in 
the CBRS. CBRS maps have always been maintained and updated by the 
Service.
    Aside from three minor exceptions, only new legislation enacted by 
Congress can modify the CBRS boundaries to add or remove land. These 
exceptions include: (1) the CBRA five-year review requirement that 
solely considers changes that have occurred to the CBRS by natural 
forces such as erosion and accretion; (2) voluntary additions to the 
CBRS by property owners; and (3) additions of excess federal property 
to the CBRS.
H.R. 2027, to revise the boundaries of John H. Chafee Coastal Barrier 
        Resources System Sachuest Point Unit RI-04P, Easton Beach Unit 
        RI-05P, Almy Pond Unit RI-06, and Hazards Beach Unit RI-07 in 
        Rhode Island
    H.R. 2027 would revise the boundaries of four units of the CBRS in 
Newport County, Rhode Island. These units are Sachuest Point Unit RI-
04P, Easton Beach Unit RI-05P, Almy Pond Unit RI-06, and Hazards Beach 
Unit RI-07.
    The Department supports passage of H.R. 2027. The legislation 
replaces the existing map for Units RI-04P, RI-05P, RI-06, and RI-07 
with a modernized, revised map. All four units were included within the 
CBRS by the CBIA in 1990. There are two types of units within the CBRS. 
System units generally contain private lands and OPAs generally contain 
lands held for conservation or recreation. The revised map contains two 
System units, RI-06 and RI-07, and two OPAs, RI-04P and RI-05P. The 
revised map, reflecting a comprehensive review process, removes lands 
that were inappropriately included within the CBRS in 1990 and adds 
lands that are appropriate for inclusion within the CBRS.
    We received a request in 2004 to review CBRS Unit RI-05P. Our 
review indicated that Unit RI-05P was originally intended to follow the 
boundaries of Easton Beach and Easton Pond which are owned by the City 
of Newport. Unit RI-05P is an OPA within the CBRS. The existing OPA 
boundaries do not precisely follow the underlying public lands 
boundaries and inappropriately capture adjacent private land that is 
not held for conservation or recreation; is not an inholding, and was 
not intended to be part of the OPA. The proposed boundary of Unit RI-
05P is adjusted to remove the property in question (as well as other 
private lands), add publicly owned beach and wetlands, and more 
precisely follow the boundaries of lands owned by the City of Newport 
and Town of Middletown.
    When the Service finds a technical mapping error that warrants a 
change in one part of a CBRS map, we review all adjacent areas on the 
map to ensure that the entire map is accurate. This comprehensive 
approach to map revisions treats all landowners who may be affected 
equitably, and it also ensures that the Service and Congress will not 
have to revisit the same map in the future. In accordance with this 
comprehensive mapping approach, the Service reviewed and revised the 
boundaries of Units RI-04P, RI-06, and RI-07, which are located on the 
same map panel as Unit RI-05P.
    The proposed boundary of Unit RI-04P is adjusted to include 
portions of the Norman Bird Sanctuary, lands owned by the City of 
Newport Water Department, and lands owned by the Town of Middletown 
known as Second Beach and Third Beach. The proposed boundary of Unit 
RI-06 is revised to remove private and public lands, add the remaining 
undeveloped portions of the privately owned Bailey's Beach, and follow 
the wetland/upland interface around Almy Pond. The proposed boundary of 
Unit RI-07 is adjusted to include all of the privately owned Gooseberry 
Beach, most of the privately owned Hazards Beach, follow the wetland/
upland interface around Lily Pond, and include an 11-acre parcel that 
the Audubon Society of Rhode Island has voluntarily requested be added 
to the CBRS as a System unit.
    In accordance with the Service's standard mapping protocols for 
delineating underlying conservation and recreation areas within the 
CBRS, we obtained signed maps and Statements of Agreement from the Town 
of Middletown, City of Newport, Rhode Island National Wildlife Refuge 
Complex, Audubon Society of Rhode Island, and Norman Bird Sanctuary 
certifying that we had accurately depicted the boundaries of their 
lands on a base map. The stakeholder concurrence maps were then used to 
compile portions of the proposed CBRS boundaries on the draft map that 
is the subject of H.R. 2027. This boundary review process does not 
necessarily indicate that the stakeholders concur with the Service's 
recommendations for boundary changes, but rather that the Service has 
accurately depicted the boundaries of the underlying conservation or 
recreation areas. The stakeholder boundary review process is not 
applied to private lands that are not held for conservation or 
recreation.
    The Service sent letters to local officials and other stakeholders 
to inform them of the proposed changes to the four Rhode Island units. 
The draft revised map and a summary of the proposed changes were also 
posted on the Service's CBRS website in an effort to make this 
information accessible to the public.
    The revised map for Units RI-04P, RI-05P, RI-06, and RI-07 removes 
approximately 22 acres from the CBRS and adds approximately 67 acres to 
the CBRS; these include uplands and associated aquatic habitat. The 
revised map removes eight structures (including a pump house) from the 
CBRS and adds no structures to the CBRS. The map makes progress towards 
fulfilling the Congressional directive in Public Law 109-226 to create 
modernized digital maps for the entire CBRS. The Department supports 
map modernization as a good government effort that will make 
administration of the CBRS more efficient, make CBRS boundaries more 
accessible to the public, and preserve the long-term integrity of the 
CBRS. To date, the Service has created draft digital maps for 
approximately 12 percent of the CBRS (including those maps produced as 
part of the Digital Mapping Pilot Project).
    We will continue modernizing additional CBRS maps, per the 
directives of Public Law 109-226, as resources are made available for 
this effort, and look forward to working with the Subcommittee during 
FY 2012 to finalize the pilot project maps, which cover approximately 
10 percent of the CBRS.
H.R. 2154, to correct the boundaries of the John H. Chafee Coastal 
        Barrier Resources System Gasprilla Island Unit FL-70P
    The Service was first contacted about Unit FL-70P in 2010. Unit FL-
70P was established as an OPA on November 16, 1990 by the CBIA. No 
changes have been made to boundaries of the unit since it was 
established. The Service receives numerous requests from property 
owners and other interested parties who seek to remove land from the 
CBRS. The Service does not recommend removing lands from the CBRS 
unless there is compelling evidence that a technical mapping error led 
to the inclusion of land in the CBRS. In order to determine whether a 
technical mapping error exists, the Service conducts a comprehensive 
review of the history of the CBRS unit in question, which includes an 
assessment of the Service's records for the unit, the controlling and 
historical CBRS maps of the area, the historical development status of 
the area, and any materials submitted by interested parties. Unlike the 
Rhode Island units discussed above, the Service has not yet conducted a 
comprehensive review of Unit FL-70P. The Service currently has a large 
backlog of requests to conduct technical correction reviews of CBRS 
units, as these reviews are time and resource intensive and we have 
limited resources with which to conduct them.
    Recognizing that the official CBRS maps are outdated 
technologically and difficult to use, Congress directed the Department 
to modernize CBRS maps using digital technology. In 2006, the Coastal 
Barrier Resources Reauthorization Act (P.L. 109-226), directed the 
Secretary of the Interior to: (1) finalize a pilot project that creates 
digital maps for approximately 10 percent of the CBRS and (2) create 
digital maps for the remainder of the CBRS, which would include a 
review and remapping of Unit FL-70P. The Service is working to finalize 
the pilot project, and expects to have this completed in fiscal year 
2012. Depending on the availability of funds, the Service may also 
address a limited number of technical correction reviews and create a 
limited number of draft digital maps. We will prioritize those reviews 
and remapping efforts in coordination with the appropriate 
Congressional committees, including the House Natural Resources 
Committee. The Service's ability to remap additional CBRS units beyond 
the pilot project units depends on the availability of resources for 
that effort. In the past, we have coordinated our mapping priorities 
with our authorizing committees in Congress. In general, the Service 
attempts to review and remap areas on a first in, first out, basis to 
be fair to homeowners who have been waiting the longest for their area 
to be reviewed and potentially remapped.
    Given the large number of CBRS units that need to be reviewed and 
possibly remapped, the Service has not yet been able to address Unit 
FL-70P that is the subject of H.R. 2154. The Service has not prepared a 
draft revised map for Unit FL-70P and the Department does not have a 
position on H.R. 2154 at this time. We would be happy to work with the 
Subcommittee and Congressman Mack on H.R. 2154 so that we can determine 
the best way to move forward on conducting this research and providing 
the Service's expertise on remapping Unit FL-70P.
Marine Mammal Protection
    The Marine Mammal Protection Act (MMPA), enacted in 1972, was the 
first legislation to call for an ecosystem approach to natural resource 
management and conservation. Authority to manage marine mammals was 
divided between the Department of the Interior (delegated to the U.S. 
Fish and Wildlife Service) and the Department of Commerce (delegated to 
the National Oceanic and Atmospheric Administration). The Service was 
given authority to implement the MMPA for the conservation and 
management of sea and marine otters, walrus, polar bear, three species 
of manatees, and dugong.
    The MMPA prohibits the take (i.e., hunting, killing, capture, and/
or harassment) of marine mammals, and enacts a moratorium on the 
import, export, and sale of marine mammal parts and products. There are 
exemptions and exceptions to the prohibitions. For example, Alaska 
Natives may hunt marine mammals for subsistence purposes or for the 
creation and sale of authentic native articles of handicrafts and 
clothing, provided that the taking is not accomplished in a wasteful 
manner. Only authentic native articles of handicrafts and clothing may 
be sold in interstate commerce. Alaska Natives may possess, transport, 
and sell marine mammal parts and products to other Alaska Natives or 
registered agents, or transfer to a registered tannery for processing. 
To assist Alaska Natives in the creation of authentic native articles 
of handicrafts and clothing, the Service's MMPA implementing 
regulations at 50 CFR 18.23, and the NOAA's regulations at 50 CFR 
216.23, allow persons who are not Alaska Natives to register as an 
agent or tannery. The restrictions and requirements for agents and 
tanners allow the Services to monitor the processing of such items 
while ensuring that Alaska Natives can exercise their rights under the 
exemption.
    The Service has a well-established cooperative relationship with 
Alaska Natives. Section 119 of the MMPA authorizes the appropriation of 
funds to develop cooperative agreements between the Service and Alaska 
Native organizations for co-managing subsistence use of marine mammals. 
Regarding sea otters, the MMPA prohibits commercial harvest of sea 
otters, and allows Alaska natives to hunt sea otters for subsistence 
and creation of handicrafts and clothing.
H.R. 2714, to amend the Marine Mammal Protection Act of 1972 to allow 
        the transport, purchase, and sale of pelts of, and handicrafts, 
        garments, and art produced from, Southcentral and Southeast 
        Alaska northern sea otters that are taken for subsistence 
        purposes
    H.R. 2714 would amend the MMPA to allow for the transport, 
purchase, and sale of pelts of, and handicrafts, garments, and art 
produced from, Southcentral and Southeast Alaska northern sea otters 
that are taken for subsistence purposes in Alaska. In addition, the 
bill would allow for the export of handicrafts, garments, or art 
produced from Southcentral and Southeast Alaska northern sea otter 
pelts regardless of whether the item produced is traditional or 
contemporary, or whether it is or is not significantly altered.
    The Service recognizes the intrinsic role that marine mammals play 
in the subsistence, cultural, and economic lives of Alaska Natives as 
well as the important role that Alaska Natives can play in the 
conservation of marine mammals. Further, we believe that the 
conservation and our management of the northern sea otter has 
benefitted from our cooperation and consultation with Alaska Natives on 
marine mammal issues, especially as they pertain to northern sea 
otters. The Department does, however, have a number of concerns with 
H.R. 2714 and opposes this legislation. Further, the Service is aware 
that, as written, the bill is not uniformly supported by our Alaska 
Native partners.
    The exemptions that allow for the take (harvest) of marine mammals 
by Alaska Natives are linked to their subsistence needs as well as 
their traditional use of marine mammals in the creation of handicrafts. 
Nevertheless, the over-arching purpose of the MMPA is to manage and 
conserve marine mammals as significant functioning elements in their 
ecosystem, thereby maintaining the health and stability of that 
ecosystem; this in turn ensures the continued availability of marine 
mammals for subsistence purposes. H.R. 2714 would extend the uses of 
sea otters from the Southeast and Southcentral Alaska stocks to include 
the commercial domestic sale of raw or tanned hides, the creation of 
handicrafts, garments, or art by non-Alaska Natives, and, international 
commerce of products that, if not required to be ``significantly 
altered,'' may include raw or tanned hides. This bill is a drastic 
change from the purposes and policies of the MMPA, and the Service is 
concerned that such a change would create an unregulated commercial 
market for raw or tanned sea otter pelts. In turn, it would be 
difficult for the Service to determine if a sea otter was taken by an 
Alaska Native for subsistence purposes as allowed, or for strictly 
commercial purposes, which could result in enforcement issues.
    The harvest of marine mammals by Alaska Natives afforded by the 
exemptions provided to Alaska Natives under the MMPA is unregulated 
prior to a finding that the stock is depleted. Although populations of 
sea otters in Southeast Alaska as well as many areas of Southcentral 
Alaska are considered healthy and growing, the number of sea otters in 
Prince William Sound has still not fully recovered to the pre-Exxon 
Valdez oil spill number. We are mindful that the unregulated and 
intensive commercial exploitation of sea otters in the 18th and 19th 
centuries resulted in their near extirpation. Because there are no 
mechanisms under the MMPA to manage and regulate a subsistence harvest 
prior to a finding of depletion, the Service is concerned that under 
H.R. 2714 the demand for sea otters would increase dramatically, which 
could result in unsustainable removals from the population.
    The Southwest stock of northern sea otters is listed as threatened 
under the Endangered Species Act of 1973 (ESA) and, thus, considered 
depleted under the MMPA. Although this stock is not being considered as 
a part of H.R. 2714, it would be difficult for the Service to determine 
whether a pelt was taken from this stock or from either the 
Southcentral or Southeast stocks, which could complicate recovery of 
the listed stock and create enforcement issues. Unauthorized take and 
use of pelts from the Southwest stock could result in negative impacts 
on this stock, and could contribute to its further decline.
    While the bill is specific to the Southeast and Southcentral stocks 
of sea otters, the Service is concerned that, if passed, there would be 
confusion on behalf of the regulated community. Sea otters from the 
threatened, depleted stock in Southwest Alaska continue to be harvested 
by Alaska Natives for subsistence and handicraft purposes. At the time 
of listing, the Service specifically assessed whether the harvest was a 
potential contributor to the decline and determined that it was not a 
contributory factor. Therefore, because the raw hides of sea otters 
harvested in Southwest Alaska may be sold between Alaska Natives, to 
registered agents, or transferred to tanners regardless of the stock 
source, the regulated community would be burdened by having to 
differentiate the stock source of their hides, and what enterprise they 
could conduct with the hide depending on that stock source. As it would 
be difficult to differentiate from which sea otter stock a pelt was 
harvested, there is also a potential that pelts legally taken from the 
Southwest stock could be illegally sold if they have not been 
transformed into an Alaska Native handicraft that met the 
``significantly altered'' definition.
    Moreover, all sea otters, regardless of the population, are listed 
in Appendix II of the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES). Therefore, exports of raw or 
finished products would require a CITES export document for the 
shipments to legally leave the United States. In order to grant an 
export permit, the Service must determine that the export would not be 
detrimental to the species' survival and that the specimens were 
legally acquired. Because there is no distinguishable difference in the 
appearance of sea otters from the Southwest stock versus the Southeast 
and Southcentral stocks, it could be difficult to make the required 
findings to allow for the export of specimens.
    Finally, H.R. 2714 only references section 101(b)(1), i.e., take 
for subsistence purposes, and not 101(b)(2) and (3), which also allows 
take for the purpose of creating and selling authentic native articles 
of handcrafts and clothing, and requires that the take not be 
accomplished in a wasteful manner.
    The bill could potentially and negatively impact other marine 
mammal species by setting an expanded standard of subsistence purposes 
that could be applied to other species. For example, Pacific walrus are 
currently harvested for both their meat and their ivory. Walrus ivory 
is a highly prized commodity and the artisan production of handicrafts 
by Alaska Natives provides an important supplemental income in remote 
areas where other sources of income are limited. At the same time, the 
Service determined that the Pacific walrus is a candidate species for 
ESA listing based in part on the unregulated harvest of the species. 
The Service is, therefore, concerned that the allowance of the sale of 
raw product, i.e., pelts, for one species could be a precedent leading 
to the sale of raw products for all marine mammals.
The Federal Duck Stamp
    The restoration of North America's great migratory waterfowl 
populations is a conservation success story. It is a story that 
involves sportsmen in partnership with States, Congress, and Federal 
agencies applying science to habitat protection and restoration. 
Because of strategic actions taken to conserve key habitats along the 
four major North American flyways, migratory waterfowl populations are 
thriving. This supports our hunting tradition, and it has provided a 
linchpin for the economies of many states supported by the recreational 
activities of hunters and outdoor enthusiasts.
    The Federal Migratory Bird Hunting and Conservation Stamp, commonly 
known as the Federal Duck Stamp, plays a critical role in this 
conservation partnership and its success story. Originally created in 
1934, the Duck Stamp represents the permit required by the Migratory 
Bird Treaty Act of 1918 to hunt waterfowl, and every waterfowl hunter 
is required to carry one into the field. Ninety-eight percent of the 
receipts from stamp sales are used to acquire important migratory bird 
breeding, migration, and wintering habitat, which are added to the 
National Wildlife Refuge System. Since 1934, sales of the Duck Stamp 
have helped to acquire more than 5.3 million acres of waterfowl habitat 
for the Refuge System. These protected lands not only benefit 
waterfowl, but also countless other wildlife species, and they increase 
opportunities for outdoor and wildlife-dependent recreation.
    The cost of the Duck Stamp has remained the same since 1991. Based 
on the Consumer Price Index, the stamp would need to cost more than $24 
today to have the same buying power that $15 had in 1991. In 1991, 
revenue from the Duck Stamp enabled the Service to acquire 89,000 acres 
of habitat for the Refuge System at an average cost of $306 an acre. In 
2010, the Service was able to acquire significantly less habitat 
because land values had tripled to an average of $1,091 an acre.
    In his FY 2011 Budget Proposal, the President included a 
legislative proposal to amend the Migratory Bird and Hunting 
Conservation Stamp Act (16 U.S.C. 718b), to increase the sales price 
for Duck Stamps from $15 to $25, beginning in 2012. With the additional 
receipts that would be generated from the proposed price increase, the 
Service anticipates additional annual acquisition of approximately 
7,000 acres in fee and approximately 10,000 acres in conservation 
easement. Total acres acquired for 2012 would then be approximately 
28,000 acres in fee title and 47,000 acres in perpetual conservation 
easements. These funds can be targeted to acquire habitats for 
waterfowl that can provide the greatest possible conservation benefit.
H.R. 3117 Permanent Electronic Duck Stamp Act of 2011
    H.R. 3117 would authorize the Secretary of the Interior to continue 
to administer a program which enables hunters to purchase Migratory 
Bird Hunting and Conservation Stamps (Federal Duck Stamps) through 
approved state licensing systems. The proof of purchase receipt from 
this sale, bearing a unique serial number, serves as a permit to hunt 
migratory waterfowl for a limited time. This program was initiated 
through the Electronic Duck Stamp Act of 2005 (P.L. 109-266), which 
directed the Secretary to conduct a three-year pilot program to 
determine if this approach would provide a cost effective and 
convenient means for issuing migratory bird hunting and conservation 
stamps.
    In order to hunt migratory birds in the United States, hunters are 
required by 16 U.S.C. 718(a) et al to purchase a Federal Duck Stamp and 
to carry the stamp with them while they are hunting. In September of 
2007, the Service initiated the pilot electronic Duck Stamp program (E-
Stamp program), partnering with eight states: Arkansas, Colorado, 
Florida, Idaho, Maryland, Minnesota, Texas, and Wisconsin. Each 
participating state signed a Memorandum of Understanding to administer 
the E-Stamp program in cooperation with the Service, through their 
automated hunting license sales outlets.
    Through the E-stamp program, hunters may purchase Federal Duck 
Stamps through an approved state's automated licensing system and 
immediately receive a proof of purchase with a unique serial number, 
which they can take with them into the field. The proof of purchase 
serves as a valid permit to hunt migratory waterfowl for up to 45 days 
from the date of purchase or until the customer receives the physical 
stamp. Like the physical Federal Duck Stamp, the electronic stamp proof 
of purchase allows free entry into all national wildlife refuges that 
charge a fee.
    The Electronic Duck Stamp Act of 2005 directs the Secretary to 
evaluate the pilot program and submit a report on whether or not the 
program ``has provided a cost-effective and convenient means for 
issuing migratory-bird hunting and conservation stamps'' and whether it 
has: (1) increased the availability of those stamps; (2) assisted 
states in meeting the customer service objectives of the states with 
respect to those stamps; (3) maintained actual stamps as an effective 
and viable conservation tool; and (4) maintained adequate retail 
availability of the physical stamp. After conclusion of the pilot 
program in December 2010, the Service finalized its evaluation, which 
included review and analysis of data from participating states, and 
submitted its report to Congress in September 2011.
    The E-Stamp pilot program has proven to be a practical method of 
selling Federal Duck Stamps that is readily accepted by the stamp-
buying public. Since the E-Stamp program's inception, more than 600,000 
electronic Duck Stamps have been sold. Sales of E-Stamps increased from 
58,000 in 2007 to more than 350,000 in 2010, an increase of more than 
420 percent. In 2010, E-Stamp sales accounted for more than 27 percent 
of total Duck Stamp sales, demonstrating the widespread acceptance of 
the E-Stamp pilot program. With few exceptions, states reported ease in 
administering the program, and the pilot program did not negatively 
affect the availability of the physical stamp or its value as an 
effective and viable conservation tool. E-Stamps provide an additional 
avenue of availability for stamp purchasers, though the program has not 
yet resulted in an increase in overall Federal Duck Stamp sales.
    The Service has continued to administer the program under existing 
authorities. Although we understand we can continue to administer the 
program without additional authorities, the Department supports the 
intent of H.R. 3117. The Service has certain, specific amendments to 
suggest, and we would like to work with the bill's sponsors and the 
Subcommittee on these as the bill continues to be considered.
Conclusion
    Thank you for the opportunity to testify this afternoon. I am happy 
to answer any questions the Subcommittee may have and look forward to 
working with the Subcommittee it considers these bills.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Kurth. And the Chairman would 
like to acknowledge that apparently it was announced today that 
you are being named Chief of the Refuge System. So 
congratulations.
    Mr. Kurth. Thank you very much, Mr. Chairman.
    Dr. Fleming. We look forward to working with you on that.
    Mr. Kurth. I look forward to working with this Committee, 
sir. Thank you.
    Dr. Fleming. Also, the Chairman would like to mention that 
at some point in the next few minutes we will probably get a 
call to vote, although we can bring things to a reasonable 
slowdown and stop, and then we will immediately convene back. 
We shouldn't be gone more than 30 or 40 minutes. It is a short 
vote. And we will be done for the day, come back, and then we 
can go unrestricted from that point.
    Next we have Mr. Ragen. Sir, you have the floor for 5 
minutes.

             STATEMENT OF TIMOTHY J. RAGEN, PH.D., 
          EXECUTIVE DIRECTOR, MARINE MAMMAL COMMISSION

    Dr. Ragen. Thank you, Chairman Fleming and members of the 
House Subcommittee, for inviting me to testify on H.R. 2714. I 
am Tim Ragen, Executive Director of the Marine Mammal 
Commission.
    The Marine Mammal Protection Act of 1972 has been an 
effective tool in protecting and conserving marine mammals and 
ecosystems. The heart of the Act is the moratorium on the 
taking and importation of marine mammals and marine mammal 
products. The Act provides certain exemptions to the 
moratorium, one of them allowing the taking of any marine 
mammal by any Indian, Aleut, or Eskimo if such taking, one, is 
for subsistence purposes; two, is done for purposes of creating 
and selling authentic native articles of handicrafts and 
clothing; and three, in each case is not accomplished in a 
wasteful manner.
    The legislative history behind this exemption recognizes 
the value of maintaining Alaska Native cultures that are based 
on subsistence uses of marine mammals. However, that history 
and the statutes clearly distinguish between subsistence 
harvesting and creating and selling traditional handicrafts on 
the one hand, and commercial use of marine mammals on the 
other. H.R. 2714 would blur this important distinction. For 
that reason and others, the Marine Mammal Commission must 
oppose this bill.
    The following are our major concerns. First, it would open 
the door to commercial harvesting of sea otters by allowing the 
sale of unaltered pelts, and the export of nontraditional 
handicrafts, garments, and art objects using pelts that have 
not been significantly altered. Although the initial taking 
would be limited to Alaska Natives, nothing in the bill would 
prevent sales to non-Natives who might modify and resell them.
    Second, the bill would confound enforcement of the Act. 
Enforcement officers would have no easy means for 
distinguishing sea otters of the threatened Southwest Alaska 
population from otters of the Southcentral and Southeast 
populations. Officers also would not have a clear basis for 
distinguishing handicrafts created under 101(b)(1) from those 
created under 101(b)(2). Under this bill, those created under 
101(b)(2) would remain subject to the limitations in that 
provision.
    Third, the sale of unaltered sea otter pelts within and 
outside the United States, coupled with modifications in 
reselling by non-Natives, could undermine those Alaska Natives 
who currently produce and sell authentic Native articles of 
handicrafts and clothing.
    Fourth, the commercial sale of sea otter pelts from the 
United States would undermine U.S. policy and diplomacy in 
international fora that regulate commercial use of marine 
mammals, and would expose our Nation to claims that it was 
giving preferential treatment to domestic products. Relaxing 
the requirements for sea otters also may lead to claims of 
unfairness by Alaska Natives who rely on and use other marine 
mammals. This could lead to a broader call to relax the 
standards governing the subsistence and handicraft use of those 
species.
    Fifth, the Commission understands that the impetus behind 
this bill may be to address a fishery management issue. If that 
is true, the issue warrants full description and review by the 
appropriate authorities before measures as significant as those 
proposed in H.R. 2714 are enacted.
    Finally, section 101(a)(3)(A) of the Marine Mammal 
Protection Act allows the Secretary of the Interior to waive 
the moratorium on taking marine mammals provided that such 
taking is in accord with sound principles of resource 
protection and conservation, and is consistent with the 
policies and purposes of the Act. The Marine Mammal Commission 
believes that the waiver process a better mechanism for 
reviewing, considering, and resolving the factors that have led 
to the proposal of H.R. 2714.
    Thank you, Mr. Chairman, and members of the Subcommittee. I 
will do my best to answer your questions.
    [The prepared statement of Dr. Ragen follows:]

       Statement of Timothy J. Ragen, Ph.D., Executive Director, 
                 Marine Mammal Commission, on H.R. 2714

    Chairman Fleming and members of the House of Representatives 
Committee on Natural Resources, Subcommittee on Fisheries, Wildlife, 
Oceans and Insular Affairs, thank you for inviting me to testify before 
you on H.R. 2714, a bill to amend the Marine Mammal Protection Act of 
1972 to allow the transport, purchase, and sale of pelts of, and 
handicrafts, garments, and art produced from, Southcentral and 
Southeast Alaska northern sea otters that are taken for subsistence 
purposes. I am Timothy Ragen, Executive Director of the Marine Mammal 
Commission.
The Marine Mammal Protection Act
    The Marine Mammal Protection Act of 1972 has been an effective tool 
in protecting and conserving marine mammals and restoring the 
ecosystems of which they are a part. The heart of the Act is a 
moratorium on the taking and importation of marine mammals and marine 
mammal products, as set forth in sections 101 to 103 of the Act. The 
Act provides certain exceptions to the moratorium, one of them being an 
exemption allowing the taking of any marine mammal by any Indian, 
Aleut, or Eskimo who resides in Alaska and who dwells on the coast of 
the North Pacific Ocean or the Arctic Ocean if such taking--
        (1)  is for subsistence purposes; or
        (2)  is done for purposes or creating and selling authentic 
        native articles of handicrafts and clothing: Provided, That 
        only authentic native articles of handicrafts and clothing may 
        be sold in interstate commerce: And provided further, That any 
        edible portion of marine mammals may be sold in native villages 
        and towns in Alaska or for native consumption. For the purposes 
        of this subsection, the term ``authentic native articles of 
        handicrafts and clothing'' means items composed wholly or in 
        some significant respect of natural materials, and which are 
        produced, decorated, or fashioned in the exercise of 
        traditional native handicrafts without the use of pantographs, 
        multiple carvers, or other mass copying devices. Traditional 
        native handicrafts include, but are not limited to weaving, 
        carving, stitching, sewing, lacing, beading, drawing and 
        painting; and
        (3)  in each case, is not accomplished in a wasteful manner.
    The legislative history behind the exemption for Alaska Natives 
recognizes the value of maintaining Alaska Native cultures that are 
based, to a significant degree, on subsistence uses of marine mammals. 
However, the legislative history and the statutory provisions 
themselves also draw a clear line between subsistence harvesting and 
maintenance of cottage industries based on creating and selling 
traditional handicrafts on the one hand, and commercial use of marine 
mammals on the other. The amendments included in H.R. 2714 would blur 
this longstanding distinction. For that and other reasons, the Marine 
Mammal Commission opposes H.R. 2714. Among our major concerns with the 
bill are the following--
    Commercial harvest: In effect, H.R. 2714 would open the door to 
commercial harvesting of sea otters by allowing the sale of unaltered 
pelts and the export of non-traditional handicrafts, garments, and art 
objects using pelts that have not been significantly altered. Although 
the initial taking would be limited to Alaska Natives, there is nothing 
in the bill that prevents sales to or subsequent creation of 
handicrafts, garments or art objects by non-Natives. Once items have 
been exported, there is nothing that would prevent the recipient from 
using the pelts to fashion coats or other marketable items. 
Opportunities for foreign manufacturers to rely on items from Alaska as 
the source for sea otter pelts currently is very limited due to the 
requirement that marine parts be significantly altered from their 
natural form in the course of creating traditional handicrafts and 
articles of clothing for sale. As discussed below, the Marine Mammal 
Protection Act already includes provisions under which commercial uses 
of non-depleted marine mammals, including sea otters, can be 
authorized. Those provisions offer a preferable means for authorizing 
the activities that would be encompassed under H.R. 2714.
    Enforcement: H.R. 2714 would confound enforcement of the Marine 
Mammal Protection Act in at least two ways. First, enforcement officers 
would have no readily available basis for distinguishing sea otters 
from the threatened Southwest Alaska population from otters from the 
Southcentral and Southeast populations. Second, the bill would create 
two classes of handicrafts--those made from sea otters taken initially 
for subsistence purposes under section 101(b)(1) of the Act and those 
taken specifically for purposes of creating and selling handicrafts 
under section 101(b)(2); the latter would remain subject to the 
limitations in that provision on what items could be made and sold. The 
bill does not provide a good way of distinguishing between these two 
categories of handicrafts. The Cook Inlet beluga whale case has taught 
us that even small economic incentives can lead to over-harvest of a 
subsistence resource with potentially significant impacts on the 
affected stock(s).
    Cultural and economic impacts: The sale of unaltered sea otter 
pelts within and outside the United States, coupled with allowing non-
Natives to obtain unaltered pelts and fashion and sell handicrafts, 
garments, and art objects made from those pelts has a significant 
potential to undermine those Alaska Native cottage industries that 
currently produce and sell authentic native articles of handicrafts and 
clothing. By opening up the scope of items that could be manufactured 
and sold, the bill also may encourage some Natives to abandon the 
cultural traditions that motivate and shape the items that they create.
    Precedence: The commercial sale of sea otter pelts from the United 
States would undermine U.S. policy and diplomacy in a number of 
international fora established to regulate commercial uses of marine 
mammals and would open the United States to claims that it was 
exercising preferential treatment to domestic products. Historically, 
the United States has told other countries interested in exporting 
similar products to the United States (e.g., seal skins and products 
from Canada) that they must avail themselves of the waiver provisions 
of the Marine Mammal Protection Act to secure the necessary 
authorizations.
    Relaxing the requirements with respect to sea otters also may lead 
to claims of unfairness by Alaska Natives who rely on and utilize other 
marine mammal species. The precedent that the bill would set may lead 
to a broader call to relax the standards governing the subsistence and 
handicraft use of other species.
    Fishery management: The Commission's understanding is that the 
impetus behind this bill may have been an interest to address a fishery 
management issue. If that is the case, the issue warrants full 
description and review before measures as significant as those proposed 
in H.R. 2714 are enacted. Among other things, any such review should 
consider not only potential ecological interactions between sea otters 
and fisheries, but also the valuable role that sea otters play in the 
ecology of nearshore ecosystems. Furthermore, proponents of the bill 
should explain why other statutory provisions (e.g., section 118 of the 
Marine Mammal Protection Act) designed to address marine mammal-fishery 
conflicts are not adequate mechanisms for addressing those concerns.
    The waiver option: Section 101(a)(3) (A) of the Marine Mammal 
Protection Act allows the Secretary of the Interior (in this case) to 
waive the moratorium on taking marine mammals provided that such taking 
is in accord with sound principles of resource protection and 
conservation and is consistent with the purposes and policies of the 
Act. Section 103 (b) sets forth the basic factors that must be 
considered in prescribing regulations related to a waiver. Those 
factors are aimed at determining the effect of such regulations on--
        (1)  existing and future levels of marine mammal species and 
        population stocks;
        (2)  existing international treaty and agreement obligations of 
        the United States;
        (3)  the marine ecosystem and related environmental 
        considerations;
        (4)  the conservation, development, and utilization of fishery 
        resources; and
        (5)  the economic and technological feasibility of 
        implementation.
    Because the Marine Mammal Protection Act already contains a 
provision for waiving its requirements and that provision sets forth 
specific factors to be considered, the Marine Mammal Commission 
believes that the waiver process provides a better mechanism for 
reviewing, considering, and resolving the factors that have led to the 
proposal of H.R. 2714.
    Thank you, Mr. Chairman and members of this Subcommittee. I will do 
my best to address your questions.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Ragen, for your testimony 
today. At this point, we will begin Member questions of the 
witnesses. To allow all Members to participate, and to ensure 
we can hear from all of our witnesses today, Members are 
limited to 5 minutes for their questions. However, if Members 
have additional questions, we can have more than one round of 
questioning. I now recognize myself for 5 minutes.
    This question is to Mr. Kurth. During the 106th Congress, 
Congressman Jim McCreary, again, my predecessor, who 
represented my district in Louisiana, introduced the Red River 
National Wildlife Refuge Act. This legislation was subjected to 
a Congressional hearing, Committee markups, floor action on 
both the House and Senate, and President Clinton signed the 
bill into law on October 13, 2000. During this process, 
Congress became a partner in the acquisition of up to 50,000 
acres of lands, waters, or interests within the boundaries of 
the refuge.
    Is there any question that this refuge is on sound footing 
today because of this process?21Mr. Kurth. We are proud to have 
Red River as a unit of the National Wildlife Refuge System, but 
there was a study that preceded it. Originally, the Fish and 
Wildlife Service didn't recommend the establishment of this 
refuge. And so we listened to Congress, and worked with the 
Congress once it became clear that that was the intention of 
Congress. But there was a great deal of study and review of the 
area prior to the time Congress decided to consider it. And so 
I think, you know, each one of these circumstances are unique. 
And we certainly respect, you know, this Committee's role in 
oversight into the decision-making about establishing refuges. 
And there have been any number of hearings during the process 
of establishing refuges. And we understand that.
    Dr. Fleming. Do you view anything in my bill, 3009, that 
would prevent any studies such as what you utilized with the 
Red River project?
    Mr. Kurth. Well, I don't think there is anything that would 
limit studies. What we found in many of these things, and I is 
think it speaks to the distinction between parks and forests, 
is wildlife conservation is a different business. And it often 
requires partnerships between a number of entities. We very 
rarely any more find a refuge where we are the only game in 
town. So we require working with nonprofit organizations. We 
work with other agencies like the Natural Resource Conservation 
System. And so putting these conservation deals together, when 
there is some exigency because of, you know, potential other 
uses, we found having the flexibility to move quickly in an 
adaptive way has been an advantage to our conservation mission.
    Dr. Fleming. Right. I appreciate your collaborative 
approach on that. Is there any reason then to exclude Congress 
from that decision?
    Mr. Kurth. Well, Congress ultimately has the decision in 
that. If you don't appropriate money we can't buy land, or the 
Commission doesn't approve----
    Dr. Fleming. Let me interrupt you on that. The problem we 
have there is that we are not allowed, under our rules, to 
legislate through appropriations bills. So, yes, in a backdoor 
way you are right. But in reality, if we want to create a 
refuge, if we want to work with you to do that, we have a 
process. And that process is the authorization process, which 
is the function of this Committee. And again, there is nothing 
about what we do on the authorization side that should 
interfere in any way with conservation or a collaborative 
approach.
    Mr. Kurth. Well, I mean even under the existing way that we 
do business, this Committee and the Congress certainly has the 
authority to move independently to create a refuge. It is just 
a complementary process to the administrative proposition of a 
refuge, and subsequent appropriations to make the deal. I don't 
know in my 33 years of doing this that we have ever supported 
creating a National Wildlife Refuge over the opposition of a 
Congressional delegation, because we need support from people 
who are willing sellers and support to acquire the land. And if 
we can't make a deal come together, we don't go forward.
    Dr. Fleming. OK. Well, again, I think that begs the 
question then why exclude Congress? If we are going to work 
with you, why not include us in that? But that is a rhetorical 
question for now.
    In terms of other Federal lands under the jurisdiction of 
the Service and the Department of the Interior, could you 
provide the Subcommittee with a response to some of these 
questions? We are currently reviewing legislation that removes 
22 acres of private property in Rhode Island. Since I 
understand the Service agrees that this was a mapping mistake, 
why not simply remove this property administratively from the 
system?
    Mr. Kurth. Well, the change of the maps for the coastal 
barrier resource units is the prerogative of Congress. We don't 
have the administrative authority to change those maps. Those 
are adopted by Congress. So we support that change, but we 
don't have the authority unilaterally to do that.
    Dr. Fleming. OK. There is a great deal of wilderness 
currently contained within the National Wildlife Refuge System. 
And the Service has in the past recommended that additional 
acreage be added. What is preventing the Service from 
increasing their wilderness inventory?
    Mr. Kurth. Well, the recommendation of wilderness by the 
Fish and Wildlife Service is nothing more than a 
recommendation. The authority to establish a unit of the 
National Wilderness Preservation System rests entirely with the 
Congress.
    Dr. Fleming. Would you prefer that we turn that over to 
your Service?
    Mr. Kurth. We don't have any proposal to turn that over to 
the Fish and Wildlife Service's authority.
    Dr. Fleming. You can see where there is a little dichotomy. 
You like it one way in one area, but not the other. So that is 
something that we are trying to resolve here.
    I see that my time is up. And I will now recognize the 
Ranking Member for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman. And Mr. 
Kurth, I would like to also congratulate you on your new 
appointment as Chief of the Wildlife Refuge Service. I look 
forward to working with you to resolve the issues that are 
under your office and oversight of this Committee. Thank you 
and the Administration very much for your support of H.R. 2236.
    How much do you think the Refuge System semipostal stamp 
could generate over say a 2-year sales period?
    Mr. Kurth. We estimate that the stamp could generate as 
much as $10 million in that 2-year period.
    Mr. Sablan. And but we all know that is just a portion of 
the operational backlog. But that would help. That $10 million 
would help.
    On H.R. 3009, Mr. Kurth, I have a series of yes or no 
questions. Is it accurate to state that beginning with 
President Theodore Roosevelt, that most units in the National 
Wildlife Refuge System were established administratively?
    Mr. Kurth. That is correct.
    Mr. Sablan. And that there is already Congressional 
oversight over the establishment of these refuges even without 
the enactment of 3009?
    Mr. Kurth. Yes, sir.
    Mr. Sablan. And it is also accurate to state that H.R. 3009 
could likely result in lost opportunities for hunting, fishing, 
and the preservation of working landscapes?
    Mr. Kurth. We are concerned that the ability to move 
quickly could cost us opportunity to make some of these 
conservation purposes. I would hate to speculate about what 
might be.
    Mr. Sablan. All right. And you also in your written 
testimony said that there is often a limited window of time 
when it is possible to protect key habitat and ecosystems by 
creating a refuge. Can you give us an example of a time-limited 
situation where administrative authority was likely essential 
or critical to creating a refuge?
    Mr. Kurth. Well, there are any number of different kinds of 
examples. Let me give you one that we talk about a lot now. And 
that is up in the Blackfoot Challenge in Montana. This area is 
an easement-only refuge that borders the Bob Marshall 
Wilderness and the national forest there. There what we had to 
do was actually take a great deal of time to come to some sort 
of agreements with the local ranching communities about a 
partnership in conservation. And it is not the type of thing 
that is easy to legislate, it is not the type of thing that can 
be done without very long close cooperation.
    What we found is really to be effective in conservation on 
a landscape scale, you have to work community by community with 
a different interest there, trying to find the partnerships and 
the opportunities to work together with people. And so what I 
think we are concerned about is sometimes taking just a 
deliberative, one-step approach doesn't allow for us to do some 
of the building of partnerships and having the administrative 
flexibility to try and bring together a deal with multiple 
partners.
    Mr. Sablan. All right. Let me get to Dr. Ragen. It is my 
understanding that H.R. 2714 is attempting to address a 
conflict between sea otters and fisheries. In your opinion, 
what is the best way to address this situation, this problem?
    Dr. Ragen. Under ideal conditions, I think you would want 
to know the specifics. We know that sea otters and fisheries 
interact with--sea otters interact with gill nets, with pot and 
trap fisheries, et cetera. And they do feed on some things, 
some targets that fisheries also target. The best way to deal 
with a question like this I think would be to get together and 
look what is going on in the particular areas of concern. And I 
understand those are in Southeast Alaska.
    We should be able to characterize the fisheries that are 
active there, where they think there might be a problem. What 
is the spatial extent of it? What is the temporal extent of it? 
Is it a seasonal problem? How many fishermen are affected, with 
what type of prey? So I guess my suggestion would be that we 
take a close look at the specifics in this particular case, see 
what those interactions are, and then develop some sort of a 
response that is targeted on those particular issues.
    Mr. Sablan. All right. And do we understand how sea otters 
interact with commercial and subsistence fisheries, or are 
there research questions that we should address before coming 
to a decision whether to change the management of sea otters?
    Dr. Ragen. Certainly, we would like to know how many otters 
are in the area that are affected, what is their trend, what 
the influence of taking otters would be on the population and 
also on the local ecosystems so that we can understand, if 
animals are to be taken, what the impact of that would be so we 
could do a better ecosystem approach to managing this issue.
    Mr. Sablan. Thank you very much. My time is up. Thank you, 
Mr. Chairman.
    Dr. Fleming. The gentleman yields. I now recognize the 
former Chairman of the Full Committee, Mr. Young.
    Mr. Young. Mr. Chairman, with your little discretion, I 
would like to enter my statement for the record at this time.
    Dr. Fleming. Without objection.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. I would like to say one thing, Mr. Chairman. 
This bill of mine is a very simple bill. It is the interstate 
sale of pelts, and export of handicrafts, garments, and art 
made from the pelts of Southcentral and Southeastern Alaskan 
stocks of northern sea otters. I will say that what concerns me 
most, Mr. Chairman, is I love to hear people say we will have 
to have--this is not a new problem. This has been going on for 
a long time. And the Commission sat on their hind ends like 
they usually do. And the Fish and Wildlife has used a lot of 
force, which is not necessary, and I have documentation of 
that, actually going in and taking pelts out of a subsistence 
killing of pelts, took them away from him, haven't given them 
back yet.
    Well, I can tell you one thing. If you are taking over the 
refuge, you have some problems with some of your personnel. I 
suggest, respectfully, that you turn around and bring them into 
your office and let them know that they have to be in fact a 
little more understanding about people they are associating 
with day to day. You have more, 78 million acres of land in my 
State of refuge. I am not confident you are handling it the way 
you should. You are beginning to be like the Park Service. 
Don't bother us, we are the U.S. Government. When I see your 
people wearing flak jackets and carrying pistols, how do you 
think that makes you feel if you are living there? And you do. 
How do you think it makes a person feel that lives there all 
their life and have some smart-ass from Massachusetts come up 
there and tell them how they should live? I don't think that is 
a way to run your shop. You have been there 33 years, you know 
what I am talking about. I suggest you go up there and start 
talking to some of the people that interface with your people 
every day.
    Mr. Chairman, I do have some questions. In a letter of 
March 15, 2011, the acting Regional Director mentions that for 
the past year the Service is reviewing policies related to the 
handicraft aspect of subsistence use exemptions to develop 
clear guidelines interpreting the significantly altered 
requirement. Now, it has been a year-and-a-half. And what is 
the results of their discussion? And why does it take so long 
for mutual agreement on definition of a term happen?
    Mr. Kurth. I don't have an answer as to why it is not done, 
and I will provide that to the Committee for the record. I do 
know that it has been a topic of consternation for many years. 
I did spend 8 of those 33 years in Alaska, and I have a great 
deal of----
    Mr. Young. When were you up there?
    Mr. Kurth. From 1991 until 1999.
    Mr. Young. Then I suggest you go back and review what is 
going on. It is not good. I have been in support of the Refuge 
System. But your idea is you can sit around and do nothing and 
not work with the people, I am not going to tolerate. You 
understand that?
    Mr. Kurth. Sir, we fully want to work with the people.
    Mr. Young. That is good, not against them, with people.
    Mr. Kurth. Yes, sir.
    Mr. Young. Significantly altered is not defined in 
regulations. Does this lead to subjective determinations by 
enforcement agents of whether a handicraft article is 
significantly altered?
    Mr. Kurth. We believe that we have a very liberal 
interpretation of that. Mr. Young, I understand that it has 
been a source of contention. And we need to finalize those 
guidelines so there isn't misunderstanding.
    Mr. Young. I am glad we understand that. I have a 
resolution of a number of communities in Southeast Alaska 
pleading with the Service to address the sea otter issues, as 
it is having a devastating effect on fishery-based economies 
and subsistence. You know, I listen to the Commission. This is 
not a new problem. They were transported to southeast. They 
built the herd up. And they are really doing damage now. For 
what? There has to be a management concept. Why I introduced 
this bill is for a management concept. If we keep waiting 
around and have some more discussions as we sit in our nice 
little chairs, there won't be anything left for any subsistence 
at all. This is what this is all about. And that is why I hope 
there is some way--I am going to move this bill one way or the 
other. But I hope there is some understanding from your agency 
and the Commission's agency to understand if we don't do 
something, you have destroyed the other species. Just because 
they lay on their back and eat their little oysters and their 
little crabs and their little clams, there are no abalone 
anymore, they have killed them all. There are very few crabs 
any more. They have killed them all. There is a massive herd of 
sea otters down there. They will eventually move north, and 
eventually move out to the northwest, too.
    So those are the things I think your agency, God help us 
the Commission, ought to be considering--not talking about, 
considering. Let's do something now. And that is why I have to 
change the law, because you can't do it right now. You could do 
it through the regulatory process if you wanted to.
    How much more time do I got? Twenty seconds.
    Mr. Ragen's testimony mentions using the existing waiver 
process. Has a waiver ever been used by the Secretary, Mr. 
Kurth? Either one of you? Has it ever been used?
    Mr. Kurth. That is not my area of expertise. I would have 
to check, and I will for the record, sir. Mr. Ragen may be able 
to answer that.
    Mr. Young. Mr. Ragen, has it ever been used?
    Dr. Ragen. Congressman Young, I believe that there was an 
effort by the Fouke Fur Company to try use the waiver back in 
the 1970s. There have been other efforts to use related 
provisions.
    Mr. Young. So the waiver doesn't work?
    Dr. Ragen. I would not say that it does not work.
    Mr. Young. But it hasn't been issued.
    Dr. Ragen. It has not been issued.
    Mr. Young. So it hasn't worked. 1970, let me see, that is 
41 years. That is about right for an agency, 41 years. That is 
about right.
    My time is up, Mr. Chairman.
    Dr. Fleming. OK. The gentleman yields his time. Next up we 
have----
    Mr. Young. Mr. Chairman, may I submit for the record the 
comments by Lianna Jack, Executive Director of Alaska Sea Otter 
and Steller Sea Lion Commission? They are in Old Harbor, 
Alaska. In support of my legislation by the way.
    Dr. Fleming. Without objection, so ordered.
    [The prepared statement of Ms. Jack follows:]

 Comments by Lianna Jack, Executive Director, The Alaska Sea Otter and 
      Steller Sea Lion Commission, Old Harbor, Alaska on H.R. 2714

    Thank you for the opportunity to submit comments on H.R. 2714. The 
Alaska Sea Otter and Steller Sea Lion Commission is a non-profit tribal 
consortium Alaska Native Organization (ANO) as described under the 
Marine Mammal Protection Act, with over 50 tribes and tribal 
organizations as members from 6 Alaska Native regions, ranging from 
Southeast Alaska to the Aleutian Islands.
    The Alaska Sea Otter Commission formed in December 1988 to promote 
Alaska Native involvement in policy decisions regarding northern sea 
otters. In 1998, at the request of member tribes, the Alaska Sea Otter 
Commission added the advocacy of Alaska Natives and Steller sea lions, 
and formally expanded to the Alaska Sea Otter and Steller Sea Lion 
Commission.
    TASSC's objectives include promoting the role of Alaska Natives in 
sea otter and Steller sea lion conservation and management efforts, 
assessing sea otter and Steller sea lion populations in Alaska through 
cultural science (TEK) and local biological research, working with 
regulatory agencies toward the common goal of conservation and 
management of healthy sea otter and sea lion populations, and educating 
and informing our youth and the public about the traditional and 
contemporary relationship between Alaska Natives, sea otters, and 
Steller sea lions.
    We would like to thank Congressman Young for the introduction of 
H.R. 2714, To amend the Marine Mammal Protection Act of 1972 to allow 
the transport, purchase, and sale of pelts of and handicrafts, 
garments, and art produced from, Southcentral and Southeast Alaska 
northern sea otters that are taken for subsistence purposes. We 
appreciate the spirit and intent of the bill, and the support that it 
shows for rural communities, our hunters, and our artisans.
    We appreciate the support for export of handicrafts, garments and 
art made from sea otter taken for subsistence purposes. This will help 
our artisans and skin sewers find greater markets for their work and 
provide economic growth. There are still CITES provisions that people 
will have to contend with, however, this is a much needed first step.
    We do, however, have concerns about the provision to allow for the 
sale of raw pelts to non-Natives. If this were to go forward, it could 
have serious negative impact on the skin sewers and artisans that work 
heavily in sea otter. Any sort of benefit gained from increasing 
markets could be eliminated by allowing non-Natives to possess and thus 
work with raw pelts. We would be opening up a new class of competition 
that is not hampered by the restrictions outlined in the MMPA that our 
Native artists and craftspeople face.
    Under existing law, subsistence harvest cannot be regulated unless 
it can be shown that Native take is negatively impacting the 
population. There is the deep concern that the potential exists for 
overharvest to occur. This would hurt our Native communities and could 
easily result in harvest regulation of subsistence use. There are 
provisions for requesting a proceeding on the record, but that is the 
only protection subsistence users have if regulations were to become 
necessary. The failures of the FWS concerning co-management over the 
last 5 years, as well as recent Office of Law Enforcement stings leaves 
us with no faith that Alaska Natives and tribal governments would have 
a seat at the table if regulations were needed. That point alone gives 
pause and we urge you to remove provisions allowing the sale of pelts 
to non-Natives. They are under no obligation to abide by their own 
policies regarding Native Americans or even Executive Orders regarding 
tribal consultation or Native Americans. They have shown this and even 
argued this in court. We cannot risk the potential for one-sided 
regulation.
    We would also urge that the bill be amended to include language 
that would supersede existing federal regulations to allow harvest 
management plans developed through co-management that allow tribal or 
authorized ANO determinations of eligibility of who may participate, As 
it presently stands, federal regulations limit Alaska Natives to 1/4 
blood quantum or more in order to be eligible to participate under the 
subsistence exemption. Presently, if harvest management plans developed 
through co-management were to be developed that included language on 
who was eligible, if it included provisions for individuals with less 
than 1/4 blood, that language would be in conflict with existing 
federal regulation and thus rendered null. To address that issue, those 
regulations need to be changed or somehow trumped by statute, I should 
note that the MMPA has no blood quantum requirement; it is simply a 
regulatory issue.
    The existing regulations defining a Native Alaskan are not working, 
but simply amending the regulations to include lineal descendants is 
not an acceptable solution to many. The regulations need to be amended 
to a tribal eligibility rather than minimum blood quantum, so that the 
tribal governments could determine eligibility locally, however, there 
is little impetus among the federal agencies to make this change. In 
lieu of that, we need language in H.R. 2714 that would allow tribes or 
the authorized ANO to include provisions in a harvest management plan 
that would trump existing regulation.
    Thank you for the opportunity to submit these comments.
                                 ______
                                 
    Dr. Fleming. Next up we have the gentleman from Florida, 
Mr. Southerland, 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Kurth, again 
as the other Members did, I congratulate you on you new 
appointment. I wanted to ask, in your testimony you stated that 
the Administration appreciates the importance of prudent 
decision-making regarding new refuges, especially in light of 
the challenging economic times we face, when it is more 
important than ever we ensure wise expenditure of the taxpayer 
dollars. You go on to describe the Service's process for 
establishing refuges as strategic, flexible, and nimble, and as 
working quickly and efficiently.
    In previous hearings in this Subcommittee we heard 
testimony which revealed the National Wildlife Refuge System 
and the National Fish Hatchery System's operational and 
maintenance backlogs exceed $4 billion. Despite these numbers, 
the Administration continues to request additional funds of 
land acquisition funding. If we do not pass a bill to mandate 
Congressional oversight over these issues, how will the 
Administration, primarily you and your department, improve its 
current business practices to do a more efficient job?
    And thank you for your patience while I got that question 
out.
    Mr. Kurth. Sure. I testified previously about that balance 
that we need to have between our operations and our maintenance 
challenges and strategically protecting habitat as National 
Wildlife Refuges. And it is very much of a balancing act. But 
conserving, you know, nationally significant fish and wildlife 
habitat is what we do. We are making progress on our 
maintenance backlog, but it is a daunting challenge, and it 
will take us time. The Congress, though, ultimately has the 
say. If you don't want us to proceed with acquiring new refuge 
lands, then the Migratory Bird Commission exercises oversight 
or the Appropriations Committee says you can't have the 
dollars. And so it is a balancing act, and it is one we need 
this Committee to be partners in. Your opinions and your 
thoughts are respected, and we take them into consideration as 
we try and plan the growth of the system.
    Mr. Southerland. I think you can certainly understand, 
though, the agitation, OK, when you have a backlog. And quite 
honestly, we hear a lot of members of the Administration that 
talk about the need for more money when the American people 
seem to have less of it. And I think as a new Member, and I 
have only been here 10 months, the thing that really is so 
bothersome to me is a lack of sense of urgency. Really in every 
way, everywhere I turn, 360 degrees, there is no sense of 
urgency. Quite honestly, because our life here, cushy little 
life here really is going to go on whether we solve problems 
that are crushing the American people or not. And so I speak to 
you not necessarily as a Member of Congress, but as someone who 
is new to this job, but I am blown away by every administrative 
position that comes here and testifies to us and never exudes 
any sense of urgency. It really is mind-boggling to me.
    So last question, because I know I am running out of time, 
in your testimony you also stated that the development of land 
protection plan is public planning practice during which you 
reach out to State agencies, local communities, and 
Congressional offices. At a recent Congressional staff briefing 
led by the Fish and Wildlife Service, the Regional Director 
with jurisdiction over Florida refuges indicated that hunting 
and fishing would be an integral component of new proposed 
refuges. As an avid outdoorsman, sports fisherman, hunter, and 
Floridian, I would like to know if you have taken the comments 
of my colleagues into consideration when banning and severely 
limiting hunting access on all but 20 percent of the Florida 
National Wildlife Refuges.
    Mr. Kurth. We take very seriously the imperative of the 
hunt. Mr. Young was the champion of the National Wildlife 
Refuge System Improvement Act of 1997 that made hunting and 
fishing and other wildlife-dependent recreational uses the 
priority of public uses of the National Wildlife Refuge System, 
and we take that very much into consideration. And there are 
some outstanding hunting opportunities on national wildlife----
    Mr. Southerland. But I want to connect the dots here based 
on my first comments about the sense of urgency. The American 
people seem to be sending more to Washington than they have 
ever sent in recent memory. And then having 28 refuges in the 
State of Florida and we can only hunt on 20 of those, is that 
sufficient?
    Mr. Kurth. There are a large number of the refuges in 
Florida that are very small islands and places like Tampa Bay 
that don't--and places like Pelican Island and the Indian River 
Lagoon that really don't afford hunting opportunities.
    Mr. Southerland. I apologize. It is seven--20 percent 
access. So seven of the 28. I find that it is so bothersome 
that the Administration seems to want more without giving the 
opportunity. So you can highlight that small 20 percent, but it 
is just not enough. And there is no sense of urgency to give us 
more.
    Mr. Kurth. We do have a sense of urgency. And just last 
week the Secretary announced the release of the new vision 
document for the Refuge System; and today I signed a charter 
for a team that is coming together, working in cooperation with 
the States, to identify significant new hunting and fishing 
opportunities. Because we need the support of America's hunters 
and anglers in building the Refuge System. So I personally have 
a sense of urgency, and I will work with the Committee on that.
    Mr. Southerland. Mr. Chairman, I will yield back. And I 
would really like for the Committee to have a copy of that 
proposal. Because I think that the American taxpayer would like 
to know when and where we can access property that we, as 
American people, own.
    Dr. Fleming. Yeah. Absolutely. And we look forward to 
receiving that. And thank you.
    Next, we have Mr. Duncan, the gentleman from South 
Carolina. You have 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Kurth, I really want to talk about two bills, H.R. 3009 
and H.R. 2719.
    Just a little background. I am probably one of the only 
Committee members, other than maybe the Chairman, who actually 
has been to the Hanford site and actually saw Rattlesnake 
Mountain and drove by the base of it. The others may have, but 
I have been there.
    So I have a unique perspective on how large the Hanford 
site is, the background of it being taken from the people that 
were there through eminent domain and set aside for creation of 
our nuclear weapons programs. And I appreciate the B Reactor 
being set aside as a national monument. I appreciate the 
historical significance of it. But I also understand that that 
is a closure site. The footprint has been reduced down to about 
70 square miles. And out of 800--is it a 870-square-mile site? 
Something like that. It is huge.
    Mr. Kurth. 195,000 acres.
    Mr. Duncan. It is huge. And so bring in that perspective.
    You say in your testimony on page 5 that H.R. 3009 would 
create an additional, uncertain hurdle to the successful and 
transparent process described above--earlier in your 
testimony--a process that has resulted in the creation of so 
many popular refuges that are a key to wildlife conservation, 
valued and supported by local communities, and contribute to 
numerous sectors of the economy. The bill requires action by 
Congress to establish new national wildlife refuges, even after 
an extensive public planning process based on sound scientific 
information and partnerships, where there is a demonstrated 
need to conserve wildlife habitat and ecosystems. A long 
process by that agency of public input to set aside these 
properties as wildlife refuges.
    That is your statement, correct?
    Mr. Kurth. Yes.
    Mr. Duncan. OK. Hanford was taken from the American people, 
taken from the folks in the Hanford community and never given 
back. But that is beside the point. It met a need for our 
Nation.
    But on June 9, 2000, without public input, President Bill 
Clinton issued a Presidential proclamation, 7319, which 
established the 195,000 acre Hanford Reach National Monument 
managed by the Service and Department of Energy. The Service, 
however, made a determination in the management plan that the 
entire Rattlesnake Mountain unit should be kept closed to the 
public, closed to the public due to the resource concerns, 
except for those individuals who obtain a special use permit, 
which is limited to approved ecological research and 
environmental education activities.
    So I guess the question I have for you is, we are asking 
for all of this transparency and asking for all this public 
input with regard to national wildlife refuges on one hand, but 
then we have an Executive Order and a President without any 
public input and definitely not from the indigenous Native 
Americans or the people in Hanford about the unique properties 
of Rattlesnake Mountain setting aside that as a national 
monument. So why the hypocrisy?
    Mr. Kurth. Well, the President exercising his power under 
the Antiquities Act is a different process than us 
administratively going through NEPA and establishing a refuge. 
We have made progress at Hanford. We have opened 65,000 acres 
to the public to use for hunting and fishing and other uses. 
But the cleanup of the site continues.
    We did a public process resulting in a comprehensive 
conservation plan that was released in 2006 where we made the 
decision that we should have access to Rattlesnake Mountain. 
But we also then had the mountain declared a sacred site at the 
request of tribes, and they have opposed us. So we have been 
going through a consultation process, which I will admit takes 
longer than what I think any of us would desire, but it is a 
difficult and a respectful process to assure we maintain those 
government-to-government relations with the tribes.
    We hope to have our culture resource management plan 
finished next summer so we can figure out a way to not alienate 
the tribes and be respectful of their cultural traditions and 
still allow public access to some of Rattlesnake Mountain. We 
just haven't found a simple way to crack that code; and, 
unfortunately, it is taking us some time.
    Mr. Duncan. A quick yes or no question. Do you all take 
economic impact on the community from access to a place like 
Rattlesnake Mountain into consideration in this process?
    Mr. Kurth. Absolutely. We have done studies on a number of 
occasions we call banking on nature where we can show nearly $2 
billion in economic benefits to communities because of the 
activities generated in national wildlife refuges. And so that 
is an important consideration in how we go about our work.
    Mr. Duncan. I think it should be.
    In my remaining time, Mr. Chairman, I support H.R. 3009 
because I believe we have a congressional obligation to have a 
role in this process of setting aside Federal lands that are 
being paid for and managed with American taxpayer dollars. I 
believe we have an open and transparent process in Congress.
    Thank you, And I yield back.
    Dr. Fleming. I thank the gentleman.
    Then we have next up, Mr. Wittman, the gentleman from 
Virginia. Five minutes, sir. But before you go ahead, let us 
reset the clock.
    We will be leaving for votes immediately after Mr. 
Wittman's questions, and then we will come back in about 35 to 
40 minutes, and we will be ready for our third panel. We will 
be done with the second panel.
    Thank you. Go ahead.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Kurth, I want to ask you a couple of questions about 
the existing Electronic Duck Stamp Program. There has been some 
concern that it would interfere with actual paper duck stamp 
sales. If you can let me know if there has been any impact 
there. How has the public responded to the current e-Duck Stamp 
Program? And do you have any suggestions or modifications that 
you would propose to H.R. 3117?
    Mr. Kurth. I think we are very pleased with the results of 
the pilot. As I said, 27 percent of the stamps are now sold 
electronically; and so I think there were a couple of very 
technical language things that we might suggest. But we are 
very much in support of this. More and more, that is how States 
issue licenses; and we want to line up so that American hunters 
and anglers can get their licenses in a way that is convenient, 
that will generate the revenues to conservation and make it 
easier for them to get outside.
    Mr. Wittman. Very good.
    Let me ask you on a broader perspective. We all know where 
the dollars from the duck stamps go. And any time we can 
encourage hunters, especially if they have an opportunity at 
the last minute to go and can't get to a post office, it is 
great for them to be able to access that electronically.
    I have heard from a lot of duck hunters that have said I 
didn't know that I could get it online. I wish I did because 
then I would have taken that opportunity to go waterfowl 
hunting.
    Let me ask this. Obviously, there are habitat challenges 
for us today looking at making sure that we have enough 
diversity of a wetlands habitat for migrating waterfowl 
populations. What do you see as those challenges? And do you 
see the current status of the duck stamp and what it provides 
as resources? Do you see that as part of an opportunity or a 
challenge for the U.S. Fish and Wildlife Service in looking at 
how do we preserve and enhance wetlands specifically for 
migratory waterfowl?
    Mr. Kurth. One of the great successes over the past couple 
of decades has been the North American Waterfowl Management 
Plan. We outline very specific goals for wildlife populations 
and habitat protection, working in joint ventures all across 
the landscape with a number of conservation partners; and we 
haven't met those goals. But the duck stamp has been an 
integral part of it. Since 1934, 5.3 million acres, over a 
billion dollars all voluntarily contributed by America's 
sportsmen and sportswomen. I think we will hear from Ducks 
Unlimited now.
    A lot of sportsmen are participating now in a new program 
called Double Down, buy two duck stamps, because they want to 
do more. So it has been a critical, user-based, 
conservationist-supported program since the Dust Bowl days of 
the Great Depression; and we are real proud of the work that 
the duck stamp has done in conservation. It has been 
bipartisan, and I think we look for it to continue to help us 
achieve our conservation goals, and the electronic duck stamp 
will help us with that.
    Mr. Wittman. Well, thank you.
    I know as we look at how do we make sure we preserve that 
habitat, Ducks Unlimited and other waterfowl organizations, 
migratory bird organizations have been critical in creating the 
emphasis with their membership, as you said, on the Duck Stamp 
Program.
    I happen to be one, too, that buys multiple duck stamps. I 
have friends that come over to enjoy hunting, and it is good to 
have a few on hand. I can say that they have been used from 
time to time when folks have come to visit. So it is certainly 
a great program the DU has in encouraging folks to buy a number 
of stamps.
    Let me ask you. In the long run, in lieu of buying multiple 
stamps, what are your suggestions about the current pricing? 
You had mentioned earlier 1991 was the last time that there was 
a change in the duck stamp fee. If you would give us your 
thoughts and ideas on where the pricing of the duck stamp you 
would think would need to go in the future and what would that 
provide for the effort to preserve and enhance wetlands?
    Mr. Kurth. The Administration in its budget proposal made a 
proposition that we increase the price of the duck stamp to 
$25, which basically inflation adjusted back to its 1991 dollar 
value. But, of course, land is quite a bit more expensive and 
not in just the same rate as inflation. But we think it will 
put us on a solid ground to continue this program at a rate 
where we can continue to make steady progress toward the goals 
of the North American Waterfowl Management Plan and, 
importantly, to provide the hunters of this country the 
opportunity to have places that are open to the public, to get 
them out to enjoy their sport and to participate in the 
conservation programs they love.
    Mr. Wittman. Sure. Let me ask this. As that discussion has 
taken place, there has been some concerns that, if the price 
goes up, the number of purchases will go down and potentially 
result in less revenue. Can you give us your reflection? If 
that price increase were to go into place, what would you see 
as far as the number of dollars coming into the Migratory Bird 
Conservation Fund?
    Mr. Kurth. Our experience in the past is that sportsmen 
tend to support these things. You might see a little dip 
amongst certain pieces of the population. But, over time, it 
has been an important thing that we adjust the price of the 
stamp to reflect inflation over time; and it has been very 
successful for us.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Kurth. We thank you for your service on the Commission 
as well.
    Dr. Fleming. The gentleman yields back.
    The Subcommittee will stand in recess.
    Oh, I am sorry. Yes.
    I would like to thank you gentlemen for testifying before 
us today. Members of the Subcommittee may have additional 
questions and we ask you to respond to these in writing. The 
hearing record will be open for 10 days to receive these 
responses.
    And, as I say, we will be done with this, with Panel 2; and 
we will reconvene at approximately 3:30 to take on Panel 3.
    We sit in recess. Thank you.
    [Recess.]
    Dr. Fleming. We are now ready for the third panel of 
witnesses, which includes Mr. Carl F. Adrian, President and CEO 
of Tri-City Development Council; Mr. Michael Miller, the Chair 
from Juneau--OK--Chair of the Indigenous People's Council for 
Marine Mammals. Hopefully, we will be on camera. Oh, there we 
go. And Ms. Jacqueline Nicholson, South Bay Homeowners 
Association; Ms. Ann Smith, Vice President of the Friends of 
Black Bayou Lake National Wildlife Refuge; and Mr. Scott 
Sutherland, Director of Governmental Affairs, Ducks Unlimited.
    Thank you all for your patience in being with us today, and 
I can commit to you that we will have no further interruptions 
from votes.
    Briefly repeating my earlier instructions, your written 
testimony will appear in full in the hearing record. So I ask 
that you keep your oral statements to 5 minutes as outlined in 
our invitation letter to you and under Committee Rule 4(a). Our 
microphones are not automatic, so please press the button when 
you are ready to begin.
    Again, our timing lights, I think you have witnessed those 
already. You will be on a green light for the first 4 minutes, 
then yellow for a minute. When it turns red, I certainly want 
you to go ahead and wrap up your remarks.
    Certainly your testimony will be submitted to us in its 
entirety into the record. So we will make sure and have that.
    Mr. Adrian, you are now recognized for 5 minutes, sir, to 
present your testimony on H.R. 2719.

        STATEMENT OF CARL F. ADRIAN, PRESIDENT AND CEO, 
                  TRI-CITY DEVELOPMENT COUNCIL

    Mr. Adrian. Thank you, Chairman Fleming and members of the 
Committee, for allowing me to come and speak today on an issue 
that is very important to the Tri-Cities and that is H.R. 2719, 
Public Access to Rattlesnake Mountain.
    As Congressman Hastings pointed out, 68 years ago, as part 
of the Manhattan Project, the Federal Government acquired a 
586-square-mile site known as the Hanford Nuclear Reservation. 
That site included the eastern slope and summit of Rattlesnake 
Mountain. Most of it at the time was in private ownership, and 
residents were given only a short period of time to vacate the 
property.
    I am sure at the time it was of interest because 
Rattlesnake was the highest point in the area. It was important 
probably for defense of the site. But, also, it probably was 
acquired to keep prying eyes away from the site and what was 
going on there.
    As I mentioned, Rattlesnake is the highest point in 
Southeastern Washington. The summit is an elevation of 3,660 
feet. For all these years, only those who were escorted by a 
Federal employee were allowed to the summit.
    In fact, it was only a couple of years ago that Congressman 
Hastings and I took our first trip to the summit together. And 
if he was here today, I think he would recall that it was a 
bright, sunny day, one of those 400 days of sunshine we have in 
southeast Washington State.
    The mountain was never contaminated as a result of any 
activities in Hanford. And even though there was no public 
access, through the years there was quite a bit of activity at 
the summit of the mountain and on the mountain itself. There 
was a craft battery and Nike Ajax Missile Installation. On the 
slope, at the top, there was a manned radar site that was 
manned for a number of years.
    And, in fact, I actually have an employee that works for me 
now that was stationed there for 46 days in 1959. Shortly after 
he was stationed there, he requested a transfer, hoping to get 
a better post; and he was immediately transferred to Korea. He 
told me today on the phone--he said, I came back to the Tri-
Cities. I have never been back to Korea. I am sure it was the 
circumstance, rather than the country at the time. But it was 
an interesting account from him.
    Later, the Pacific Northwest National Lab actually operated 
an observatory on the top of the mountain; and then there have 
been numerous communications towers, both private and public, 
which have now been consolidated into a single tower at the 
summit.
    All of the buildings and foundations from the buildings 
have been removed. But I found out recently that one of the 
former DOE managers, a site manager, even organized several 
recreational runs to the top of the mountain while he was DOE 
site manager.
    So there was quite a bit of interest in getting to the top 
of Rattlesnake Mountain. So while access by the public has been 
limited, there has been steady activity on the mountain for the 
last 68 years.
    For the first time, the Tri-Cities community can actually 
see the end of cleanup at the Hanford site. My organization, 
along with Congressman Hastings' office and our local 
newspaper, the Tri-City Herald, began a dialogue about the 
future of Hanford. This was about 2 years ago. Through public 
forums and an on-line survey, it became crystal clear that the 
Tri-City community believes strongly that public access to 
Rattlesnake Mountain and the summit represents a tremendous 
recreational, educational, historical, scientific, and cultural 
asset to the community.
    We submitted info as an attachment to my written testimony 
on the Badger Mountain experience. Badger Mountain is another, 
smaller mountain, 1,000 feet in elevation, that is nearer the 
community that was opened up to public access a couple of years 
ago. Last year, 120,000 hikers hiked to the top of Badger 
Mountain. So it was very important. We don't expect this kind 
of traffic at Rattlesnake Mountain, but it does demonstrate it 
is a significant recreational asset.
    From an educational perspective, flora and fauna are 
certainly important, but, also, the summit gives a clear view 
of the Columbia River and the geology of the ice-age floods, 
the last of which was 13,000 years ago.
    The Tri-City community also recognizes the cultural 
significance of Rattlesnake Mountain. But thanks to the Federal 
Government, Rattlesnake and the surrounding areas have a 
tremendous historical significance not just to the community 
but to the entire region.
    At 3,600 feet, with most of the surrounding area at 3- to 
400 feet, there are vistas of the entire 586-square-mile site 
of Hanford; and that is an area of about half the size of Rhode 
Island. You can see the confluence of the Snake and Columbia 
Rivers, a historic campsite for Lewis and Clark.
    We believe that the cultural, historic, recreation, and 
scientific interests can all be accommodated through this piece 
of legislation. We were optimistic when the two public tours 
scheduled were scheduled, but then they were canceled for no 
reason.
    Again, the Tri-City area and community are very supportive 
of H.R. 2719. Thank you very much. We would also like to thank 
Congressman Hastings for his leadership on this issue.
    [The prepared statement of Mr. Adrian follows:]

              Statement of Carl F. Adrian, President/CEO, 
          Tri-City Development Council (TRIDEC), on H.R. 2719

    Good afternoon Chairman Fleming and members of the Subcommittee. 
First, thank you for inviting me to speak on this very important 
topic--public access to Rattlesnake Mountain, including the summit. I 
also want to express our appreciation to the full-Committee chairman 
(and our Congressman), Doc Hastings, for his leadership on this 
legislation.
    For the record my name is Carl Adrian, I am President and CEO of 
the Tri-City Development Council or TRIDEC. TRIDEC is the lead economic 
development organization serving a two-county region in Southeast 
Washington State. The Tri-Cities has a population of 258,000 and 
includes the communities of Kennewick, Pasco, Richland and West 
Richland. TRIDEC has about 350 member firms and contractual 
relationships with the cities, counties and local port districts.
    I am here to speak to you about why public access to Rattlesnake 
Mountain is so important.
    Rattlesnake Mountain is a 3,660 foot windswept treeless sub-alpine 
ridge overlooking the Hanford nuclear site. Prior to 1943 nearly all 
the mountain was in private ownership and much of the western slope 
remains in private hands today.
    In 1943, the summit and entire eastern slope was taken by eminent 
domain and placed in federal ownership under the Manhattan Project. 
Today the eastern slope of Rattlesnake Mountain remains under federal 
protection as part of the Hanford Reach National Monument, managed by 
the U.S. Fish and Wildlife Service.
    The public has not been allowed on Rattlesnake Mountain, except 
when escorted by federally badged individuals. For the few of us that 
have been escorted to the summit (and Congressman Hastings and I 
experienced our first trip to the top together) the vistas are 
breathtaking. You can see:
        <all>  To the south the state of Oregon
        <all>  To the west the Cascade Mountains including Mt. Rainer, 
        Mt. Hood, and Mt. Adams
        <all>  To the east the confluence of the Yakima and Columbia 
        rivers and the confluence of the Snake and Columbia rivers--a 
        historical campsite of Lewis and Clark
        <all>  The Tri-Cities communities and our surrounding patchwork 
        of vineyards and agricultural areas
        <all>  The entire 586 square miles of the Hanford site 
        including the reactor sites and processing canyons. Imagine 
        viewing an area half the size of Rhode Island.
        <all>  And a magnificent view of the geology of the Columbia 
        river valley and Columbia gorge formed by the ice age floods 
        some 13,000 years ago.
    Rattlesnake Mountain was never contaminated by the nuclear missions 
at Hanford and as the site is cleaned up, it's only appropriate the 
highest vista for viewing the site and the surrounding area be open for 
public access.
    The community embraces the cultural and historical significance of 
Rattlesnake Mountain and believes that public access for everyone is 
the best way to preserve the heritage of this place.
    For the first time the Tri-Cities can actually see an end to the 
clean-up of ninety percent of the Hanford site. Almost two years ago, 
TRIDEC began a community conversation regarding the future of the 
Hanford site.
    In a letter to the Department of Energy, signed by myself along 
with mayors of our four principal cities, the chairmen of both county 
commissions, the executive directors of three local port districts, and 
Hanford communities, we asked DOE among other things to recognize that 
the natural features of the Hanford site, and in particular Rattlesnake 
Mountain and the Reach National Monument, are important community 
assets national treasures where the public must be allowed access.
    Subsequent to the letter, TRIDEC along with our local newspaper, 
the Tri-City Herald, sponsored a series of community forums asking the 
public for their vision of the future of the Hanford site. One hundred 
and fifty Tri-Citians attended these forums in person and another 200 
filled out an on-line survey. Aside from one gentleman who thought the 
Hanford site should be turned into a zoo (similar to Jurassic park, 
without the dinosaurs) there were three common themes which were voiced 
at every meeting and in most surveys.
    One of the common themes is that the public wants access to the 
entire Reach National Monument including Rattlesnake Mountain, and 
other historical structures and geologic features.
    To understand what access to the summit of Rattlesnake Mountain 
could mean to our community, we need to only look 15 miles to the south 
of Rattlesnake, to Badger Mountain, which is about 1/3 the height of 
Rattlesnake. The 650-acre summit of Badger Mountain was purchased by 
the community several years ago to preserve the mountain for public 
access. Last year more than 120,000 hikers climbed to the 1,000 foot 
summit of Badger Mountain! (See attached articles on the tremendous 
local support of the public access to Badger Mountain.
    Of what value is a national monument if the public is not allowed 
access? TRIDEC supports Congressional action that opens public access 
to Rattlesnake Mountain for the first time in 68 years! Accordingly, we 
support H.R. 2719, and urge the Committee to expedite approval of this 
legislation.
    Thank you for allowing me to speak on this very important topic in 
front of this Congressional Subcommittee.
[GRAPHIC] [TIFF OMITTED] 70952.001

.eps[GRAPHIC] [TIFF OMITTED] 70952.002

.eps[GRAPHIC] [TIFF OMITTED] 70952.003

                                 .eps__
                                 
    Dr. Fleming. Mr. Adrian, thank you for your testimony.
    Next, we have Ms. Nicholson. Oh, I am sorry. I am sorry--
Mr. Adrian.
    Now Mr. Miller. You are now recognized for 5 minutes to 
present your testimony on H.R. 2714.

              STATEMENT OF MICHAEL MILLER, CHAIR, 
         INDIGENOUS PEOPLE'S COUNCIL FOR MARINE MAMMALS

    Mr. Miller. [Via video.] OK. Thank you, Mr. Chairman. Can 
you all hear me alright?
    Dr. Fleming. Yes, we can.
    Mr. Miller. OK. Thank you, Chairman Fleming and Congressman 
Young and members of the Subcommittee.
    My name is Mike Miller. I am here as Chairman on behalf of 
the Indigenous People's Council for Marine Mammals. I want to 
thank you for the opportunity to testify before the 
Subcommittee on an important issue for Alaska Native coastal 
communities, the harvest of sea otters and the use of sea otter 
pelts to make handicraft which are impacted by H.R. 2714, a 
bill to amend the Marine Mammal Protection Act of 1972.
    IPCoMM is a coalition of Alaska Native tribes and tribally 
authorized Alaska Native Organizations, or ANOs, formed in 1992 
to address cooperative concerns and issues of common concern 
between tribes or ANOs and the Federal Government in the 
management of Marine Mammals.
    One Marine mammal that is highly problematic for a lot of 
communities right now is the sea otter. A significant increase 
of sea otter population in the areas of the State of Alaska 
over recent years has severely impacted the availability of 
other important resources, including shellfish for native and 
rural subsistence users alike. At the same time, though, its 
abundance provides an opportunity for economic development in 
rural communities through the sale of native handicrafts made 
from sea otter pelts.
    Alaska Natives do have an exemption in the MMPA that allows 
for the harvest of sea otter pelts to create traditional 
handicraft, but, unfortunately, that definition of traditional 
handicraft and the enforcement of it is confusing, at best.
    H.R. 2714 attempts to address some of the issues related to 
the use of sea otter pelts by Alaska Natives, and we greatly 
appreciate the effort by Congressman Young to take on the 
issue. We do support the legislation. But we have some concerns 
and recommendations that I raise with the Subcommittee.
    We absolutely support the provisions of H.R. 2714 that 
assist us in meeting our goals of creating long-term economic 
opportunities for our tribal members, protect our subsistence 
resources, and support village economies by protecting 
commercially viable species to be harvested sustainably. We do 
have a concern, though, that the language in H.R. 2714 as it 
stands that allows for the sale of unaltered pelts could only 
be a short-term fix with a potential for unintended 
consequences.
    H.R. 2714 as currently drafted doesn't fully address 
another major contributor to the limited harvest of sea otters, 
and that is aggressive, overzealous, inconsistent, and possibly 
illegal law enforcement actions on the part of Department of 
the Interior, U.S. Fish and Wildlife Service Office of Law 
Enforcement. Their actions have made Alaska Natives nervous 
around the State about exercising their legal right to harvest 
sea otters and other marine mammals as well and to make and 
sell handicrafts made from pelts and other marine mammal parts 
despite Congress' intent in the MMPA to provide that 
subsistence and economic opportunity.
    The definition of native handicraft is a large source of 
ongoing problems related to the harvest of sea otters, along 
with other marine mammals; and this is further complicated by 
the lack of consistency between Federal agencies in enforcing 
the laws. The agencies are enforcing the same language in the 
MMPA regarding the definition of handicraft but interpreting 
them differently, and there should be consistency regardless of 
the marine mammal involved.
    Another concern which can't really be addressed by this 
legislation but I believe it is worth noting is that the Fish 
and Wildlife Service--U.S. Fish and Wildlife Service is using 
individual tribal consultation as a means to eliminate, ignore, 
or diminish recommendations or consultation with larger multi-
tribal co-management organizations. These are tribally 
authorized intertribal organizations working together to solve 
issues of concern. It is absolutely important to talk to tribes 
on an individual basis, but it shouldn't be used to weaken our 
ability to speak in a unified voice on issues with these multi-
tribal organizations. Our effectiveness overall is damaged.
    It is our strong recommendation that these agencies use 
existing organizations to ensure meaningful consultation on the 
issues. The Fish and Wildlife Service Office of Law Enforcement 
doesn't share anything about its annual budget with us at 
least; and we would like to recommend that, until these 
troubling issues are resolved, that a significant portion of 
that budget be shifted to marine mammals management, 
specifically co-management which has been funded at less than 
$30,000 annually in recent years for Statewide co-management of 
sea otters.
    In closing, we do support the legislation but would ask 
that any provision for the sale of unfinished pelts only be 
considered as a part of local harvest management plans as 
allowed in the MMPA and be consistent with the existing 
exemptions of the MMPA related to Alaska Natives. This approach 
could eliminate the need for the geographical divisions as 
contemplated in H.R. 2714 and the related potential of further 
confusing enforcement actions.
    Additionally, we would request that any unaltered pelts 
that could be sold under this amendment be restricted and 
prohibited from being made into commercial products by persons 
who are not exempt under Section 101(b) of the MMPA.
    Mr. Chairman, I can't see the lights. I don't know where I 
am at on my time. But I do want to thank you for the 
opportunity to testify today and look forward to working 
further with the Subcommittee to amend the bill.
    I am constantly reminded from some of the people I 
represent that Alaska coastal natives consider ourselves to be 
marine mammals also, and we feel we need protection as well.
    [The prepared statement of Mr. Miller follows:]

                   Statement of Mike Miller, Chair, 
      Indigenous People's Council for Marine Mammals, on H.R. 2714

    Chairman Fleming, Ranking Member Sablan, Congressman Young, and 
Members of the Subcommittee on Fisheries, Wildlife, Oceans and Insular 
Affairs. My name is Mike Miller, and I am here on behalf of the 
Indigenous People's Council for Marine Mammals (IPCoMM). I am also 
Chairman of the Sitka Marine Mammal Commission and on the Tribal 
Council for the Sitka Tribe of Alaska. I have been involved in marine 
mammal management issues for many years. Thank you for the opportunity 
to testify before the Subcommittee on an important issue for Alaska 
Native coastal communities, the harvest of sea otter for subsistence 
and the use of sea otter pelts to make handicrafts, which are impacted 
by H.R. 2714, a bill to amend the Marine Mammal Protection Act of 1972 
(MMPA).
    First of all, let me explain what IPCoMM is all about. IPCoMM is a 
coalition of Alaska Native Tribes and Tribally authorized Alaska Native 
Organizations (ANOs), formed to address marine mammal issues of 
concern. We were formed in 1992 to ensure reauthorization of the MMPA 
and to address cooperative management between Tribes or ANOs and the 
Federal government for the management of marine mammals. One marine 
mammal that is highly problematic for coastal Native communities right 
now is the sea otter. The significant increase in the sea otter 
population in areas of the State of Alaska over recent years has 
severely impacted the availability of important subsistence shellfish 
for Native and rural subsistence users. At the same time, its abundance 
provides an opportuntunity for economic development in rural 
communities through the sale of Native handicrafts made from sea otter 
pelts.
    Alaska Natives do have an exemption from the MMPA that allows the 
harvest of sea otter pelts to create ``traditional handicraft''. 
Unfortunately, the definition of ``traditional handicraft'' and the 
enforcement of the regulations related to sea otter pelts are overly 
restrictive, overzealous and confusing for all involved. H.R. 2714 
attempts to address some of the issues related to the use of sea otter 
pelts by Alaska Natives, and we greatly appreciate the effort by 
Congressman Young to take on this issue. We do support the legislation, 
but we also have some concerns and recommendations that I must raise 
with the Subcommittee.
    We do support the provisions of H.R. 2714 that assist us in meeting 
our goals of creating long term economic opportunities for our Tribal 
members, protect our subsistence resources, and support village 
economies by protecting commercially viable species to be harvested 
sustainably. We agree that the laws and regulations as they stand now 
are overly burdensome and limit the opportunity for traditional, 
economic use of sea otter pelts. This, in turn, is the main reason for 
a limited harvest of sea otters. We would like to work with the 
Congressman Young and the Subcommittee to move forward with provisions 
that help in meeting these long term goals.
    We do have a concern, however, that the language in H.R. 2714 that 
allows for the sale of unaltered pelts would only be a 'short term fix' 
with a significant potential for unintended consequences. One such 
potential consequence would be the overharvest of sea otters, which 
could ultimately result in further restrictions on subsistence and 
commercial economies for our Alaska coastal population. We do not want 
the end result to be a shut down of activities related to sea otter 
harvest, or further restrictions down the road that hinder Alaska 
Native use and production of Native handicrafts, or restrictions on 
subsistence or commercial fisheries. The U.S. Fish & Wildlife Service 
cannot regulate the harvest in a way that addresses any concern about 
overpopulations of species in any area, but we are all aware that they 
can (and do) regulate the harvest and other activities related to 
populations that become depleted.
    We also have a recommendation. H.R. 2714 as currently drafted does 
not fully address a major contributor to the existing problems and the 
limited harvest of sea otters; that being, aggressive, overzealous, 
inconsistent and possibly illegal law enforcement actions on the part 
of the Department of the Interior, U.S. Fish and Wildlife Service 
Office of Law Enforcement (O.L.E.). Their actions have made Alaska 
Natives nervous about exercising their legal right to harvest sea otter 
and to make and sell handicrafts made from the pelts, despite Congress' 
intent in the MMPA to provide that subsistence and economic 
opportunity. Furthermore, the actions on the part of U.S. Fish and 
Wildlife Service O.L.E. can be disturbing, as there are many stories 
and allegations about 'entrapment' and 'harassment'. I hope that we can 
work together to develop some language that will address this issue to 
enhance, not hinder, the Alaska Native use of the MMPA exemption.
    As you are aware, the definition of ``Native handicraft'' is a 
large source of the ongoing problems related to the harvest of sea 
otter, and also with other marine mammals. This is further exacerbated 
by the lack of consistency between federal agencies (DOI/U.S. Fish and 
Wildlife Service for sea otters, polar bears and walrus vs. Department 
of Commerce's National Marine Fisheries Service with regard to seal, 
sea lion, and whales). These agencies are enforcing the same language 
in the MMPA regarding definition of ``handicraft'', but interpreting 
them differently. There should be some consistency regardless of the 
marine mammal involved, which raises another concern--that H.R. 2714 
only addresses one marine mammal. This could further the inconsistent 
application of the rules and regulations related to marine mammal 
harvest. It is our hope that you will consider amending this 
legislation to cover all marine mammals under the MMPA.
    We also want to raise another major concern, which likely cannot be 
addressed by your legislation, but that I believe is worth noting. This 
concern is that the U.S. Fish and Wildlife Service is using individual 
Tribal consultation as a means to eliminate, ignore or diminish 
recommendations, or consultation, with larger Multi-Tribal Co-
Management Organizations. These are inter-tribal organizations working 
together to solve issues related to marine mammal use and regulation. 
While it is important to talk to Tribes on an individual basis, it 
should not be used to weaken our ability to speak in a unified voice on 
issues with these multi-tribal organizations formed specifically to 
target this or other issues. Our effectiveness overall is damaged. 
Furthermore, the agencies have very limited budgets for tribal 
consultation. Consultation with a few tribes could quickly use up that 
entire budget, leaving many out. In sum, it is our strong 
recommendation that the agencies utilize these existing organizations 
to ensure meaningful consultation on the issues.
    In terms of management of U.S. Fish and Wildlife Service, Office of 
Law Enforcement, one additional point we must make is that they do not 
answer to anyone in our Region. For policy guidance, they only go to 
the Washington, D.C. offices, which are so far removed from the on-the-
ground management of marine mammals. I would like to see a strong 
regional office in Alaska to oversee policy issues related to the 
enforcement of regulations for the MMPA, which might ensure more 
consistent application of the laws and regulations.
    Additionally, the Fish and Wildlife Service O.L.E does not share 
anything about its annual budget with the subsistence users. I would 
like to recommend that until these troubling issues are resolved, a 
significant portion of that budget be shifted to Marine Mammals 
Management, specifically Co-management, which has been funded at less 
than $30,000 annually in recent years for Statewide Co-Management for 
Sea Otters. This is not enough to allow for meaningful co-management of 
this resource.
    In closing, we do support the legislation, but would ask that any 
provision for the sale of unfinished pelts only be considered as part 
of local Harvest Management Plans as allowed in the MMPA, and be 
consistent with the existing exemptions of the MMPA related to Alaska 
Natives. This approach could eliminate the need for geographical 
divisions as contemplated in H.R. 2714, which addresses only Southeast 
and South Central Alaska, and the related potential of further 
confusing enforcement actions. Additionally, we would request that any 
unaltered pelts that could be sold under this amendment be restricted 
and prohibited from being made into commercial products by persons who 
are not exempt under Section 101b of the MMPA.
    We would also like to recommend that the Subcommittee consider 
language changes to address the need for fair and consistent 
enforcement of the laws and regulations related to marine mammal 
harvest.
    One thing that most parties affected by this issue seem to agree on 
is that things, as they stand, are not working well at all, if at all. 
With that in mind, I would like to remind the Subcommittee that unless 
some vehicle for change is provided, the frustrating, confusing 
regulatory and enforcement regime will remain the same.
    Thank you for the opportunity to testify today, and I look forward 
to working further with the Subcommittee to amend the bill to address 
our concerns.
                                 ______
                                 
    Dr. Fleming. Well, thank you, Mr. Miller; and you did quite 
well not having the lights in front of you. So we thank you for 
that and thank you for your testimony.
    Next, we have Ms. Nicholson. You are now recognized for 5 
minutes to present your testimony on H.R. 2154.

              STATEMENT OF JACQUELINE NICHOLSON, 
                SOUTH BAY HOMEOWNERS ASSOCIATION

    Ms. Nicholson. Mr. Chairman, my name is Jacqueline 
Nicholson. I have come to Washington to appear today on behalf 
of myself and the South Bay Homeowners Association of Boca 
Grande, Florida. On behalf of my neighbors and friends, we 
appreciate the opportunity to testify today in strong support 
of H.R. 2154. Our 23 homes are erroneously part of the Federal 
Coastal Barrier Resources System, and H.R. 2154 fixes this 
obvious error.
    When Congress designated this unit in 1990 as a CBRS 
``otherwise protected'' area, it was intended to encompass only 
those lands within the Gasparilla Island State Park, which is 
adjacent to our South Bay neighborhood. For 20 years, all 
affected parties and interests, including my neighbors, Lee 
County State Park officials, other Florida agencies, and 
Federal agencies believed that the FL 70P boundary was drawn 
legally and correctly and along the State park boundary to the 
west of our homes and neighborhood.
    In early 2010, however, the large-scale congressionally 
approved FL 70P map hand drawn in 1990 was digitized by Fish 
and Wildlife and FEMA. It revealed the eastern boundary was not 
along the State park boundary but was in fact drawn too far 
east, bisecting our lots and homes.
    To fix this mistake, H.R. 2154 would adopt a corrected FL 
70P map that places the otherwise protected area boundary where 
it was intended, along the eastern edge of Gasparilla Island 
State Park. It would remove about five acres of our private 
land from the CBRS, other protected lands, and leave the 
remaining of the unit covering approximately 1,000 acres 
completely intact.
    When errors like this have been previously discovered, 
Congress acted to adopt new maps to correct the mistakes. 
Overall, Congress has enacted over 50 CBRS map changes since 
the program was expanded in 1990. Accordingly, there is more 
than ample precedent to enact H.R. 2154.
    We believe we have provided compelling evidence of the 
boundary error. Attached to my written statement are aerial 
photos, State park maps, and county and State permit documents, 
all showing that our homes are on land that has been in private 
ownership and developed and therefore not eligible to be part 
of a CBRS otherwise protected area for over 105 years.
    Since Congress adopted this erroneous 1990 map, only 
Congress can adopt a boundary correction. We urge you to make 
an independent judgment based on these facts and evidence and 
correct this error.
    Thank you for your attention to our plight. It was very 
disturbing, to say the least, to find that my neighbors and I 
live within a designated Federal land unit by virtue of a 
mapping error undiscovered for 20 years, a plain error for 
which we bear no responsibility but must suffer the 
consequences and uncertainty. Please act quickly to fix this 
mistake and pass H.R. 2154.
    Thank you.
    [The prepared statement of Ms. Nicholson follows:]

 Statement of Jacqueline Nicholson, South Bay Homeowners Association, 
             Boca Grande, Florida, in support of H.R. 2154

    Mr. Chairman: My name is Jacqueline Nicholson. I have come to 
Washington to appear today on behalf of myself and the South Bay 
Homeowners Association of Boca Grande, Florida. On behalf of my 
neighbors and friends, we appreciate the opportunity to testify today 
in strong support of H.R. 2154. This simple but important measure, 
introduced by our Congressman Connie Mack, will correct a very plain 
and evident boundary mistake in unit FL 70P of the Coastal Barrier 
Resources System (CBRS). Contrary to statutory eligibility standards 
and Congressional intent, our 23 homes on 5.2 acres of long developed, 
private lands are erroneously part of this CBRS ``Otherwise Protected 
Area'' (OPA)--FL 70P. (See Exhibit 1). The new map referenced in H.R. 
2154 fixes this error and takes our homes out of the CBRS OPA unit 
consistent with the law and intent.
    When Congress designated this unit in 1990, it was intended to 
encompass only those lands ``otherwise protected'' within the 
Gasparilla Island State Park (see Exhibit 2) which is adjacent to our 
South Bay community. In fact, the ``P'' designation indicates this CBRS 
unit is an ``Otherwise Protected Area'' (OPA) in which privately owned, 
developed lands are not eligible for inclusion as a matter of law. The 
1990 CBRS Expansion Act specifies that ``the term `otherwise protected 
area' means an undeveloped coastal barrier within the boundaries of an 
area established under Federal, State, or local law. . .primarily for 
wildlife refuge, sanctuary, recreational, or natural resource 
conservation purposes.'' (Emphasis added). P.L. 101-591, 104 Stat. 
2931, Sec. 3(c)(6). In implementing the law, the U.S. Fish and Wildlife 
Service (FWS) explains that CBRS OPA unit boundaries are to ``coincide 
with the boundaries of conservation or recreation areas such as State 
parks and National Wildlife Refuges.'' Report to Congress'' John H. 
Chafee Coastal Barrier Resources System Digital Mapping Pilot Project, 
U.S. Fish and Wildlife Service (2008) at ix.
    Even though our homes are not legally eligible to be part of this 
CBRS OPA, federal courts have decided that Congressionally approved 
maps control what lands are in or out of these units. So if the 
Congressionally approved map contradicts the legal definition of an 
OPA, the map--even if erroneous--controls. Hence the need for 
corrective legislation such as H.R. 2154.
    Gasparilla Island is on Florida's Southwest coast in Lee County 
near Ft. Myers. The Island was a commercial fishing center in the late 
1800's and its south end, Boca Grande, became a phosphate export port 
in the early 20th century. Rail lines were built down the east side of 
the Island starting in 1905 to ship phosphate to the port (the railroad 
ran adjacent to and through the lands where our homes sit today). (See 
Exhibits 3, 4 and 5). The railroad was abandoned in the 1970's when the 
phosphate port closed and the lands slated for planned residential 
development by CSX Corporation. Between 1986 and 1990, CSX obtained the 
necessary approvals from the Florida Department of Environmental 
Regulation and Lee County to develop and build ``Boca Bay'', including 
our South Bay community of 23 homes, and commenced construction. (See 
Exhibits 6, 7 and 8). Our homes are situated between Buttonwood Bay 
Drive on the west and Boca Bay Drive on the east and the Gasparilla 
Island State Park, created in the 1980's, is immediately west of 
Buttonwood Bay Drive. (See Exhibit 9).
    For 20 years, all affected parties and interests including my 
neighbors, CSX, Lee County, State Park officials, other Florida 
agencies, FWS, and the Federal Emergency Management Agency (FEMA) all 
believed that the FL 70P boundary was drawn legally and correctly and 
coincident with the State Park boundary (i.e., to the west of 
Buttonwood Bay Drive).
    In early 2010, however, the large scale Congressionally approved FL 
70P map--hand drawn in 1990 (Exhibit 10)--was digitized by FWS and 
FEMA. It revealed the eastern boundary was not along the State Park 
boundary, but was in fact drawn approximately 100 feet too far to the 
east bisecting 23 privately owned lots in the South Bay community. The 
result of this error was to inadvertently include our 23 homes, and 
approximately 5.2 acres, within FL 70P. (See Exhibit 10). One of the 
adverse consequences of this error is that FEMA has declared all of the 
homes ineligible to participate in the National Flood Insurance Program 
even though all of the homeowners had been routinely purchasing such 
coverage for approximately 20 years. As a result, the assessed values 
of all our homes have decreased substantially, county tax revenues are 
diminished, mortgages--that require flood insurance--are imperiled, and 
the ability to sell our homes severely compromised--all because of this 
line drawing error.
    To fix this evident mistake, H.R. 2154 would adopt a corrected FL 
70P map that places the eastern OPA boundary where it was intended--
along the eastern edge of Gasparilla Island State Park. (See Exhibit 9 
and proposed ``corrected'' map dated July 8, 2011 provided separately 
to the Subcommittee).
    When errors like this have been previously discovered, Congress 
acted to adopt new CBRS maps to correct the mistakes. In 2008 Congress 
fixed a boundary error for unit FL 64P, also in Lee County, FL, to 
remove 48 acres of private lands incorrectly included within the 
original 1990. In 1994, a similar error was discovered regarding unit P 
18P just to the south of us. There a number of homes built within the 
Caloosa Shores community were erroneously included within that OPA. 
Congress adopted a new map excising the homes from the unit. Overall, 
Congress has enacted over 50 CBRS map changes since the program was 
expanded in 1990. Accordingly, there is more than ample precedent to 
enact H.R. 2154.
    We note too that FWS has taken the time to review the proposed CBRS 
OPA corrections set forth in H.R. 2027: RI 04P and RI 05P. In each 
case, FWS presented the following testimony to Congress in 2010 (and 
will likely offer the same at this hearing): ``The existing OPA 
boundaries do not precisely follow the underlying public lands 
boundaries and inappropriately capture adjacent private land that is 
not held for conservation or recreation; is not an inholding, and was 
not intended to be part of the OPA.'' On the basis of these facts, FWS 
supported boundary corrections to exclude these lands from the two RI 
CBRS units. Since the facts regarding FL 70P are essentially identical, 
we fully expect FWS to support the correction contained in H.R. 2154.
    For the record, we approached FWS immediately after we were 
informed, for the first time, of the FL 70P mapping error. We carefully 
assembled and presented the uncontroverted plain evidence, referenced 
above, from CSX, Lee County, and Gasparilla State Park that the 
existing FL 70P boundary does ``not precisely follow the underlying 
land boundary and inappropriately captures adjacent private land [our 
homes and lots] that is not held for conservation or recreation.'' (FWS 
2010 Testimony on RI 04P and RI 05P) Despite this clear and convincing 
evidence, FWS told us it did not (and does not) have the time to review 
the situation and suggest corrective action; that it might take years 
to review our evidence. Respectfully, we find this response 
unacceptable given that FWS made the error that is harming me and my 
blameless neighbors.
    FWS also indicated it would not offer an opinion or findings 
regarding the FL 70P error because agency policy is to comprehensively 
review all CBRS units on a given map, not just a single unit. This 
response is also incomprehensible since there is only ONE unit (FL 70P) 
on the map in question. (See Exhibit 9) The Gasparilla Island unit is 
the sole CBRS designation on the overall map so there is no need to 
review other units. Moreover, our close consultation with the State 
Park, Lee County, and other landowners adjacent to the CBRS unit has 
revealed no other boundary problems with FL 70P. We believe we have 
provided irrefutable evidence and all FWS has to do is acknowledge the 
accuracy of the information submitted to it; no time consuming inquiry 
is needed.
    In any event, since Congress adopted the erroneous 1990 map, and 
only Congress can adopt a boundary correction, we have submitted all of 
our information to the Subcommittee. We urge you to make an independent 
judgment based on these facts and not wait for FWS to render its 
opinion (which can only be confirmatory) at some unspecified date in 
the future. Since FWS possesses no evidence to contradict the clear and 
convincing evidence we have provided, waiting for the agency to take 
some advisory action while my neighbors and I continue to suffer the 
consequences of its original mapping error is bad public policy.
    Thank you for your attention to our plight. It was disconcerting, 
to say the least, to find that my neighbors and I live within a 
designated federal land unit by virtue of a mapping error undiscovered 
for 20 years--a plain error for which we bear no responsibility but 
must suffer the consequences. Please act quickly to fix this mistake 
and pass H.R. 2154. Thank you.
                                 ______
                                 
    Dr. Fleming. I thank you, Ms. Nicholson, for your 
testimony.
    Next up is Ms. Smith. You are now recognized for 5 minutes 
to present testimony on H.R. 3009.

  STATEMENT OF ANN BLOXOM SMITH, FRIENDS OF BLACK BAYOU LAKE 
                    NATIONAL WILDLIFE REFUGE

    Ms. Smith. Good afternoon, Chairman Fleming and members of 
the Subcommittee. I appreciate this opportunity to offer my 
testimony today.
    I am here representing the Friends of Black Bayou Lake 
National Wildlife Refuge; and I also have the support of the 
National Wildlife Refuge Association, which is made up of about 
230 refuge friends groups around the country, and also the 
Louisiana Wildlife Federation Executive Committee, of which I 
am a member. We would also like to note that we are in favor of 
H.R. 2236, the Wildlife Refuge System Conservation Semipostal 
Stamp Act; and we are also in favor of H.R. 3117, the 
electronic duck stamp.
    I grew up outside Shreveport in Caddo Parish, right off of 
Lynnwood Avenue--you might know the area--out in the country. 
My parents and my grandparents were Methodists. That means that 
we talked about stewardship; and we talked about stewardship at 
the dinner table, at the breakfast table. All the time we were 
in the business of taking care of God's creation. And as good 
Methodists, we were always looking at our duty; and so I guess 
that is why I am where I am today as a volunteer.
    I am here because I believe in the Refuge System. I believe 
in my particular refuge, which is Black Bayou Lake National 
Wildlife Refuge.
    I also am proud to say that I helped get the friends group 
started at Red River Refuge, and I know the folks over there 
well. I have been over there several times.
    You know, as a volunteer, I work with a group of volunteers 
in Black Bayou Lake. They are an amazingly diverse group. We 
have all sorts of opinions politically in this group. We are 
made up of all ages, education. All sorts of differences exist 
within our group. So I am only one of that group. What we have 
in common is that we are dedicated to our refuge and to the 
Refuge System.
    Our refuge was formed administratively, and I really am 
afraid that it wouldn't have happened in any other way. And I 
am going to do the short form here. You have the written 
version of how this was formed. But it was incredibly 
complicated.
    It started with this piece of property, 6,200 acres, then 
was put on the preliminary project proposal, was studied, and 
was approved with those acquisition boundaries back in 1993. 
That acquisition effort was halted because the State of 
Louisiana indicated an interest in buying that property. That 
waned with political problems escalating land values and so on.
    The Service then contacted the City of Monroe, which was 
interested in buying the lake as a water resource; and the city 
did that. The city bought it, leased it to the Fish and 
Wildlife Service for $1. That was about 1,700 acres, and that 
was the core of our refuge.
    Fee title lands have been added since that time at various 
points, 41 acres here, 2,100 acres there, another 41 acres, 
and, finally, 615 acres. All of this was from willing sellers 
and oftentimes involved the State of Louisiana as well.
    As for benefits that the Refuge brings to Northeast 
Louisiana, first off, I would say is the water quality issue. 
This was originally agricultural lands when it became a refuge, 
and now those formerly agricultural lands have been planted in 
hardwood trees. So that is filtering the water that is going 
into that lake, And the City of Monroe is very aware of how 
important that is to the city's water quality. It is a backup 
water resource.
    We also have lots of community support that has created 
infrastructure at the refuge. You have the list of this. It is 
pretty impressive.
    We also have an educational program at our refuge that is 
second to none. We have letters and testimony from teachers who 
have said that they believe bringing their students out to our 
refuge has helped their test scores, helped to improve their 
scores in science, and so on.
    There is also an economic benefit to our refuge, and it 
certainly surpasses the $4 of local benefit accruing to a 
refuge in comparison to every $1 that is congressionally 
appropriated. So 4 to 1 isn't bad, and I believe we do better 
than that at Black Bayou Lake.
    So I have told you a lot about our amazing refuge and about 
the people who support it, how much it is supported. But, 
finally, I would like to talk about your oversight power with 
the Refuge System. I know that all of you who represent people 
like me have an oversight power over any new refuges that are 
created. I strongly believe in the three branches of government 
and the different roles that they play in our society. Your 
role with the power of the purse I believe already gives you 
the most important seat at the table for our natural resources.
    I thank you.
    [The prepared statement of Ms. Smith follows:]

      Statement of Ann Bloxom Smith, Friends of Black Bayou Lake 
                 National Wildlife Refuge, on H.R. 3009

    My name is Ann Bloxom Smith, vice president and past president of 
Friends of Black Bayou Lake National Wildlife Refuge. I appreciate this 
opportunity to submit testimony to the House Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs for its hearing on Tuesday, 
October 25, 2011, on H.R. 3009, the ``National Wildlife Refuge Review 
Act.''
    I speak on behalf of Friends of Black Bayou and also have the 
support of the National Wildlife Refuge Association and the Louisiana 
Wildlife Federation executive committee.
    I grew up in Caddo Parish in Louisiana, just south of Shreveport, 
on several hundred acres of woods and farmland. I was greatly 
influenced by my parents and grandparents, especially my grandfather, 
who took me tramping, hunting, and fishing, always teaching me about 
the animals and plants along the way. My parents were staunch 
Methodists; I think my father's favorite word was ``stewardship.'' He 
firmly believed that we had a duty to be good stewards of God's 
creation as well as our money and talents. Taking care of the earth was 
an integral part of my family's daily discussions and actions. I'm 
telling you this to let you know how I came by my opinions and habits 
of life regarding the natural environment.
    In 1978, after earning two degrees in English literature at LSU, I 
moved to Monroe, Louisiana, where I taught at the university there 
until this past June. For the last 14 \1/2\ years I've also been 
involved with the Friends of Black Bayou Lake National Wildlife 
Refuge--ever since the Refuge's inception. I'm now the vice president 
of the group and spent the previous five years as president. I'm proud 
to have been president when our Friends group was named the National 
Refuge Friends Group of the Year in 2005.
    The Friends of Black Bayou is an amazingly diverse group of 
dedicated citizens of all political persuasions, and the Refuge we are 
pledged to protect and enhance is a beautiful and valued place. Except 
for my two absolutely wonderful sons, my work for this Refuge is my 
best and proudest accomplishment--and I'm just one among a group of 
people in the Monroe area who feel the same way about ``our'' Refuge. 
FoBB, as the group is affectionately known, has over 200 dues-paying 
members (individuals, families, businesses and groups) during any 
single year and boasts over 1,100 donors and contacts on its mailing 
list. The Monroe MSA is a community of about 100,000 people in the 
midst of one of the most economically disadvantaged areas of the entire 
country, but the people value this Refuge and willingly donate both 
time and money to it.
    Today I'm speaking on behalf of those citizen supporters, Friends 
of Black Bayou, because we believe that our Refuge is a great example 
of one that was established administratively and is incredibly 
successful within our community. FoBB is also an affiliate member of 
the Louisiana Wildlife Federation, and that group supports our position 
opposing this change in the regulations for establishment of Refuges, 
as does the National Wildlife Refuge Association (of which we're also 
an affiliate member), which supports the approximately 230 Friends 
groups nationwide.
    To help you understand our position, I intend to tell you about the 
very complicated and interesting beginnings of Black Bayou Lake NWR, 
the benefits that the Refuge brings to our area, and the support that 
the Refuge enjoys locally.
    On May 6, 1993, the U.S. Fish and Wildlife Service Director 
approved the Preliminary Project Proposal to create Black Bayou Lake 
NWR. The approved acquisition boundary encompassed 6,200 acres of 
wetlands associated with the lake. Initial acquisition efforts began 
but soon halted when the Louisiana Department of Wildlife and Fisheries 
indicated an interest in acquiring the property. Politics, escalating 
land values, and other factors intervened, and the LDWF eventually 
backed out of the project.
    In May 1996, the Service contacted the city of Monroe about 
managing the area if the city bought it. The lake served (and still 
serves) as the city's secondary source of water, and the city had funds 
to protect such areas. However, the city had no interest in managing 
the property. Numerous meetings resulted in a plan to create an overlay 
refuge on the city's property via a free 99-year lease. In October 
1996, the city purchased nearly 1,700 acres of the core area for $1.725 
million. On January 14, 1997, the Monroe City Council voted to lease 
the property to the Service for 99 years for $1 to create Black Bayou 
Lake National Wildlife Refuge. The Refuge was formally established on 
June 16, 1997, when assistant regional director Geoff Haskett signed 
the lease.
    Black Bayou Lake NWR was established for ``. . .the conservation of 
the wetlands of the nation in order to maintain the public benefits 
they provide and to help fulfill international obligations contained in 
various migratory bird treaties and conventions. . .'' 16 U.S.C. 3901 
(b) (Wetlands Extension Act).
    Fee title lands have been purchased since the inception of the 
Refuge. In 1999, 41 acres were acquired from the city of Monroe. In 
2000, another 2,190 acres were purchased from private landowners. An 
additional 41 acres were acquired from the same landowners in three 
more purchases from 2001-02. The Service then purchased the old state 
fish hatchery ponds and their surrounding land (15 acres) from The 
Nature Conservancy. In 2005, the Service purchased 615 acres of pine 
habitat from the Louisiana Department of Wildlife & Fisheries on the 
northeast corner of the Refuge. This land had formerly been a part of 
the Cities Service Wildlife Management Area.
    Clearly, the establishment of Black Bayou Lake National Wildlife 
Refuge was a very complicated process, including the original $1 lease 
for an overlay refuge on land (mostly the lake) belonging to the City 
of Monroe, which required a great deal of negotiation and timely 
action. These negotiations occurred because of a grass-roots effort of 
local citizenry. Later purchases of watershed land were from willing 
sellers, and some of those acquisitions included land-swap deals made 
with the State of Louisiana. At present, there are still some 1,700 
acres that are approved to be acquired for the Refuge--all within the 
lake's watershed--but for various reasons have not yet been purchased.
    As for benefits that the Refuge brings to the northeast Louisiana 
community, the first and most obvious is water quality. As I mentioned 
earlier, Black Bayou Lake is a back-up water resource for the City of 
Monroe. Most of the surrounding property was agricultural land, with 
its resulting chemical run-off. Since the formation of the Refuge and 
subsequent purchase of watershed lands, the Service has planted most of 
the former agricultural land in a mix of bottomland hardwood trees--
species that grew naturally in the area in years past because of their 
ability to survive periodic flooding. Now these low-lying lands and 
swamps, with their beautiful cypress and water tupelo trees, act as a 
filter for the water draining into the lake. The lake water, now, is 
pristine. If you saw it, you would see why it's called ``Black 
Bayou''--tannins in the water resulting from leaves and other 
vegetation in the water make the water appear black--but it's clear and 
clean. Later I'll talk about the economic or dollar value of the Refuge 
to our community, but the value of clean water is, simply, 
incalculable.
    More directly connected with the work of the Friends of Black 
Bayou, along with the Fish and Wildlife Service, are the recreational 
and educational benefits accruing to the community because of the 
Refuge's existence.
    In the realm of concrete local contributions to Black Bayou Lake 
National Wildlife Refuge, FoBB has raised a great deal of money and 
spent countless volunteer hours to enhance the Refuge. Infrastructure 
that has added much to the recreational/educational potential there 
includes the following:
        <bullet>  Renovation of an1880s planter's home to be the Refuge 
        Visitors' Center & Gift Shop (approximately $500,000 of private 
        donations, $150,000 of in-kind design and other services, and 
        countless volunteer hours)
        <bullet>  Wildlife Observation Pier, 1,250 feet long, that ties 
        in with a 1-mile asphalt and boardwalk nature trail (funded by 
        a Trails Grant from the State of Louisiana), all handicapped 
        accessible (original 800-foot pier funded largely by 
        International Paper's grant of $50,000; pier extension--
        $200,000 from various private sources)
        <bullet>  Conservation Learning Center ($500,000), including a 
        100-seat classroom fully equipped with audio-visual equipment, 
        a computer lab, and a wetlab for hands-on learning experiences, 
        as well as an exhibit room with huge aquaria for native fish, 
        an indoor pond for small alligators and turtles, and numerous 
        tanks for native snakes and other reptiles and amphibians 
        (funded by a $200,000 Convention and Visitors Bureau grant and 
        $150,000 in in-kind architectural design work, along with 
        $50,000+ private donations, $35,000 International Paper grants, 
        and FWS Challenge Grant money)
        <bullet>  A bird-watching blind and a photography blind (both 
        handicapped accessible) with paved trails (NFWF grant of 
        $30,000 plus private donations and volunteer labor)
        <bullet>  8 miles of unimproved edgewater trail, maintained by 
        a FoBB volunteer along with our one FWS maintenance employee, 
        along with a \1/4\ mile wildlife challenge trail for children's 
        fitness activities
        <bullet>  Handicapped-accessible arboretum trail and prairie 
        trail
        <bullet>  Handicapped-accessible wildlife observation deck and 
        connecting walkway (funded largely by grant from CLECO Corp.)
        <bullet>  Wetlands Art Project (funded by Louisiana Division of 
        the Arts grant of $20,000), at site of old state fish-hatchery 
        ponds, now being further improved for moist-soil management and 
        bird-watching opportunities (funded by legal settlement of 
        $80,000 plus another $80,000 matching grant from FWS)
        <bullet>  Eagle Scout projects including an amphitheater, a 
        native plant greenhouse, and a canoe-launching dock
    Funding for these and other projects came from a combination of 
FoBB-generated corporate grants (including several large grants from 
International Paper), NFWF grants, Monroe-West Monroe Convention and 
Visitors Bureau grants, State grants, City contributions, a legal 
settlement designated for FoBB for the purpose of water-quality 
projects, Refuge shop sales, and countless private donations--along 
with occasional matching federal contributions and maintenance costs.
    The extraordinary cooperative efforts between local citizenry and 
the Service have resulted in useful and attractive infrastructure that 
has made the Refuge accessible to a variety of people including the 
physically handicapped, school children, families, fitness buffs, 
scientists, college students, wildlife photographers, hunters and 
fishers, hikers, meditators, and others. Our Refuge averages over 
38,000 visitors per year. Of those, approximately 9,000 are there for 
fishing and about 2,000 for hunting. The other 27,000 are non-
consumptive visitors such as photographers, walkers, and bird-watchers.
    Over the past three years we have averaged approximately 5,000 
participants per year in environmental education programs, 
approximately 2,500 in interpretive programs, and 2,600 at special 
events. School groups have come from at least ten different school 
districts and many private schools and home school associations. We 
hold several teacher workshops every year. In 2010 we had nine teacher 
workshops with teachers from many school districts attending. For 
several years, we have hosted teacher workshops as part of the Math and 
Science Partnership programs through the University of Louisiana at 
Monroe and Louisiana Tech. Furthermore, university classes in biology, 
geology and geography are often held at the Refuge, and several biology 
research projects have been centered at the Refuge.
    With financial support from Friends of Black Bayou, a fourth grade 
science teacher was contracted over two summers to correlate the 20+ 
activities that we offer regularly at the refuge to the environmental 
science, life science and science-by-inquiry State Grade-Level 
Expectations for the 3rd, 4th, 5th and 7th grades. When teachers 
request an educational field experience at Black Bayou Lake NWR, they 
can select activities from our correlations list in order to emphasize 
concepts that best meet the needs of their class. The customized field 
experiences can introduce new concepts or reinforce things that have 
already been introduced in the classroom. The Refuge staff strives to 
provide fun, experiential learning opportunities that get the students 
into the natural world.
    Teachers and school administrators both recognize the value of our 
environmental education program, which is evidenced by the many school 
groups that come out during the fall and the packed schedule of groups 
in the spring. We always have schools in the spring that we cannot 
accommodate because every available day is scheduled. Some days we have 
different groups morning and afternoon. We have repeat teachers who 
schedule spring field experiences at the beginning of the school year 
to be sure they can bring their classes. We have schools that bring 
entire grades and schedule several days in a row to give all their 
students the opportunity to come to the Refuge. We also have schools 
that bring students for multiple field experiences during one school 
year, which they believe has contributed to improvements in their 
schools' standardized test scores in science (see attached letter from 
a local science teacher).
    But educational experiences at the Refuge are not limited to school 
classes. Our staff and volunteers, along with college biology majors 
and others hired as interns by Friends of Black Bayou, assist in 
interpretive programs for all ages and a variety of groups. Civic 
groups often visit and experience educational programs, as do scout and 
church groups. Last summer I assisted one of our interns in presenting 
two week-long day camps for children, so I know how much that 
experience meant to those children. One special child caught his first 
catfish, and it appeared to be just about as big as he was. 
Additionally, the Refuge interpretive naturalist regularly presents 
such programs as night hikes and other educational activities for 
families. Significantly, many of these programs are cooperative efforts 
with the volunteer Environmental Education Director of Friends of Black 
Bayou, herself a retired biology professor and the wife of our founding 
manager, Kelby Ouchley.
    Speaking of cooperative efforts, I should point out that every year 
since the Refuge's inception (1997), we (FoBB) and the FWS staff have 
presented our FoBB Fall Celebration for the public. This celebration is 
a big ``thank you party'' recognizing the community's generous support 
of all our efforts at the Refuge, and it is held annually in 
conjunction with National Wildlife Refuge Week. Along with a free fish 
fry, we also host a Refuge photography contest, give away canoe rides, 
lead the children in releasing baby alligator snapping turtles into the 
lake (eggs hatched in a ULM biology lab from eggs gathered on the 
Refuge), and provide numerous other educational and fun activities for 
families (many led by partnering community groups, museums, and 
businesses). This event has grown from fewer than 100 people in 
attendance the first year to this year's crowd of at least 2,500 
people. FoBB pays for all the expenses, but money dropped in donation 
buckets usually comes close to covering the cost. This year we managed 
to have net expenses of under $300--and that doesn't count the 
memberships that will continue to come in as a result of the good will 
this event creates in the community.
    I'm very pleased to add that the local media--TV, radio, and 
newspapers--are unfailingly supportive of the Refuge, helping to 
publicize upcoming events and reporting on events with photos and 
articles after the fact. If you check the News-Star's website, 
www.thenewsstar.com, you will find many features, photos, and even a 
recent video of me paddling a canoe on the lake while talking about the 
Refuge. The City of Monroe, too, is aware of how much the Refuge 
contributes to the local quality of life. Recently, one city official 
contacted me to ask if one of our photo contest winners would mind if 
the city used four of his winning photos (from our annual photo 
contest, displayed on our website at www.friendsofblackbayou.org) as 
part of a display in the brand new airport. Of course, the photographer 
was pleased to give his permission, so now pictures taken at our Refuge 
will greet visitors when they get off their planes in Monroe. 
Obviously, the local Convention and Visitors Bureau (made up of hotels, 
restaurants, and other businesses catering to tourists and 
conventioneers) believes that Black Bayou Lake NWR is an asset to their 
efforts: they have now contributed a total of $260,000 to enhance the 
Refuge (see attached letter describing their grants).
    As for direct economic impact on the area, Black Bayou Lake 
National Wildlife Refuge likely surpasses the national average of over 
$4 of local impact for every $1 of Congressionally appropriated funds. 
The attached document reflects just the economic impact of visitors to 
the Refuge; it does not include the impact of federal funds (salaries, 
maintenance costs, etc.) or funds raised and spent on infrastructure by 
Friends of Black Bayou. But even noting just the expenditures of nearly 
40,000 annual recorded visitors (probably an underestimate) to the 
Refuge for various purposes, a conservative estimate of their local 
impact is $1.5 million, supporting nearly $1.1 million of household 
income and nearly 70 full-time-equivalent jobs in the area. And since 
the refuge's creation, the total impact has amounted conservatively to 
over $85 million to our local economy.
    I've just told you a lot about our community, our amazing Refuge 
(which I invite ALL of you to visit) and the impact it has had on our 
area and its citizens. Without the U.S. Fish and Wildlife Service's 
ability to act nimbly and efficiently to create this refuge 
administratively, it is unclear whether the refuge would be what it is 
today. I support the FWS in creating refuges administratively for two 
reasons: I know it works--our refuge is proof, and if our community had 
not been supportive, the FWS would never have created this refuge, and 
second, I know that all of you, who represent people like me, have an 
oversight power over any new refuges that are created. I strongly 
believe in the three branches of government and the important roles 
each plays in our society. Your role, with the power of the purse, I 
believe already gives you the most important seat at the table for our 
natural resources.
    I would also like to extend our full support, as well as that of 
the National Wildlife Refuge Association, for H.R. 2236, the Wildlife 
Refuge System Conservation Semipostal Stamp Act of 2011. The Friends of 
Black Bayou Lake NWR fully understand the challenges faced by our 
Refuge and other Refuges in the System due to inadequate funding. This 
bill would create a new semi postal stamp, modeled after the recently 
enacted Multi National Species Fund stamp, and would generate 
additional funding for the operations and maintenance of the Refuge 
System. This bill would allow our Friends group and other Refuge 
supporters nationwide to show our support for the entire Refuge System. 
A voluntary stamp such as this is a way for Refuge supporters to easily 
support the Refuge System while making a purchase of something most of 
us still use.
    We further support H.R. 3117, the electronic Duck Stamp. Many 
Friends and Refuge supporters are waterfowl hunters and support an easy 
way for sportsmen and women to purchase their stamp online. But it's 
not just for waterfowl hunters--people like me, who are not hunters, 
purchase a stamp because it is a pass to all national wildlife refuges 
nationwide and because we know it helps protect the lands, waters and 
wildlife we care about. With .98 cents of each dollar of the cost of 
the stamp going to acquire vital lands and waters for the Refuge 
System, it is simply another way for us to show our support. And 
although not mentioned in this proposed legislation, we believe the 
time is right to raise the cost of a Duck Stamp from the current $15 to 
$25. The cost has not changed since 1991, yet the cost of land has 
dramatically increased. We urge Congress to consider this as the 
legislation moves forward.
    Thank you for allowing me to testify on behalf of Friends of Black 
Bayou, the National Wildlife Refuge Association, and the executive 
committee of the Louisiana Wildlife Federation. And again, please come 
visit us at Black Bayou Lake National Wildlife Refuge. You are always 
welcome.
                                 ______
                                 
    Dr. Fleming. OK. Ms. Smith, thank you for your testimony. 
And I can assure you Lynnwood Drive has not changed much since 
you lived there. I am sure you visit it very often anyway.
    Let us see. Mr. Sutherland, you are now recognized for 5 
minutes to testify on H.R. 3117.

                STATEMENT OF SCOTT SUTHERLAND, 
        DIRECTOR OF GOVERNMENT AFFAIRS, DUCKS UNLIMITED

    Mr. Sutherland. Thank you, Mr. Chairman; and I thank the 
Subcommittee for inviting Ducks Unlimited to be with you today.
    The trial that was arranged 5 years ago for the Electronic 
Duck Stamp Act has proved to be a success. We thank Mr. Kind, 
who was the author of the bill; and we thank Mr. Wittman, who 
is the author of this bill to make this test now permanent, to 
make this process permanent.
    It works. You heard from the Fish and Wildlife Service that 
it works. I am not going to go into the details of that.
    The bottom line is this is another access issue. It is a 
different kind of access issue. It is access to have people 
hunt on short notice, that system is working. It allows people 
to buy a duck stamp the night before they might want to go out 
at sunrise, which is when most duck hunters go afield and get 
right out there and go the next morning, on short notice. Their 
buddy might say, let's go tomorrow morning. There is a good 
northwest wind coming in, and the birds are coming in.
    So it has been a wonderful success, and we strongly support 
extending it, making it permanent.
    I did want to clarify one thing. Our new chief of the 
Refuge System described the system that we are--the program--
marketing program that we have as doubling down for ducks. I 
don't know if you guys play 21 or not, but, apparently, he 
might. Our program is actually called doubling up for ducks. 
For those of you who are waterfowl hunters, doubling up simply 
means that you take more than one duck, take two ducks out of 
the same flock. It means you did a really good shot. So we are 
calling our program doubling up for the ducks.
    And the point of doubling up is it is trying to send a 
message to this Committee and to the House and the Senate, and 
that is the price of the duck stamp is woefully underfunded 
right now. You heard Mr. Kurth say that it was not raised, it 
has not been raised since 1991. You also heard him say if you 
simply applied the consumer price index to the price of a 
stamp, $15, it should be sold right now for about $24.85.
    We, the duck hunting community, we, the duck stamp buying 
community, would like the price increased. We are demonstrating 
to the Committee, we are demonstrating to Congress, we are 
willing to pay more for the stamp. The way we are doing that is 
by voluntarily buying more than one stamp this year.
    So we hope that Congress will pay attention to that effort, 
and we are still wrestling with ways to actually demonstrate to 
you how many of these extra stamps have been bought. But it is 
going on. It is being wildly embraced.
    You know, we have somewhere around 600,000 constituents, 
because that is how many members of Ducks Unlimited there are. 
There is virtually no pushback from our membership on this 
idea. They like it. They are embracing it. It is strongly 
supported.
    I couldn't get away from you without mentioning the fact 
that one of the programs that marries very, very well with the 
duck stamp when we talked about other--there were some 
questions from Mr. Wittman--other programs that dovetail nicely 
with the way Federal duck stamps are used to voluntarily 
acquire habitat for waterfowl is the North American Wetlands 
Conservation Act.
    Mr. Wittman has a piece of legislation that is pending 
before the Committee, and we hope that you folks will be able 
to take that legislation up in short order. It is a program--
the North American Wetlands Conservation Act is a program like 
the electronic duck stamp that has worked very well. It has 
been very embraced. It is widely accepted by partners, and we 
hope that that program can move forward in the future with this 
Committee's support.
    That said, I have testified in front of this Committee a 
few times; and I know that any time I give back a little time, 
it is always well received. So I intend to do that again today, 
Mr. Chairman.
    Thank you.
    [The prepared statement of Mr. Sutherland follows:]

  Statement of Scott Sutherland, Director of the Governmental Affairs 
                 Office, Ducks Unlimited, on H.R. 3117

    Ducks Unlimited (DU) is pleased to testify before the Natural 
Resources Committee, Subcommittee on Insular Affairs, Oceans and 
Wildlife, in support of H.R. 3117, which would give permanent authority 
to the states to issue electronic duck stamps.
    I am the Director of the Governmental Affairs Office for Ducks 
Unlimited, a charitable wetlands conservation organization. In my role, 
I lead our organization's public policy efforts to conserve, restore, 
and manage wetland and associated upland habitat for North America's 
waterfowl.
    Originally enacted in 1934, the Federal Duck Stamp was created as 
the federal waterfowl hunting license and as a means to conserve 
waterfowl habitat. Over the last 77 years, the Federal Duck Stamp has 
generated sufficient funds to purchase, buy easements, or lease over 6 
million acres of waterfowl habitat in the United States. These lands 
are now part of the U.S. Fish & Wildlife Service's National Wildlife 
Refuge System. The price of a federal duck stamp has remained at $15 
since 1991, while land prices across the U.S. have skyrocketed. In 
1991, revenue from the duck stamp enabled conservation at an average 
cost of $306 per acre. In 2010, only 1/3 as many acres were conserved 
because land values had tripled to an average cost of $1,091 per acre. 
Based on the consumer price index, the stamp would need to cost $24.86 
today to have the same buying power that $15 had in 1991.
    For generations, waterfowlers have paid for conservation programs 
and the Duck Stamp is a good example of the effort to invest in the 
resource we care for. Funds from the purchase of this stamp go towards 
acquiring land beneficial to the public and waterfowl across the 
country. It is one of a suite of programs critical to wetlands 
conservation. Alongside this effort the North American Wetlands 
Conservation Act (NAWCA), a federal partnership program that is 
leveraged multiple times with non-federal dollars is used to restore 
and protect important wetland and upland habitat across North America. 
Legislation to reauthorize NAWCA for five years is pending before this 
Committee and we urge action very soon to move that legislation forward 
in order to renew that popular and effective program.
    The commonality between these two efforts is that final outcomes 
are determined by the Migratory Bird Conservation Commission (MBCC). 
The MBCC is comprised of four Members of Congress and three Cabinet 
members. That body determines which projects should be funded with both 
duck stamp dollars and NAWCA appropriations, making these programs an 
integral and related part of the way waterfowl habitat and wetlands are 
conserved and funded.
    Duck stamps are used by every waterfowl hunter over the age of 16. 
Traditionally waterfowlers could buy their stamps at post offices if 
they were in stock, and some stores selling sporting goods would buy a 
quantity to re-sell as a convenience to their customers. When the 
internet became popularized they could also buy their duck stamps on-
line through a contractor known as Amplex that serves as a USPS 
fulfillment center. However, if bought online then, the purchaser had 
to wait until their stamp was mailed in order to use it for hunting. 
Six years ago, the Electronic Duck Stamp Act (Act) was passed, making 
it possible to buy a federal duck stamp over the internet, and 
immediately go afield, and to make it easier for federal duck stamps to 
be sold to the public. Duck stamps are not always available at small 
rural post offices and even some larger ones, and are sometimes 
difficult for waterfowl hunters and collectors to purchase over the 
counter. This often happens later in the season when stores sell out of 
the supply they may have purchased earlier in the hunting season. Under 
the Electronic Duck Stamp Act, if a stamp is bought over the internet, 
the purchaser is given a special receipt valid for up to 45 days, which 
can be used while hunting in place of the actual stamp, giving 
sufficient time to mail a physical stamp to the purchaser.
    It is important to note that even if a purchaser buys his/her stamp 
in this manner, they will still receive an actual stamp in the mail. We 
have concerns that if a physical stamp was not issued to the purchaser, 
the value of the federal stamps as collector's items and as tradition 
would be lost. This loss of value did occur to some state duck stamps 
when they were made available electronically, and the tradition and 
artistic value of the federal duck stamp program is too strong to risk 
losing. This has not happened, however, to the federal stamp, thanks to 
the fulfillment requirement of the Act.
    The importance of the waterfowl art aspects cannot be overstated. 
An annual nationwide contest occurs to select a winning image that will 
grace the following year's stamp. In fact that contest is happening 
Friday and Saturday of this week in nearby Shepardstown, West Virginia. 
Hundreds of entries will be judged submitted by folks from most of the 
states and ranging in age from teenagers and young adults to 
internationally recognized wildlife artists.
    The trial that was arranged under the Electronic Duck Stamp Act 
legislation has worked. Federal stamps are now available instantly over 
the internet and yet due to the requirement of fulfillment, it has not 
made the stamp just a novelty item. The integrity of the system is 
secure. Because of its success in making federal duck stamps easier to 
obtain while preserving the heritage and utility of the traditional 
stamps and attendant art, Ducks Unlimited supports the proposal to make 
this program permanent.
    Thank you for inviting us to offer information on this proposal.
                                 ______
                                 
    Dr. Fleming. Mr. Sutherland, you are a very wise man. We 
thank you for giving back time.
    At this point, we will begin Member questions of witnesses 
to allow all Members to participate; and to ensure we can hear 
from all of our witnesses today, Members are limited to 5 
minutes for their questions. However, if Members have 
additional questions, we can have more than one round of 
questioning. We actually have, I think, more members of the 
panel than we do Members on the dais here. One way or another, 
we will make the math work out.
    I will now recognize myself for 5 minutes.
    My question is to Ms. Smith. You mentioned the checks and 
balances, the three branches of government; and you may have 
heard Chairman Dingell and I go back and forth on that a little 
bit. And that is the statement is often said, well, your 
appropriations process is kind of a backstop to whatever may be 
done administratively. However, again, as we pointed out--I 
think I listed these--the U.S. Army Corps of Engineers and 
other Federal services such as U.S. Forest Service, the U.S. 
Parks Service, they don't have the administrative capacity to 
do what the Fish and Wildlife Service can do here.
    It is not just about a struggle between branches of 
government. That is really not the issue for us. It is a 
process issue, but, more importantly, it comes to this.
    Today, the cumulative backlog of the National Wildlife 
Refuge System is $3.3 billion, which includes more than 1,200 
invasive species projects, 3,342 mission-critical projects, 
5,349 operations projects, 5,994 refuge road projects, and more 
than 12,000 refuge facilities in need of immediate repair. The 
backlog has caused 326 refuges unstaffed or closed to the 
public. In addition, natural disasters in 2011 have caused over 
$182 million in damages to national wildlife refuges. So the 
problem is that by adding more refuges without the ability to 
take care of them, to maintain them is a real problem up here.
    And so my question to you first is, are there any 
operations or maintenance projects at Black Bayou that have 
been neglected due to this funding issue?
    Ms. Smith. It is a funny thing at Black Bayou. The 
community is so supportive of that Refuge that whenever there 
is something that really needs to be done, we in the friends 
group and people in the community usually step up and do it as 
soon as we are informed that something needs to be done. 
Nothing goes undone that is really crucial at that particular 
refuge.
    Dr. Fleming. Yeah. So--because I have several questions 
here. So basically you are saying there are no backlogs at this 
point?
    Ms. Smith. Oh, you would have to ask someone with the Fish 
and Wildlife Service. I am not in the office.
    Dr. Fleming. All right. You don't have that information.
    OK. Are you aware that, recently, the Secretary of the 
Interior has announced plans to establish a new 150,000 acre 
refuge in Florida which will cost in excess of $700 million in 
land acquisition costs alone? Further, the Secretary is also 
looking to convert the Flint Hills Conservation Area into a 
national refuge of over 1 million acres and a price tag of more 
than $330 million.
    Do you see where I am coming from? We are going out at a 
time when we are running deficits of $1.5 trillion plus. We 
have a national debt that is approaching $17 trillion, 70 
percent increase, just by the end of the Obama first term. And 
we are still going out and buying land that we can't maintain. 
So what is your perspective of this in your experience with 
Black Bayou?
    Ms. Smith. This would be a very personal statement on my 
part. This is representing no one except for myself.
    And that is that there are times when it is crucial to buy 
the property when we can. When that property has gone through a 
process of scientific investigation and this really is 
determined to be a crucial piece of property that needs to be 
saved because of some particular animal that needs to be 
conserved, sometimes these things have to be done, even if that 
refuge might have to be--and this is not, of course, a good 
thing to do--but even if that refuge had to be mothballed 
temporarily.
    Dr. Fleming. Here is the essence. Is it good stewardship 
to, in essence, create a refuge and then ignore it? Which is, 
in essence, what is happening today, a $3.3 billion backlog. It 
is sort of akin to having a yard that you don't have a 
lawnmower to mow and then buying another yard next door that 
you won't be able to mow either.
    The problem we have today is we are making this refuge 
purchase. We are shaking piggy banks and getting coins out, and 
we are buying these. But we are ignoring the fact that we can't 
take care of them. It would be sort of like buying a puppy and 
taking that puppy home but neglecting it.
    So do you agree there are some stewardship issues with 
regard to buying--purchasing refuge lands that we are not able 
to take care of?
    Ms. Smith. There are certainly stewardship issues there. At 
the same time, there are issues when there are endangered 
species that aren't going to have another chance if they go 
completely extinct. Then we can't go back from that. That is 
gone. So sometimes we have to act immediately to take care of 
an immediate problem.
    Now, I don't really know anything about the Florida refuge 
issue, so I cannot speak to that in particular, the one that 
you are talking about. But I am just glad that this particular 
refuge that I am involved in was formed, and I don't believe 
that it would have been established had it had to go through 
the congressional process.
    Dr. Fleming. OK. My time is up. But I would ask if you 
would to submit to the Committee where you are on your 
maintenance and your maintenance backlog. We would love to know 
that information.
    With that, I will yield to Mr. Sablan, the Ranking Member.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Ms. Smith, you are going to have a busy afternoon. So we 
are going to----
    Ms. Smith. I am glad I have water here.
    Mr. Sablan. I am thinking, on H.R. 2236--that is the 
Wildlife Refuge System Conservation Postal Stamp--I am thinking 
you support that?
    Ms. Smith. Yes, very much.
    Mr. Sablan. Is this a way to address some of the operations 
and maintenance backlog you think?
    Ms. Smith. Exactly. Exactly. There is a huge backlog, and 
this will be a help.
    Mr. Sablan. A lot of money, yes.
    So let me also--how have the local people and the Fish and 
Wildlife Service cooperated in creating the Refuge and 
increasing its benefits to the community? And assuming this is 
the Black Bayou Refuge.
    Ms. Smith. Right. Through infrastructure. Our friends group 
was formed at the same time that the Refuge was formed. There 
was no infrastructure at the Refuge at that time. We started 
out with an 1880s planters home that was donated to us. The 
city paid to move it onto the property, and then we started 
raising money and putting in volunteer hours.
    It took us 4 years of volunteer time. One man gave his life 
for 4 years, full time, every day, for nothing and ran the 
project of renovating this 1880s planters home, which is now 
our visitors center.
    We also have a conservation learning center that we raised 
the money for and lots of other infrastructure.
    Mr. Sablan. I also understand that your local convention 
and business bureau donated money, 260----
    Ms. Smith. $260,000 in three or four installments.
    Mr. Sablan. Why? Why do you think they did that?
    Ms. Smith. They recognize for lots of reasons that this 
refuge is an asset to the community, but mostly because when 
they look at our visitors' log they see that we have every year 
all 50 States represented in visitors. We have, last year, 20 
countries represented in visitors. So these are people who are 
coming in and spending money in the community. I attached some 
information about that.
    Mr. Sablan. Before I go on to my next question, I want all 
of those people involved in your refuge to please come to my 
district and teach us how to do this. Because, apparently, it 
looks like it is working well.
    And would it be harder--would you say it would be harder to 
have a voice in designing refuges that benefited them if 
refuges could only be created by Congress? You alluded to this. 
Specifically----
    Ms. Smith. Yes, the formation of our refuge was so 
incredibly complex. Our original refuge was free to the Fish 
and Wildlife--well, it cost them a dollar. The City of Monroe 
still owns the lake. The original part of the Refuge is an 
overlay refuge.
    So, yes, I don't think that that kind of nimbleness is 
possible through Congress. I do think, however, that it is 
appropriate for Congress to establish refuges in some cases, 
Red River being one of those cases.
    I am not against Congress forming refuges, but I am 
certainly glad that there was this administrative process 
available for our particular refuge.
    Mr. Sablan. I am going to yield back at this time. Thank 
you very much, Mr. Chairman.
    Dr. Fleming. OK. All right. The gentleman yields back.
    I have a couple more questions. Would you like to--OK.
    Mr. Miller, I don't want to ignore you. You are coming to 
us all the way from Alaska, so we want to give you due 
attention.
    First of all, what is the temperature there?
    Mr. Miller. Oh, it is about 80 degrees and sunny here.
    Dr. Fleming. Are you kidding?
    Mr. Miller. No, all my other testimony was more accurate 
than that. It is not a very nice day here in Juneau. It is 
rainy and probably 40 degrees out.
    Dr. Fleming. Oh, OK. At least it is not 40 below. So that 
is----
    Mr. Miller. That is a good point.
    Dr. Fleming. All right. I have a question for you with 
regard to the marine mammals. Can you explain to the Committee 
the difference between the enforcement interaction with the 
National Marine Fisheries Service compared to that of the Fish 
and Wildlife Services? I detected some issues. I think you said 
something about the indigenous people are made nervous. I don't 
know whether you meant they were intimidated in some way. Can 
you elaborate on that?
    Mr. Miller. Mr. Chairman, thank you for asking that. Yeah, 
I skimmed over a pretty important issue, I think.
    And it is interesting because we have--the group I 
represent, of course, we have all of the organized marine 
mammal hunting organizations in the State. And it is a very 
large State, so there are a lot of marine mammals harvested 
under these agreements. And there is a division, of course, in 
the jurisdiction on those marine mammals. You have Department 
of the Interior, Fish and Wildlife Service with management over 
sea otters, walrus, and polar bears which are harvested by our 
communities; and then you have Department of Commerce with 
National Marine Fisheries and their jurisdiction of seals, sea 
lions, and whales, which are also harvested and turned into 
handicrafts.
    It has been interesting over the years as we have seen 
complaints--some very serious complaints that have come from 
our hunters to our meetings. And it seemed that after a number 
of years that the vast majority of complaints are coming from 
the species that were dealt with by the Fish and Wildlife 
Service Office of Law Enforcement. And, to be honest, we very 
rarely have any complaints in the State related to marine 
mammal handicrafts in dealing with National Marine Fisheries 
Office of Law Enforcement.
    Mr. Miller. I think it gets kind of to the root of the 
problem, we are dealing with those different interpretations. 
And I believe one person summed it up saying that we felt like 
we had more interaction with the National Marine Fisheries law 
enforcement, and very much no interaction, nothing positive I 
think, with Fish and Wildlife, unfortunately.
    Dr. Fleming. OK. Thank you. And have the agencies always 
implemented the Marine Mammal Protection Act differently with 
respect to the use of marine mammals by Alaska Natives?
    Mr. Miller. I have been involved, Mr. Chairman, thank you, 
I have been involved for about I guess 10 years in actual 
dealing with co-management issues. And I think there has been 
differences. There must have been similarities before, but I 
think we have come up with just different interpretations. And 
it has a trickle-down effect. As I stated, and you reminded me 
in your previous question, that the effect of that, the net 
effect is that, you know, across the State the Alaska Native 
community is scared in dealing with the particular species that 
have been dealt with by Fish and Wildlife law enforcement. And 
so I can't go too far back in history, past the 10 years I 
guess, but for the time that I have been associated with this 
there has been a divide in that approach.
    Dr. Fleming. OK. Well, thank you, Mr. Miller. I have one 
more question.
    Ms. Nicholson, when you bought your home was there any form 
of notice, disclosure, or any other notification that your home 
and those of your 22 neighbors were part of a Federally 
designated land protection unit?
    Ms. Nicholson. No. No.
    Dr. Fleming. OK. Anything else you would like to add to 
that? I mean it sounds like an obvious mistake was made some 
years ago. Are you aware if anybody has an objection to 
correcting the maps and obviously taking your homes out of that 
area?
    Ms. Nicholson. No, Mr. Chairman. We have provided all the 
background already and the maps corrected. And it is just not 
our mistake. And we are just trying to correct a mistake that 
has put us in a jeopardy for our future. And we can't sell our 
homes. Realtors won't even show them. It has created a stigma. 
Everybody doesn't--you know, we live in a small community. So 
everybody knows that this mistake has come up. So it has 
jeopardized our future.
    Dr. Fleming. Sure. And I understand you actually paid for 
the maps yourselves?
    Ms. Nicholson. Yes.
    Dr. Fleming. Came together and did that yourselves?
    Ms. Nicholson. Yes, our neighborhood.
    Dr. Fleming. Right. So obviously that is something that 
should be resolved for you. I mean that is an unjust situation. 
And obviously, if you can't sell your home, for most people 
that is where your wealth is tied up.
    Ms. Nicholson. Right.
    Dr. Fleming. And that is a very unfortunate situation that 
we need to fix.
    So Mr. Sablan, do you have any further questions? OK. I 
yield to Mr. Sablan.
    Mr. Sablan. Thank you, Mr. Chairman. Ms. Smith, I got to 
come back to you, because I truly am impressed. Why do you 
think that one individual who has volunteered for 4 years, you 
or your fellow members of your Friends of Black Bayou, devote 
so much time and money to the refuge?
    Ms. Smith. I have had an easy time whenever I have tried to 
get money or other kinds of support from people if I just take 
them to the refuge. The refuge sells itself. If I just can take 
people out to the refuge--and by the way, please, all of you on 
the Committee and staff, you are always invited to come and 
visit at Black Bayou Lake. I would love to take you on a walk, 
or a canoe ride, or whatever. But that is what sells the people 
on the refuge. All that you need to do is be there. I believe 
we had some pictures showing earlier. And all you have to do is 
just be there for a little while and you will be sold.
    Mr. Sablan. Thank you. I will consider that, because you 
know, just because of the attention and the effort you guys put 
into it. And then I will invite you to the other side of the 
world. If you dig straight from where you are at, you come 
straight to my district.
    Ms. Smith. That is right.
    Mr. Sablan. Just the devotion, I am truly impressed.
    Director Sutherland, let me ask in your experience watching 
the Service establishing the National Wildlife Refuges, has the 
Service ever overstepped its authority or not involved the 
public in the process?
    Mr. Sutherland. Well, I am not an expert in that. We, as 
our organization, we are not----
    Mr. Sablan. What is your experience?
    Mr. Sutherland. No, but I am not sure I would know. From 
the vantage point I hold for Ducks Unlimited here in 
Washington, I am a little bit farther away from the field. We 
do work with the National Wildlife Refuge System usually on 
existing refuges. I will say that in terms of the issue that 
the Chairman and others have raised in terms of sort of the 
dynamic tension between the need to conserve land versus 
restore or care for it with O&M money, we wrestle with that 
within our own organization as well. And it is an item of 
tension. And I don't necessarily have a solution for it, 
because we continue to wrestle with it.
    But, you know, one idea, I don't know if the Congress would 
consider this, and it is certainly not an instant answer, but I 
have been with Ducks Unlimited for 21 years, and I have been 
coming up here for 21 years on behalf of the organization, and 
we have been talking about the need for O&M for 21 years. And I 
am sure it was going on long before I came onto the scene. But 
one thing Congress might want to think about at some point is 
creating an endowment perhaps.
    I mean Ducks Unlimited is doing this right now, and it is a 
very hard thing to do. It is setting money aside for our future 
to carry us through rainy days and tough times as opposed to 
addressing urgent needs, and I wonder if Congress might think 
about when we talk about the commitment of Ms. Smith and other 
volunteers and the money they are putting into their local 
refuges, I think there is an ethic from people all over the 
country that love these public lands that might be willing to 
contribute their own private money to creating an endowment, or 
supporting an endowment if Congress created something like 
that. And of course this is something--I am kind of shooting 
from the hip here, but this is something that should probably 
be discussed with the agencies and so forth. But maybe that is 
a way so that 20 years from now--like I said, I have been doing 
this for 21 years--20 years from now perhaps this might be a 
more bright outlook for dealing with our challenges on these 
public lands than we are in today.
    And I think we are in support of the idea of this postage 
stamp as well. And I think that all these things added together 
can help address these kinds of issues, and let us move forward 
to better caring for the lands we have and paving a path toward 
acquiring new needed lands for endangered species, or 
waterfowl, or whatever it happens to be.
    Mr. Sablan. And the value of land. Because where I come 
from, land is very small. The main island I am on is 48 square 
miles. But obviously we have the size of oceans that are huge.
    Mr. Sutherland. I am from Alaska, so I am from the other 
side of the coin. We have a lot of land.
    Mr. Sablan. Yes. I have one more question, but I am out of 
time.
    Thank you, Mr. Chairman. I yield.
    Dr. Fleming. I thank the gentleman. Mr. Sutherland, I agree 
with you. I think having the public buy in, and some of the 
models that you have with Ducks Unlimited is an excellent way 
to both finance and also to make people good stewards of the 
land and the resources that are there. So I do think going 
forward, and understanding limitations that we have with our 
own budgetary problems here in Washington, and then as we grow 
more refuges, the fact that we are also going to have a growing 
maintenance problem, that we do need to look at some different 
innovative financial models that we have seen in other places 
that can be quite successful.
    I do have a question for you. With respect to law 
enforcement challenges, has there been any as a result of the 
Federal duck stamps being available electronically and valid 
for the 45-day time frame?
    Mr. Sutherland. I am not aware of any problems that have 
come out of the system that the Fish and Wildlife Service 
created. They didn't break the ground on this. It was actually 
the first stamps that were available over the Internet were 
done by State agencies with State stamps. And I think that they 
probably had some early mistakes that they made and they 
perfected the system. And I think that the U.S. Fish and 
Wildlife Service picked up on the system that had been 
instituted by many of the States, several of the States. And I 
am not sure, again, I would be aware of that, but I do hear 
things. I am who I am for Ducks Unlimited. I am not aware of 
problems that have developed as a result of this, Mr. Chairman.
    Dr. Fleming. Yes. OK. Excellent. I thank you for that. And 
I have no further questions. Mr. Sablan, you have anything 
further?
    OK. Since there are no further questions, I would like to 
thank all of our witnesses for your valuable testimony and 
contributions. Members of the Subcommittee who may have 
additional questions for the witnesses, we ask that you respond 
to these in writing should we submit them to you. And the 
hearing record will be open for 10 days to receive these 
responses. I want to thank Members and staff for their 
contributions to this hearing.
    If there is no further business, then the Subcommittee 
stands adjourned.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by the National Wildlife 
Federation, Florida Wildlife Federation, and Natural Resources 
Defense Council follows:]

The Honorable John Fleming, Chairman
The Honorable Gregorio Sablan, Ranking Member
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
Committee on Natural Resources
U.S. House of Representatives
1324 Longworth House Office Building
Washington, DC 2051

October 25, 2011

Dear Chairman Fleming and Ranking Member Sablan:

    We are writing regarding proposed changes to the Coastal Barrier 
Resources System (CBRS) that will be the subject of today's 
Subcommittee hearing. Our organizations, which represent millions of 
anglers, hunters, conservationists and outdoor enthusiasts across the 
country, support the CBRS and its many benefits to the American 
taxpayer, public safety and the coastal environment.
    The CBRS is a successful program with a long track record of 
bipartisan support. The Coastal Barrier Resources Act (CBRA), which 
created the System, was enacted in 1982 and amended in 1990 with strong 
bipartisan support in Congress, and leadership from both Republican and 
Democrat administrations. The CBRA seeks to prevent:
        (1)  wasteful expenditures of federal revenues;
        (2)  loss of human life from exposure to deadly acts of nature; 
        and,
        (3)  damage to fish, wildlife and other natural resources along 
        the nation's coasts.
    More than 3 million acres of barrier islands, beaches, dunes, 
wetlands, and associated aquatic habitat are protected through the 
CBRA. These coastal lands and waters are found along the Gulf of 
Mexico, the Atlantic Ocean and the Great Lakes. The CBRA prohibits or 
restricts federal expenditures for new development in areas included in 
the Coastal Barrier Resources System (CBRS). Development itself is not 
prohibited. What is not allowed is the expenditure of Federal funds for 
Federal flood insurance, infrastructure construction, and dozens of 
other Federal programs that would help underwrite or enable new 
development in the System. President Ronald Reagan, in his signing 
statement, noted that the CBRA, ``adopts the sensible approach that 
risk associated with new private development in these sensitive 
[coastal] areas should be borne by the private sector, not underwritten 
by the American taxpayer.''
    Saving Federal tax dollars is more important now than ever. The 
CBRA works to keep the Federal taxpayer from funding development in 
areas that are prone to deadly and enormously costly acts of nature, 
such as hurricanes and storms, thus saving the Federal Treasury 
billions of dollars. In August 2002, the US Fish and Wildlife Service 
estimated that the CBRA has saved the American taxpayer nearly $1.3 
billion in avoided Federal expenditures.
    In addition to saving Federal tax dollars, the CBRA also promotes 
public safety by discouraging Federal support for development in areas 
most prone to hurricanes and storms. The CBRA also promotes the 
conservation of coastal resources, which in turn supports important 
coastal economies.
    We are concerned about H.R. 2154. This bill would institute changes 
to the CBRS in Florida by substituting an un-named and un-dated 
alternative map for the current, official map that was developed by the 
US Fish and Wildlife Service, circulated for public comment and review, 
and implemented as legally binding. The Coastal Barrier Resources Act 
states that the Fish and Wildlife Service retains the sole authority to 
draft CBRS maps, circulate them for public comment and review, revise 
them as necessary and implement them after Congressional approval.
    H.R. 2154 would establish a dangerous precedent for how changes to 
CBRS maps are made and to the integrity of the System. Weakening the 
CBRS in this way would result in reduced savings to the Federal 
Treasury, which the nation can ill afford in these times of fiscal 
constraints.
    The changes that H.R. 2154 would make to the CBRS stand in contrast 
to the changes proposed by H.R. 2027. The boundary modifications 
proposed in H.R. 2027 have been carefully and thoroughly reviewed by 
the FWS, and have been subject to public review and comment, and input 
from the state. The FWS has crafted a substitute map to implement the 
changes envisioned by H.R. 2027, following the protocol for map 
development that is mandated by the Coastal Barrier Resources Act.
    Thank you for the opportunity to submit a statement regarding H.R. 
2027 and H.R. 2154.

Sincerely,

John Kostyack
Vice President of Wildlife Conservation
National Wildlife Federation

Manley Fuller
President
Florida Wildlife Federation

Sarah Chasis
Director, Ocean Initiative
Natural Resources Defense Council

                                 <all>

</pre></body></html>
